<html>
<title> - OVERSIGHT FIELD HEARING ENTITLED ``LOGS IN THE ROAD: ELIMINATING FEDERAL RED TAPE AND EXCESSIVE LITIGATION TO CREATE HEALTHY FORESTS, JOBS AND ABUNDANT WATER AND POWER SUPPLIES.''</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





     LOGS IN THE ROAD: ELIMINATING FEDERAL RED TAPE AND EXCESSIVE 
  LITIGATION TO CREATE HEALTHY FORESTS, JOBS AND ABUNDANT WATER AND 
                            POWER SUPPLIES

=======================================================================

                     JOINT OVERSIGHT FIELD HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                             joint with the

                    SUBCOMMITTEE ON NATIONAL PARKS,
                        FORESTS AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

              Monday, May 14, 2012, in Montrose, Colorado

                               __________

                           Serial No. 112-111

                               __________

       Printed for the use of the Committee on Natural Resources





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-271 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      Betty Sutton, OH
Scott R. Tipton, CO                  Niki Tsongas, MA
Paul A. Gosar, AZ                    Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 John Garamendi, CA
Kristi L. Noem, SD                   Colleen W. Hanabusa, HI
Steve Southerland II, FL             Paul Tonko, NY
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

      

                    SUBCOMMITTEE ON WATER AND POWER

                      TOM McCLINTOCK, CA, Chairman
           GRACE F. NAPOLITANO, CA, Ranking Democratic Member

Louie Gohmert, TX                    Raul M. Grijalva, AZ
Jeff Denham, CA                      Jim Costa, CA
Scott R. Tipton, CO                  Ben Ray Lujan, NM
Paul A. Gosar, AZ                    John Garamendi, CA
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD
Doc Hastings, WA, ex officio

                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Doug Lamborn, CO                     Rush D. Holt, NJ
Paul C. Broun, GA                    Martin Heinrich, NM
Mike Coffman, CO                     Betty Sutton, OH
Tom McClintock, CA                   Niki Tsongas, MA
David Rivera, FL                     John Garamendi, CA
Scott R. Tipton, CO                  Vacancy
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD 
Mark Amodei, NV
Doc Hastings, WA, ex officio

                                 ------                                












                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Month Day 2012...................................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     4
        Prepared statement of....................................     5
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     3
    Tipton, Hon. Scott R., a Representative in Congress from the 
      State of Colorado..........................................     6
        Prepared statement of....................................     7

Statement of Witnesses:
    Dodd, David, Enviro Land Management, LLC, Whitewater, 
      Colorado...................................................    50
        Prepared statement of....................................    52
    Downie, James S., Director, Vegetation Management and 
      Ancillary Programs, Xcel Energy, Denver, Colorado..........    46
        Prepared statement of....................................    48
    Fishering, Nancy, Vice President, Colorado Timber Industry 
      Association, Montrose, Colorado............................     8
        Prepared statement of....................................    11
    Ford, J.R., President, Pagosa Cattle Company, Inc., Pagosa 
      Springs, Colorado..........................................    15
        Prepared statement of....................................    17
    Georg, Clint, Partner, The Alden Group, LLC, Englewood, 
      Colorado...................................................    20
        Prepared statement of....................................    22
    Jiron, Daniel, Regional Forester, Rocky Mountain Region, U.S. 
      Forest Service, U.S. Department of Agriculture, Golden, 
      Colorado...................................................    31
        Prepared statement of....................................    32
    Robertson, Leigh, Grantwriter, Education/Outreach 
      Coordinator, Uncompahgre Partnership, Ridgway, Colorado....    43
        Prepared statement of....................................    44
    Shoemaker, Sloan, Executive Director, Wilderness Workshop, 
      Carbondale, Colorado.......................................    35
        Prepared statement of....................................    37
    Wilkinson, Gary, President, San Juan Trail Riders 
      Association, Durango, Colorado.............................    53
        Prepared statement of....................................    55

Additional materials supplied:
    Bavin, Brian, Montrose, Colorado, Comments submitted for the 
      record.....................................................    71
    Emory, Ken, Montrose, Colorado, Comments submitted for the 
      record.....................................................    72
    Frantz, Richard, Montrose, Colorado, Comments submitted for 
      the record.................................................    72
    Ward, Bruce, Founder, Choose Outdoors, Statement submitted 
      for the record.............................................    57
    White, David, Montrose, Colorado, Comments submitted for the 
      record.....................................................    72
                                     


 
   OVERSIGHT FIELD HEARING ENTITLED ``LOGS IN THE ROAD: ELIMINATING 
 FEDERAL RED TAPE AND EXCESSIVE LITIGATION TO CREATE HEALTHY FORESTS, 
             JOBS AND ABUNDANT WATER AND POWER SUPPLIES.''

                              ----------                              


                          Monday, May 14, 2012

                     U.S. House of Representatives

            Subcommittees on Water and Power, joint with the

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                           Montrose, Colorado

                              ----------                              

    The Subcommittees met, pursuant to call, at 9:00 a.m., in 
Montrose Elks Civil Building, 107 South Cascade Avenue, 
Montrose, Colorado, Hon. Rob Bishop and Hon. Tom McClintock 
[Chairmen of the Subcommittee on Water and Power] presiding.
    Present: Representatives Bishop, McClintock, and Tipton.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. The Subcommittee on Water and Power, and 
National Parks, Forests and Public Lands, will come to order. I 
want to welcome all of you to today's hearing. I am Congressman 
Tom McClintock from Northern California. I am Chairman of the 
Water and Power Subcommittee. I am joined here today by 
Congressman Rob Bishop from Utah, the Chairman of the National 
Parks, Forests and Public Lands Subcommittee, and we are here 
today at the request--in fact, I might say the insistence--of 
Congressman Scott Tipton, who is also with us today.
    [Applause.]
    Mr. McClintock. We are here today to take testimony on a 
hearing entitled ``Logs in the Road: Eliminating Federal Red 
Tape and Excessive Litigation to Create Healthy Forests, Jobs, 
and Abundant Water and Power Supplies.''
    To begin today's hearing, I would like to defer to our 
distinguished colleague, Congressman Tipton, for a few 
introductions.
    Congressman Tipton?
    Mr. Tipton. Thank you, Chairman McClintock. And I would 
also like to recognize and thank Chairman Bishop from Utah for 
being here as well. This is an important topic, I think, for 
all of us out of the Western states.
    Mr. Chairman, today we are privileged to have the Montrose 
High School ROTC, led by Cadet Lieutenant Zach Gibson, and they 
will be posting the colors and lead us in the Pledge of 
Allegiance.
    Gentlemen and ladies?
    [Pledge of Allegiance.]
    Mr. McClintock. Thank you, Congressman Tipton.
    We will now begin with 5-minute opening statements, 
beginning with mine.
    Today's hearing has a ponderous title, but it is a national 
policy imperative. Eliminating Federal red tape and excessive 
litigation is, indeed, the only path to create healthy forests, 
jobs, and abundant water and power supplies.
    I again want to thank Congressman Scott Tipton for his 
leadership on these issues and for pressing to have this field 
hearing conducted today here in Montrose, a community that 
bears the wounds of the ``greens gone wild'' policies of recent 
years.
    An old forester----
    [Applause.]
    Mr. McClintock. An old forester in my district summed up 
the problem we are here to assess very well when he said, ``The 
excess timber is going to come out of the forest one way or the 
other. Either it is going to be carried out or it will be 
burned out, but it will come out.''
    A generation ago, we carried it out, and the result was a 
thriving economy and a healthy forest. But then a radical and 
retrograde ideology was introduced into our public policy, 
transforming sound forest management practices into what can 
only be described as benign neglect. The result is now clear 
and undeniable: economically devastated communities, closed 
timber mills, unemployed families, overgrown forests, overdrawn 
watersheds, jeopardized transmission lines, rampant disease and 
pestilence, and increasingly intense and frequent forest fires. 
That is the story of Montrose, Colorado and Saratoga, Wyoming, 
and of Quincy and Camino and Sonora, little towns in my 
district in California's Sierra Nevada Mountains, all once 
thriving and prosperous communities that have been devastated 
by these policies.
    When the mills in my district closed in 2009, the owner 
made it very clear that although the economic downturn was a 
catalyst, the underlying cause was the fact that two-thirds of 
the timber they depended upon was being held up by 
environmental litigation. Despite the recession, they still had 
enough business to keep the mills open and to keep those 
families employed if the environmental left had not cut off the 
timber that those mills depended upon.
    This is not environmentalism. True environmentalists 
recognize the damage that is done by over-growth and over-
population, and they recognize the role of sound, sustainable 
forest management practices in maintaining healthy forests. No 
picture I have seen paints a more vivid case for returning to 
these sound and proven forest management practices than an 
aerial photo of the Fraser Experimental Forest in Colorado a 
few years ago that is often called the Red Hand of Death.
    The areas of that forest consigned to benign neglect forms 
a dead zone that looks like a red hand. Overgrown and 
unmanaged, bark beetles found it easy pickings. That is what 
the so-called environmental movement has done to our forests. 
It is surrounded by green, thriving, healthy forest in which 
excess timber was properly harvested, and the remaining trees 
had enough room to grow strong enough to easily resist the 
infestation all around it.
    Now, we are told there is not enough money for forest 
thinning, and yet we used to have no problems keeping our 
forests thinned and healthy when we sold commercially viable 
timber. The problem is that if they take place at all, timber 
harvests today are restricted to small-diameter trees. I mean, 
can you imagine a fishery or wildlife policy limited to taking 
only the smallest juveniles of the species?
    Meanwhile, we know that of the $53 million of so-called 
stimulus funds allocated to the Forest Service in Colorado, 
only $16 million was allocated to address the bark beetle 
infestation, while the remainder went to such dubious projects 
as a bird tour road and solar panels. Fortunately, from what I 
have seen, the American public has awakened to the 
ramifications of these policies and has had a bellyful of them, 
and it is in the process of replacing the politicians 
responsible for them. I believe we are on the verge of a new 
era when proven practices and common sense will replace the 
ideological extremism that has dominated our forest policy for 
the past generation.
    I am particularly interested today in suggestions of what 
needs to be done legislatively and administratively to unravel 
the paralyzing tangle of litigation, over-regulation, and 
endless deliberation that have misguided our Federal agencies 
so far away from their public trust.
    I want again to thank Scott Tipton for his indefatigable 
leadership on this issue, and Rob Bishop, Chairman of the 
Subcommittee with direct oversight over our forests, for his 
efforts over many years to combat and correct these policies. I 
think that because of his steady leadership, we are now on the 
verge of being able to change those policies and produce a new 
era of healthy and thriving forests, as well as prosperous and 
secure forest communities.
    And with that, it is my honor to yield to the gentleman 
from Utah, Chairman of the Subcommittee on Forests, Mr. Bishop.
    [Applause.]
    [The prepared statement of Mr. McClintock follows:]

         Statement of The Honorable Tom McClintock, Chairman, 
                    Subcommittee on Water and Power

    Today's hearing has a ponderous title but it is a national policy 
imperative: ``Eliminating Federal Red Tape and Excessive Litigation'' 
is indeed the only path to ``Create Healthy Forests, Jobs and Abundant 
Water and Power Supplies.''
    I want to thank Congressman Scott Tipton for his leadership on 
these issues and for pressing to have this field hearing conducted here 
in Montrose, a community that bears the wounds of the ``Greens Gone 
Wild'' policies of recent years.
    An old forester in my district summed up the problem we are here to 
assess when he said, ``The excess timber is going to come out of the 
forest one way or another. Either it will be carried out or it will be 
burned out. But it will come out.''
    A generation ago, we carried it out and the result was a thriving 
economy and a healthy forest. But then a radical and retrograde 
ideology was introduced into our public policy transforming sound 
forest management practices into what can only be described as benign 
neglect.
    The result is now clear and undeniable: economically devastated 
communities, closed timber mills, unemployed families, overgrown 
forests, overdrawn watersheds, jeopardized transmission lines, rampant 
disease and pestilence and increasingly intense and frequent forest 
fires.
    That is the story of Montrose, Colorado and Saratoga, Wyoming, of 
Quincy and Camino and Sonora (little towns in my district in 
California's Sierra-Nevada)--once thriving and prosperous communities 
that have been devastated by these policies.
    When the mills in my district closed in 2009 the owner made it very 
clear that although the economic downturn was a catalyst, the 
underlying cause was the fact that 2/3 of the timber they depended upon 
was held up by environmental litigation.
    Despite the recession, they still had enough business to keep the 
mills open--- and to keep these families employed--if the environmental 
Left had not cut off the timber, those mills depended upon.
    This is not environmentalism. True environmentalists recognize the 
damage done by overgrowth and overpopulation and recognize the role of 
sound, sustainable forest management practices in maintaining healthy 
forests.
    No picture I've seen paints a more vivid case for returning to 
these sound and proven forest management practices than an aerial photo 
of the Fraser Experimental Forest in Colorado a few years ago that is 
often called the ``Red Hand of Death.'' The areas of that forest 
consigned to benign neglect forms a dead-zone that looks like a ``Red 
Hand.'' Overgrown and unmanaged, bark beetles found it easy pickings. 
That's what the so-called environmental movement has done to our 
forests.
    It is surrounded by green, thriving, healthy forest in which excess 
timber was properly harvested and the remaining trees had enough room 
to grow strong enough to resist the infestation around it.
    We're told that there isn't enough money for forest thinning, and 
yet we used to have no problems keeping our forests thinned and healthy 
when we sold commercially viable timber. The problem is that if they 
take place at all, timber harvests are restricted to small diameter 
trees. Can you imagine a fishery or wildlife policy limited to taking 
only the small, juvenile of the species?
    Meanwhile, we know that of $53 million of so-called ``stimulus 
funds'' allocated to the Forest Service in Colorado, only $16 million 
was allocated to address the bark beetle infestation, while the 
remainder went to such dubious projects as a ``bird tour road'' and 
solar panels.
    Fortunately, from what I have seen, the American public has 
awakened to the ramification of these policies and has had a belly-full 
of them--and it is in the process of replacing the politicians 
responsible for them. I believe we are on the verge of a new era when 
proven practices and common sense will replace the ideological 
extremism that has dominated our forest policy for the past generation.
    I am particularly interested today in suggestions of what needs to 
be done legislatively and administratively to unravel the paralyzing 
tangle of litigation, over-regulation, and endless deliberation that 
have misguided our federal agencies so far from their public trust.
    I again want to thank Scott Tipton for his indefatigable leadership 
on this issue, and Rob Bishop, Chairman of the sub-Subcommittee with 
direct oversight over our forests for his efforts over many years to 
combat and correct these policies. I think that because of his steady 
leadership we are now on the verge of being able to change those 
policies and produce a new era of healthy and thriving forests as well 
as prosperous and secure forest communities.
                                 ______
                                 

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. I thank you. Thank you, Congressman McClintock 
and Congressman Tipton. Thank you for the invitation to come 
here. I had a unique way of getting here last night, but thank 
you for the invitation anyway. It is great to be with you here 
in this historic building and see how you have renovated it to 
a very useful purpose. I thank you for having that opportunity.
    We all know that the Mountain Pine Beetle has turned much 
of Colorado, not to mention forests throughout the entire West, 
into simply a sea of dead and dying trees. We are almost on the 
20-year anniversary of this problem, and we are also on the 
anniversary of 20 years of the government's failed forest 
policies that have allowed this native insect to reach epidemic 
proportions. It has impacted what is now 40 million acres 
nationwide. That is almost 20 percent of our national forest 
system that is affected by it.
    A sharp decline in forest management--and I should say 
because of aesthetic, not scientific reasons--has left these 
forests in an extremely unnatural and unhealthy state, the 
result of which has been a feeding frenzy for the beetle, but 
also dead trees for the rest of us. This is not a unique 
problem. We have had hearings this year in South Dakota and 
California. We have visited in Montana and Oregon, my home 
state of Utah. The causes are all the same, and the solutions 
are all the same. You have to thin the trees.
    The problem involves the danger of falling trees that stop 
recreation, utility right-of-ways. They threaten our power 
grid. They threaten our water quality. They have catastrophic 
impacts on the communities. In this state they have led to 
fire, which has caused loss of property and, unfortunately, 
loss of lives, and left a landscape that is, bluntly, ugly.
    We can change courses, but if we do so, it will require 
that we are not impeded by inflexible regulations, impeded by 
frivolous lawsuits and appeals, and we have to have access to 
the areas, road access to our forest areas. There is also a 
unique and specific economic impact from all these decisions we 
have to make.
    In sum, as I am sure we are going to hear from the 
witnesses that we have here today, active management is better 
for the forests, and it is better for the taxpayer, and 
especially given the billions we are now spending on fire 
suppression, it is better for our Western communities that are 
forced to play host to this Federal Estate.
    I want to thank Representative Tipton for his leadership on 
this issue, inviting us and our Subcommittees to Montrose to 
see firsthand the impacts of this issue and the paths toward 
addressing it. I look forward to hearing from our witnesses 
today, and I thank them for showing up.
    With that, Mr. McClintock, I turn it back to you.
    [The prepared statement of Mr. Bishop follows:]

           Statement of The Honorable Rob Bishop, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    As many of you are witness to each day, the Mountain Pine Beetle 
has turned most of Colorado, not to mention pine forests throughout the 
West, into a sea of dead and dying trees. Sadly, decades of the federal 
government's failed forest policies have in part allowed this native 
insect to reach epidemic proportions that have impacted over three 
million acres in Colorado alone. Bark beetles have so far claimed over 
40 million acres nationwide--equal to nearly 20% of the National Forest 
System.
    A sharp decline in forest management has left these forests in an 
extremely unnatural and unhealthy state, the result of which has been a 
feeding frenzy for the beetles but only dead trees for the rest of us.
    These forest conditions present a multitude of challenges to 
beneficial use of our national forests. The danger of falling trees 
threatens access both for management and recreation, utility right-of-
ways, and correspondingly the integrity of the power grid, as well as 
water quality and supply. These forests also impose an overwhelming 
risk of catastrophic to mountain communities in addition to compounding 
the aforementioned threat to multiple-use.
    Finally, and to be blunt, the sight of a dead landscape is simply 
unappealing to many who come to enjoy their public lands across the 
Rocky Mountain West.
    Fortunately, we are in a position to change course on this issue. 
Active, scientific forest management--when not impeded by inflexible 
regulations and frivolous appeals and lawsuits--can begin the process 
of restoring our forests. This epidemic was decades in the making and 
will not be curbed overnight, but it is important to ensure that our 
federal land managers have the flexibility to implement forest 
management projects and utilize our partners to maintain infrastructure 
that is necessary to ensure the long term health and productivity of 
the land and natural resources that have been entrusted to their care. 
In sum, and as I'm sure we'll hear from some of our witnesses, active 
management is better for the forests, better for the taxpayer--
especially given the billions now spent annually on fire suppression--
and better for our western communities that are forced to play host to 
this federal estate.
    I thank Representative Tipton for his leadership on this issue and 
for inviting our subcommittees to Montrose to see firsthand the impacts 
of this issue and the path towards addressing it. I look forward to 
hearing from our witnesses.
                                 ______
                                 
    Mr. McClintock. Thank you, Mr. Bishop.
    And now I am pleased to recognize our host today, 
Congressman Tipton.

    STATEMENT OF THE HON. SCOTT TIPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Tipton. Thank you, Mr. Chairman.
    If I may, I would like to extend our thanks to the City of 
Montrose staff, which has been able to put this room together 
for us: Lisa DelPiccolo, the City Clerk; David Spear, the 
Records and Communication Manager; Jeff Sheets, the Information 
Technology Manager; Carolyn Bellavance, the Executive 
Assistant; and Bill Bell, the City Manager. I certainly thank 
you all for helping us put this together.
    [Applause.]
    Mr. Tipton. Chairman McClintock and Chairman Bishop, I 
would like to thank you for convening today's hearing and 
taking the time to be able to come to Montrose to hear from the 
constituents of the 3rd Congressional District and across the 
West on this critical issue.
    Properly managing our national forests is critical to 
Western economies and to our livelihoods; a healthy, natural 
environment; and affordable, reliable power and water supplies. 
Many of our Western national forests are currently threatened 
by unhealthy conditions, the bark beetle infestation that 
increases susceptibility to wildfire and damage wildlife 
habitat. These problems threaten lives and impact valuable jobs 
in the timber, energy and recreation industries, as well as 
countless indirect jobs in related industries. Increased fire 
risk also threatens Western water quantity and quality, and the 
generation and transmission of electricity. Through prudent 
forest management and the ability to access and actively manage 
timber resources, communities can support jobs that depend on 
valuable and viable timber industries.
    Effective forest management fosters healthy forests, 
protects against wildfires, and safeguards the natural beauty 
and tourism draw the Western states provide, while maintaining 
dependable water and power supplies.
    In 2010, Senator Mark Udall wrote the USDA Secretary 
Vilsack requesting that the Forest Service conduct a full 
review of the Mountain Pine Beetle outbreak to be able to 
determine what more can be done and what additional tools may 
be needed to be able to respond to the 2010 outbreak, and 
future outbreaks as well.
    I would like to thank Senator Udall for his continued 
attention and commitment to this matter.
    In the report produced in response to the Senator's 
request, the Forest Service cites routine litigation of Forest 
Service action approving timber harvesting and active 
management, drought, lack of allocation of resources to timber 
management, limited access to areas due to the inability to 
provide access roads and Federal land designations such as 
wilderness which precludes forest treatment, as the primary 
contributing factors to the rampant bark beetle outbreak. The 
report also highlights the commercial thinning to reduce stand 
density in advance of the outbreak did not keep pace with the 
rate of the bark beetle infestation spread.
    In Region 2 of the Forest Service, the timber industry has 
declined by 63 percent since 1986, according to the Forest 
Service report. It is time that we take active steps to be able 
to address the bark beetle epidemic and to partner with 
responsible stewards of our natural resources in the private 
sector who are willing to solve it. This will put people back 
to work.
    For far too long, short-term solutions have been put 
forward which fall far short of addressing the long-term 
problem and remedies are being applied to broad, sweeping 
infestations. The 2002 Hayman fire, the largest in Colorado 
history, burned over 138,000 acres, costing nearly $40 million 
in fire-fighting costs, destroying 133 homes and forcing the 
evacuation of better than 5,300 individuals. This catastrophic 
event could very well happen again if our forests are left to 
burn; and, in fact, we are recently reminded of the dangerous 
risk of wildfire that Colorado faces.
    As the summer season approaches, the probability of 
wildfire increases even further. It is my hope that this 
hearing on the interconnected issues of forest management will 
help highlight the problems that led to these conditions and 
lead to solutions that will reverse some of the damage that has 
been done, and help avoid similar catastrophes in the future.
    Thank you, and I yield back.
    [The prepared statement of Mr. Tipton follows:]

     Statement of The Honorable Scott R. Tipton, a Representative 
                 in Congress from the State of Colorado

    Thank you Chairman McClintock and Chairman Bishop for convening 
today's hearing and taking the time to come to Montrose to hear from 
constituents of the 3rd Congressional District and across the West on 
this critical issue.
    Properly managing our national forests is critical to western 
economies and livelihoods, a healthy natural environment, and 
affordable, reliable water and power supplies. Many of our western 
national forests are currently threatened by unhealthy conditions and 
bark beetle infestation that increase susceptibility to wildfire and 
damage wildlife habitat. These problems threaten lives and impact 
valuable jobs in the timber, energy, and recreation industries as well 
as countless indirect jobs in related industries. Increased fire risk 
also threatens western water quantity and quality and the generation 
and transmission of electricity.
    Through prudent forest management and the ability to access and 
actively manage timber resources, communities can support jobs that 
depend on a viable timber industry. Effective forest management fosters 
healthy forests, protects against wildfires, and safeguards the natural 
beauty and tourism draw that western states provide while maintaining 
dependable water and power supplies.
    In 2010, Senator Mark Udall wrote to USDA Secretary Vilsack 
requesting that the Forest Service conduct a full review of the 
mountain pine beetle outbreak to determine what more can be done and 
what additional tools may be needed to respond to the 2010 outbreak and 
future outbreaks as well. I want to thank Senator Udall for his 
continued attention and commitment to this matter. In the report 
produced in response to the Senator's request, the Forest Service cites 
routine litigation of Forest Service action approving timber harvesting 
and active management, drought, lack of allocation of resources to 
timber management, limited access to areas due to the inability to 
provide access roads, and federal land designations such as Wilderness 
which precludes forest treatment, as the primary contributing factors 
to the rampant bark beetle outbreak. The report also highlights that 
commercial thinning to reduce stand density in advance of the outbreak 
did not keep pace with the rate of the bark beetle infestation spread.
    In Region 2 of the Forest Service, the timber industry has declined 
by 63% since 1986 according to the Forest Service report. It is time 
that we take active steps to address the bark beetle epidemic and 
partner with the responsible stewards of our natural resources in the 
private sector who are willing to solve it, while putting people back 
to work. For too long, short term solutions have been put forward which 
fall short of addressing a long term problem, and small scale remedies 
applied to broad sweeping infestation.
    The 2002 Hayman Fire, the largest in the Colorado's history, burned 
over 138,000 acres, cost nearly $40 million in firefighting costs, 
destroyed 133 homes and forced the evacuation of 5,340 people. This 
catastrophic event could very well happen again if our forests are left 
to burn and, in fact, we were very recently reminded of the dangerous 
risk of wildfire that Colorado faces. As the summer season approaches, 
the probability of wildfire increases even further. It is my hope that 
this hearing on the interconnected issues of forest management will 
help highlight the problems that led to these conditions and lead to 
solutions that reverse some of the damage that has been done, and help 
avoid similar catastrophes in the future.
                                 ______
                                 
    Mr. McClintock. Thank you, Congressman.
    [Applause.]
    Mr. McClintock. Before I recognize today's witnesses, I 
would like to urge those in attendance to submit their own 
testimony for the record, since we are obviously limited in how 
many witnesses we can hear today. You can do so by filling out 
your thoughts on the paper at the table, or please see one of 
our staff members on how to submit comments electronically.
    Could you guys raise your hands so people can see where you 
are?
    They are staff members. Oh, they are right over here.
    We will now hear from our panel of witnesses. Each witness' 
written testimony will appear in full in the hearing record, so 
I would ask that witnesses keep their oral statement to 5 
minutes, as outlined in our invitation letter to you and under 
Committee Rule 4(a).
    I also want to explain how our timing lights work. When you 
begin to speak, our clerk will start the timer, sort of like 
driving. When there is a green light, you have all the time in 
the world. When you have 1 minute left, there will be a yellow 
light, which means talk very, very fast. And when it turns red, 
for God's sake, stop.
    [Laughter.]
    Mr. McClintock. I would now like to recognize Ms. Nancy 
Fishering, the Vice President of the Colorado Timber Industry 
Association from Montrose, Colorado to testify.

 STATEMENT OF NANCY FISHERING, VICE PRESIDENT, COLORADO TIMBER 
            INDUSTRY ASSOCIATION, MONTROSE, COLORADO

    Ms. Fishering. Thank you, Chairman Bishop and McClintock, 
and Subcommittee members. Thanks also for the support of 
Colorado Representatives Scott Tipton and Mike Coffman and our 
senators who have devoted time to our issues.
    My name is Nancy Fishering. I am an officer and board 
member of Colorado Timber Industry Association and have served 
since 1996.
    Mr. Bishop. Is your mic turned on, ma'am?
    Ms. Fishering. Is it on now?
    Mr. Bishop. That is better.
    Ms. Fishering. There you go. It said green. It still says 
green. Sorry.
    I am also a contracted timber project manager for the 
Montrose Economic Development Corporation, who recognizes the 
jobs that are at stake here in Montrose in the timber industry.
    I have worked in all seven of the national forests in 
Colorado, and as some of the comments of----
    Mr. Bishop. Ma'am, I am sorry. They are still having a hard 
time hearing. Can you pull that right up to your mouth? Now try 
it.
    Ms. Fishering. Now?
    Mr. Bishop. There you go.
    Mr. McClintock. I think we have it now.
    Ms. Fishering. Can I get my green light to start all over?
    [Laughter.]
    Mr. McClintock. Yes, we will do that.
    Ms. Fishering. Five minutes is not very long.
    [Applause.]
    Ms. Fishering. Thank you. OK.
    I have worked in all seven Colorado national forests on 
behalf of or with the timber industry in Colorado. We have lost 
an estimated 6 million acres of trees. Out of that 40 million, 
6 million in Colorado have died in the past 10 years. Current 
insect flights right around the Montrose area are at some 
unprecedented levels. We have been partners, however, with the 
Forest Service to strategically try to tackle these issues.
    The good news from my point of view is we have had strong 
bipartisan support to keep a stable forest products budget line 
item. Thanks to you all for your support on that item. However, 
it is flat, and flat, as you know in today's rising diesel 
costs and other employment costs, means we are actually going 
downhill in terms of having the allocation of funds that we 
need to do the work on the ground.
    We give credit to this region. We have been working very 
hard on the issues you all have raised. This region had the 
highest accomplishment in 2011 of all the regions in the United 
States, and this success occurred in spite of having the 
lowest, one of the lowest budget allocations for regions in the 
United States.
    We embrace some of the new authorities that have been given 
to us, such as stewardship contracting, the Collaborative 
Forest Landscape Restoration Project. We participate as members 
in the collaborative network throughout Colorado. And while 
supporting all these new initiatives, I worry about this hodge-
podge of laws that the Forest Service has to work under, which 
I believe affects their effectiveness.
    We believe the existence of mills is very important to keep 
the costs down and to get more acreage treated. We need you to 
know that the Montrose Sawmill has been out of work for the 
past four weeks due to a timber supply, not because it is not 
out there, but we have spring break-up problems where you don't 
actually access the wood for certain times of the year.
    It is currently in receivership also due to the economy. It 
isn't all because of Forest Service issues and the litigation 
that you spoke to, but we are ready and poised to re-open the 
mill as these legal issues wind through the system.
    But we need to keep this mill and the other mills in 
Colorado, and to do that we need the skills of our loggers, and 
we need to find the efficient projects. We need a predictable, 
even supply of sawlogs. You would think with all the forest 
health issues there would be plenty, but actually right now we 
are looking at a potential not enough sawlogs to keep the mills 
open in Colorado.
    So for that reason, we have some suggestions. We would like 
to see an increase nationally on a Forest Service target for 
timber sales from 2.6 billion board feet to 3 billion board 
feet. This would allow to get us more of a--you need a budget, 
and then get the supply that the mills and the loggers need. 3 
billion board feet sounds like a lot, but we have to keep in 
mind that there are 22 billion board feet growing every single 
year in our national forests. So we don't begin to put a dent 
in the problem.
    We also need to salvage dead trees, but we can't forget the 
green trees. The viability of an industry is when these trees 
stand dead for too many years, you need some green, good saw 
timber to mix in with the dead, or we don't have an economical 
plan to go forward and to keep up with our investments.
    Regionally, we look at allocations. We need an equitable 
allocation across the United States and across the states, and 
within our states, because a mill can't pick up and go every 
time a forest health bug goes in a different direction. The 
mill is in Montrose. It is fixed in one place. The mill in 
Delta is fixed in one place. We need to keep in mind the 
economics of how to keep the timber industry alive.
    Last, we have a whole list of small efficiencies that we 
know that could get us more timber tomorrow for not a lot more 
dollars spent, and would reduce the cost for the Forest 
Service. We have many non-essential projects that we do in a 
timber sale project. We have road packages and we have extra 
side work that we do, and that is good when there is an economy 
that can afford to support that. But right now, we need to be 
boots on the ground. Loggers need to take all obstacles away 
because we have too many acres that we need to cover.
    We need to use more of the Healthy Forest Restoration Act 
where they have streamlined judicial review, which helps us not 
get bogged down in appeals that take the timber off the table.
    There is a newly authorized pre-decisional administrative 
objection process that got passed through the appropriations 
bill this year. However, it needs to be implemented yesterday 
if we are going to, again, cut into some of the obstacles that 
we have to getting timber projects up on the ground.
    We would like to see each--if you took every single timber 
project that has already been through collaboration, that has 
already been through the NEPA analysis, you would find more 
timber available tomorrow if you maximized every single one of 
those projects.
    I see my red light went on, so I just have to say thank you 
for the honor of being able to testify. A lot of details you 
just can't get into in 5 minutes.
    Thank you.
    [The prepared statement of Ms. Fishering follows:]

             Statement of Nancy Fishering, Vice President, 
                  Colorado Timber Industry Association

    Thank you Chairmen Bishop and McClintock and subcommittee members. 
Thanks also for the support of Colorado Representatives Scott Tipton 
and Mike Coffman and our Senators who have devoted time to our issues.
    My name is Nancy Fishering. I am an officer and board member of 
Colorado Timber Industry Association and have served since 1996. I have 
also contracted to serve as the Timber Project Manager for the Montrose 
Economic Development Corporation which is a proactive community 
response to the Montrose sawmill receivership status. My background 
includes: 15 years working for the local sawmill currently in 
receivership, and two years working with my local governments to 
monitor the status and prospective purchase of the Montrose mill. My 
focus has been the retention of the jobs that have been held by many 
friends and former co-workers. I also have been a member of the various 
Colorado Forest Health Advisory boards and was honored to be appointed 
by three different Governors since 2001; and I have spent years working 
one-on-one with loggers and mills while problem solving on timber 
management issues on every National Forest in Colorado as well as 
collaborating with other public land agencies.
    Today's hearing is important to our local community, our State of 
Colorado and to all who value the beauty and grandeur of the American 
West and the forested mountains that comprise our high country 
watersheds. Colorado forests provide abundant water through our 
headwater rivers which drain fully 1/3 of the landmass of the lower 48 
states. We are sitting on the Western Slope of Colorado where 80% of 
the precipitation falls for the rivers in Colorado. This is truly an 
appropriate location for todays' discussion, and we welcome you.
    Colorado's forests have experienced incredible and unprecedented 
scale forest health issues over the past 10 years. Over 6 million acres 
of trees have died during this relatively short time.
    The numbers bear repeating since this state has been under siege 
since 2002:
        <bullet>  2002 over \1/2\ million acres burned--the most in any 
        year of Colorado's recorded history;
        <bullet>  2002-present over 50% of pinyon killed in SW 
        Colorado, and \1/4\ million acres of subalpine fir died;
        <bullet>  1996 to 2011 cumulative insect damages including over 
        4 million acres of trees killed by MPB in CO and Southern 
        Wyoming; over 1.1 million acres of aspen died, over \1/2\ 
        million acres of spruce killed by the Spruce bark beetle and 
        another 600,000 acres of spruce defoliated by the Western 
        Spruce Budworm.
    I would purport that no other single state has tackled so many 
different forest health issues in such a condensed period of time.
    I represent the folks who work in the woods, who process the wood, 
and who have the primary role of performing forest health projects as 
designed by our public land agencies. Public land agencies control 
management on 68% of the forestland in Colorado. Our forest products 
companies log burned trees, dead trees, and green trees, we thin trees, 
grind and remove woody biomass and protect public health and safety by 
removing hazard trees. We are pleased to be partners with the United 
state Forest Service and Bureau of Land Management, and our Colorado 
State Forest Service. We also recognize the important role played by 
our many collaboratives throughout the state who study, discuss and 
support the management efforts required by these forest health events. 
I personally have devoted untold hours working side by side with local 
officials, ranchers, miners, water boards, public utilities, local 
environmental groups, academia, and concerned citizens who care deeply 
that the issues are addressed. Our industry performs the work with 
diligence and stewardship of the land as a primary concern. For 
example, in 1994 this county was a sponsor and driving force to create 
the Public Lands Partnership which is nationally recognized and one of 
the oldest collaboratives still working on public land issues.
    After the forest health issues are discussed and defined, my 
priority is the ACTION. Today's hearing is focused on ACTION because 
never before have we had so many management needs under such 
challenging budget and credit conditions. Fellow forest products 
companies have said to me that Colorado is the canary in the mine. The 
most important lessons that I have learned boil down to two essential 
concepts: economics of supply and efficiencies.
    Economics: Within Colorado we have a small but diversified forest 
products infrastructure. The mill in Montrose is the largest capacity 
mill in the state although operating under receivership poses 
operational challenges that have compromised operating at maximum 
efficiency and scale. The Montrose mill and other family owned Colorado 
mills are primary processors of timber and have the capacity to create 
products that pay for logging thus reducing the costs of forest 
management. We also now have secondary processors such as our pellet 
mills and restoration forestry professionals who create value from 
older and smaller timber and biomass that must also be removed from the 
forests to mitigate risk of wildfire.
    The processors in turn purchase materials from the loggers who buy 
timber from federal projects and perform tasks under service contracts 
where public land agencies pay to for services such as hazard tree 
removal along roads, trails, and campgrounds. I am sincerely concerned 
about the trajectory of timber supply outputs since processors are 
ultimately dependent upon a steady, predictable supply of sawlog-
quality timber that can be economically processed into marketable 
finished products.
    First, the good news. I am encouraged that the United States Forest 
Service (USFS) Forest Products budget line item has received strong bi-
partisan support and has avoided cuts that would be devastating to our 
efforts.
    We give a quick kudos to Region 2 who had the highest 
accomplishment of all Regions within the USFS for 2011. This Region 2 
success occurs in spite of having one of lowest overall budget 
allocations among all the regions in the US.
    I am encouraged that new authorities such as stewardship 
contracting and Collaborative Forest Landscape Restoration have been 
added to the Forest Service toolbox. The strong collaborative network 
throughout Colorado has used these tools to design and add new 
management projects while avoiding costly appeals. I have supported the 
creation of each of these tools while simultaneously having concerns 
about the patchwork of laws that we continue to weave which may 
ultimately undermine effective agency response. Collaboratives have an 
outstanding track record, however the process is time consuming, 
compromise is often at play which reduces pace and scale and effects 
product mix, and many will never truly understand the urgency of action 
that is felt by our membership who have hard earned money at risk and 
`skin in the game.'
    As we further pursue the USFS emphasis on collaboration, 
stewardship and Integrated Resource Restoration (IRR) budgeting we 
request specific requirements for efficiency and sawlog outputs. The 
collective tool box must still be implemented in light of the need to 
offer economical timber sales within reach of existing mills which make 
wood available on a competitive basis (i.e.--don't tie everything up in 
one Stewardship contract). Colorado remains uniquely at risk if this 
provision is not followed since so much of the Colorado forestland is 
under the jurisdiction of the USFS and essentially the only source of 
sawtimber.
    These attainments are important to the timber industry. We know 
that the existence of robust processing capacity is the best, most 
cost-effective tool for forest health and removal of the fiber. Why? 
Because the primary and secondary processors can purchase the timber, 
pay the loggers a living wage, add value, and then market lumber, 
pellets or energy at a profit. Without both profitable timber 
processing, the presence of skilled loggers, timber management options 
to dispose of the millions of dead trees are much more limited and 
expensive.
    The nearby Montrose sawmill is the largest capacity mill in the 
state and the mill that has processed the vast majority of conifer over 
the past 10 years is in receivership due to the devastating effects of 
the recession on the housing sector. In 2008 Intermountain Resources 
had processed 90% of the beetle killed timber in Colorado according to 
USFS records. In order to maintain this vital element of the limited 
infrastructure left in Colorado, and to retain the skills of my 
colleagues, we need to be very aware of the economics of the myriad 
decisions and projects chosen to address forest health. We must find 
that `sweet spot' of efficient projects, a predictable and even supply 
of sawlogs, correct costs, and profitable return in order to `close the 
sale' and entice the investment to keep this mill and the jobs it 
supports, and strengthen all Colorado companies that work in the 
forest.
    The industry constantly monitors project level issues that can 
overcome a timber contract purchaser. Our goal is to stay profitable 
and keep working so each and every issue must be addressed as we 
partner in the day to day operations to address forest health.
    A quick summary of issues we face include:
        <bullet>  Need to maximize sawlog-quality material in every 
        timber project from conventional timber sale contracts, to 
        stewardship contracts, to service contracts, to Indefinite 
        Duration Indefinite Quality (IDIQ) contracts. With adequate 
        sawlog supply the various processors will complement each other 
        rather than cannibalize each other.
        <bullet>  Need road packages and stumpage fees that are 
        designed at a scale affordable in today's forest product 
        markets. The following chart shows the recent history of lumber 
        markets which is a fundamental challenge as we treat forest 
        health projects.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        

        <bullet>  Steadily increasing acreage in roadless, 
        wilderness, or wildlife habitat restricted areas such lynx 
        management units decreases the acreage available for timber 
        harvest or mitigation for the risks of catastrophic fires. In 
        the case of the Southern Rockies Lynx Amendment there are 
        implications that may restrict long term management of young 
        regenerated stands that should be thinned to maintain vigor and 
        health.
        <bullet>  The Forest Service Appraisal system has shown 
        increasing flaws and needs to receive a major adjustment to be 
        accurate in today's economy. A national team is currently being 
        formed to study this important issue on viable pricing.
        <bullet>  Many contracts continue to contain restrictive 
        clauses that severely affect the economics of logging
        <bullet>  The Forest Service lacks tools to quickly and 
        efficiently make and implement decisions in response to bark 
        beetle epidemics. Timing is critical since insects are moving 
        at unprecedented rates. Fire funding and personnel are 
        immediately available, but a similar mechanism is lacking for 
        insect epidemics.
        <bullet>  Expectations for industry to participate in forest 
        planning takes an unconscionable length of time as in the case 
        of the Grand Mesa, Uncompahgre, Gunnison National Forest plan 
        which first began in 1999 and has no closure as of this date.
        <bullet>  Last a recent court case has essentially determined 
        that forest logging roads are `point sources' of pollution and 
        must now comply with highly bureaucratic and costly processes 
        that could seriously disrupt all timber forest health projects.
    Each of these issues receive attention and are works in progress 
with the Forest Service, but the patchwork of old laws and new laws and 
shifting priorities create a huge challenge and uncertainty for Forest 
Service staff as well as our industry. Since the early 2000's, the 
Colorado Congressional delegation has been actively engaged on many of 
these fronts and have supported numerous pieces of legislation to 
assist this unwieldy system. We have not successfully passed many good 
ideas. We all want a system that is rational, environmentally sound and 
one that is economically viable and sustainable. We fear the patchwork 
approach that adds laws while not removing antiquated processes 
designed for a different time.
    We are thankful that we have investors willing to build and operate 
in such challenging and often uncertain conditions.
    Within our industry we see several overriding disturbing trends at 
this vulnerable time in the recovery of forest products sector:
    The flat Forest Service budget and cuts in mutually dependent line 
items has resulted in a declining trajectory of outputs or sawlog 
supply for Colorado companies. This is a trend that can and should be 
addressed immediately.
    Our solution would be to rely on the historic tools of requiring 
definitive timber outputs. With the underlying bi-partisan support on 
timber management we can and should monitor timber outputs.
    Nationally, we ask for an immediate increase in Forest Service 
targets from 2.8 to 3.00 BBFT.
    Keep in mind that 3 BBFT is a small target compared to the 
estimated 22 BBFT of annual growth on national forest timberlands. We 
are losing the battle of thinning the forests to reduce fuels. In a 
recent biomass conference we learned that for every ton of material 
removed from the forest, another 18.2 tons of material is 
simultaneously being regenerated. If one factors in the acres affected 
each year by insect and disease and this ratio goes up even further. 
Colorado was mentioned as the state with the highest ratios in any 
western state.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    In our view, immediately raising the timber targets is both 
logical and long overdue.
    As we add the restoration initiative as a Forest Service management 
priority, (but add no new funds) we need to identify sawlog outputs as 
a mandatory component. All contracts need to collectively contribute to 
a supply of merchantable timber. Even when forest health projects are 
targeted to remove hazard trees, small diameter, dead or dying trees 
and the unending supply of slash, we request a conscious decision to 
add a merchantable sawlog component. More sawtimber equals additional 
supply for mills, lower costs resulting in more acres of management.
    We further believe that sawlog outputs need to include both the 
salvage of dead trees AND the proactive management of our still green 
forests. Good forestry demands attention to both and the long term 
viability of industry will depend on it.
    Regionally we ask for a budget and resulting timber supply that 
will allow the Forest Service to address health issues equitably across 
the states.
    The mill in Montrose was purchasing logs from every national forest 
in Colorado while processing right here in Montrose. For this mill and 
the other mills in Colorado to survive for the long-term, supply must 
be balanced geographically. If we lose the projects nearest each mill 
infrastructure, in order to chase the newest forest health issue, then 
the cost-effective processing will disappear. These investments are 
fixed in bricks and mortar, and the mill owners have limited margins to 
purchase wood further and further afield. As their costs of timber 
management rise, fewer acres will be treated. Recently mill owners have 
asked the Forest Service to add green timber to the forthcoming supply 
since standing dead timber slowly deteriorates and a green program will 
be essential to keep a sustainable industry--long term--in Colorado.
    Importantly we ask for efficiencies. We seek increased management 
opportunities when we maximize Forest Service authorities to operate 
more efficiently.
        <all>  Suggestions here Suggestions here include:
                <bullet>  improve streamlined project planning/
                analysis;
                <bullet>  seek timber outputs that match the supply 
                needs of infrastructure;
                <bullet>  reduce non-essential costs on many of our 
                projects.
                <bullet>  use HFRA in order to benefit from streamlined 
                judicial review;
                <bullet>  implement the newly authorized pre-decisional 
                administrative objections process as soon as possible;
                <bullet>  implement each project to the maximum extent 
                permitted under the NEPA analysis--several more trees 
                per acre multiplied by the numerous projects within the 
                state adds up to significant additional sawtimber and 
                return per project;
    Quickly tapping into simple solutions such as these and others 
appearing in the recent FS report on ``Increasing the Pace and Scale of 
Restoration'' will allow instant results. We can increase management 
through economically rational, and ecologically sustainable projects 
that meet the needs of industry and the needs on the ground.
    I am very committed to the timber entrepreneurs who have put their 
valuable investment dollars on the line in order to operate in an 
extremely challenging economy. I don't want to see one more job lost, 
or more shrinkage in a small but important industry.
    I am honored to testify, and I would be delighted to work with you 
to give additional detail to quickly enhance an efficient, 
environmentally sound forest health strategy.
                                 ______
                                 
    Mr. McClintock. I understand, Ms. Fishering. Thank you for 
your testimony.
    [Applause.]
    Mr. McClintock. And I apologize. I didn't see a yellow 
light go off there.
    Ms. Fishering. I didn't either. Can I talk another 5 
minutes?
    Mr. McClintock. It is going to go from green to red, so hit 
the brakes.
    I would like to now recognize Mr. J.R. Ford, President of 
the Pagosa Cattle Company from Pagosa Springs, Colorado, to 
testify.
    Welcome.

              STATEMENT OF J.R. FORD, PRESIDENT, 
        PAGOSA CATTLE COMPANY, PAGOSA SPRINGS, COLORADO

    Mr. Ford. Thank you for inviting me here today.
    I am a small businessman in Pagosa Springs that manages 
large ranch holdings throughout the state owners. We have had 
the same problems that you guys all talked about in the forest 
on our own private land. In working on this for the last few 
years, we have come up with a solution using information that 
we took from a feasibility study from McNeil Technology that 
they did for us on timber supply and new upcoming technologies 
that are coming out to get rid of the biomass that had no 
market.
    We have also been working with the renewable energy lab on 
the ideas. We put together a group called Mixed-Conifer Working 
Group in Pagosa Springs that is made up of the environmental 
community in the Four Corners, industry, the government, local 
and state and Federal, and have come up with a description of 
our forests in which we think we can make them healthy.
    All of our mills are gone. The land has been stripped of 
any mills that were there in our county. So we are 6 or 7 hours 
away from any site to be able to take sawlogs.
    So what we plan on doing, if we can get going forward with 
overcoming some of our log problems, is that we would like to 
be able to take everything that is 12 inches and smaller that 
needs to be thinned to make for a healthy forest and take that 
to wood chips at the point of harvest, chip that material, haul 
it off in hook-lip boxes to a site in which we would treat it 
from there.
    We would take larger material, the sawlog, the saw timber 
material that was 12 inches and larger. We would haul that to a 
small band mill sitting on the same site that the wood chips 
would be on, and take the slabs off the outside of it so that 
we could send off the cans and the squares, wholesale them out 
to whoever could actually take them to the next step of use.
    We would take all those wood chips, convert them into 
synthetic gas through an energy technology called gasification 
using technology out of Canada, and that synthetic gas we would 
convert to--we would take that synthetic gas, run it through an 
internal combustion engine, and we would make one-third the 
power for our small community. We use about 15 megawatts of 
power in Archuleta County. Thinning between 1,500 and 2,000 
acres a year to a description that has been put together by the 
Forest Service or by government agencies, and with the 
environmental community in our neighborhood, we can take that 
material and produce 5 megawatts of power in our community.
    But we do have some log problems. We have our logs that we 
have to get out of the way also, and one of them is timber 
supply. We need a long-term supply. If you expect private 
enterprise to step up and come up with some of this new 
technology, they have to know that they are going to have a 
long-term supply to be able to invest the large amount of 
capital that we are going to.
    So these stewardship contracts need to be spread out. They 
need to be longer than 10 years, some of them into 15, 20 and 
25 years, so that a person who is getting ready to sign a long-
term stewardship contract, or a long-term power purchase 
agreement like we are with our local coop, which they have 
stepped up to come to the table with a 15-year power purchase 
agreement, we know we need a 15-year supply from the Forest 
Service in which we can take those wood chips from the Forest 
Service and from the private and make this project work.
    The public support, we have broad public support in 
Archuleta County because what we have done is we have sized our 
project to our community. We are going to thin the forest and 
make it healthy within a 50-mile radius, and we are going to 
use those wood chips to make electricity and sell it in the 
same 50-mile radius. We don't have the haul issues that a lot 
of other projects might have, and I think that is key. When you 
start getting over a 50-mile radius and you are hauling 
products other than logs, it is not profitable.
    Cancellation clauses are a big problem. We are getting 
ready to invest $22 million in our project, and the Forest 
Service wants to put a $250,000 cancellation cost. Our problem 
is, what happens when you cancel? We are sitting there with a 
$20 million project with no supply.
    Two options that we see happening there is we see either 
going to the USDA, and on the USDA loan guarantees on the 
government side of that equation, there would be 100 percent 
non-recourse loan. So if the government does not supply the 
material, does not supply our acreage, then we turn around and 
we are not liable for the rest of that loan. On the producer 
side, it would be set up just like any other USDA loan 
guarantee. So that would be one side, or a universal 
cancellation clause at the Washington level at which you could 
have multiple, multiple, lots of stewardship contracts, and 
then they could turn around then and draw off of one large 
bonding issue up in Washington, instead of putting that burden 
on each independent district and the forest.
    Product other than logs. It needs to be totally removed. We 
are leaving too much of this material sitting on our forest 
floor and creating other health issues and other fire issues. 
If you can remove that and use it into the gasification 
technology that we are looking at, you broaden out your 
business plan and you are getting multiple uses from that.
    I am going to run out of my time. So stewardship contracts 
are something that I think need to be moved along. Right now, 
too much evidence is put on large landscape stewardship 
contracts, and there needs to be a pot of money put into these 
small, community-scale projects that have been designed by the 
local community.
    Thank you.
    [The prepared statement of Mr. Ford follows:]

    Statement of J.R. Ford, President, Pagosa Cattle Company, Inc., 
                Member, The Mixed-Conifer Working Group

    Hello, I am J.R. Ford and this is a great opportunity for me to 
speak to a joint oversight field hearing, thank you for the invitation. 
Today I am here representing a few organizations, as one often does in 
a rural community. These organizations are: Pagosa Cattle Company, Inc; 
Renewable Forest Energy, LLC and The Mixed-Conifer Working Group. It is 
from my involvement with these organizations that I am here today to 
offer my insight (which hopefully will help).
    Pagosa Cattle Company, Inc: I have owned for over 21 years 
providing ranch management dealing with forest health, forest fuel 
reductions, river restoration, land restoration management, forest 
restoration and rangeland management. These management experiences have 
brought me to the task of starting up a company; Renewable Forest 
Energy, LLC which plans to build a 5Mwe gasification power plant run on 
woody biomass. The process for removal of biomass from the forest is at 
its prime. New European equipment options provide point of harvest 
mobile tree chipping at a fraction of traditional costs. However for 
both companies to be successful, securing a long term supply of 
material must be secured. Included with my written testimony is a 
presentation of the project(s) overview labeled as Exhibit A.
    Below is an outline of some of the stepping stones these 
organizations have taken. I will begin with the project concept and 
progress to the hearing today.
        <bullet>  2003--2009: The concept for forest thinning, locating 
        the correct type of forest equipment as well as solidifying 
        what would be done with the biomass removed. In our case the 
        biomass will be used for a 5MWe gasification power plant.
        <bullet>  August 2009--RFQ AG-82X9-S-09-0275 on Turkey Springs 
        Biofuels Demonstration (TSBD) 288 acres. A test project was in 
        order to determine if the forest health objectives were on 
        track as well what are the cost estimates to perform the forest 
        thinning. The designations and descriptions were met and the 
        ``pre-settlement'' look could be achieved well within budgetary 
        goals. The ground compaction studies were within the normal 
        disturbance parameters.
                <bullet>  October 2009--TSBD awarded to Pagosa Cattle 
                Company
                <bullet>  Fall 2009--Forestry equipment ordered from 
                Sweden
                <bullet>  June 2010--Notice to Proceed on TSBD from 
                Forest Service
                <bullet>  November 2010--Public Tour of TSBD
                        <bullet>  This test project, along with all of 
                        our contracts, has been open to the educational 
                        impact studies, students, professors and 
                        industry professionals. All have visited and 
                        collected data to test the impact of likewise 
                        projects.
                <bullet>  August 2011--TSBD complete--field data 
                conclusive that project objectives could be met.
        <bullet>  June 2010--Forestry equipment delivered--first Bruks 
        mobile whole tree chipper in the U.S.A. from Sweden
        <bullet>  June 2010--Private land contract on 1400 acres with 
        the objective of forest health and biomass removal.
        <bullet>  September 2010--Mixed-Conifer Working Group 
        officially forms
                <bullet>  ``This second meeting of the Mixed-Conifer 
                Working Group focused on the purpose of the working 
                group and an understanding of USFS planning and NEPA 
                related to timber sales and fuels projects.'' http://
                ocs.fortlewis.edu/mixedconifer/meetings.htm
                <bullet>  For over 21 months local citizens, 
                environmental groups, government & tribal agencies and 
                various other vested parties have been meeting to 
                present a collaborative presentation for the future 
                health of the San Juan forest. People from all across 
                the state have met with this group. Their educational 
                website can be found at: http://ocs.fortlewis.edu/
                mixedconifer. This group helped design a sustainable 
                sized community project(s) focused on ponderosa pine 
                and mixed-use conifer forests health.
        <bullet>  March 2011--Our interest in a long term stewardship 
        contract is expressed directly to the Forest Service based on 
        the TSBD outcomes along with the collaborative Mixed-Used 
        Conifer Working group.
        <bullet>  August 2011--RFP on Pagosa Long Term Stewardship 
        Contract AG-82X9-S-11-9002
                <bullet>  The PLTS contract not only allows the 
                original vision of taking biomass to energy but also 
                will help reestablish the logging industry in Southwest 
                Colorado where it has been dormant for many years.
                <bullet>  November 2011--Request for 60 day extension 
                on all bid proposals for PLTS
                <bullet>  January 2012--Request for 60 day extension on 
                all bid proposals for PLTS
                <bullet>  March 2012--extension deadline for PLTS
        <bullet>  September 2011-2012 Hired Mountain Studies Institute 
        to research: pine beetle reduction through the wood chipping 
        process; increase in ground water supply due to additional 
        infiltration; increase in tree hydration due to reduced trees 
        stems per acre.
        <bullet>  TODAY--a joint oversight field hearing entitled 
        ``Logs in the Road: Eliminating Federal Red Tape and Excessive 
        Litigation to Create Health Forests, Jobs and Abundant Water 
        and Power Supplies''
    The other organization that I am here representing is The Mixed-
Conifer Working Group of which I am a charter member. The mission 
statement for the working group as taken from their website http://
ocs.fortlewis.edu/mixedconifer is: ``The Upper San Juan Mixed Conifer 
Workgroup is committed to collaborative approaches to improving the 
health and long-term resilience of mixed-conifer forests and the 
communities located near them in southwest Colorado. The Workgroup will 
focus on strengthening understanding, sharing knowledge and lessons 
learned, developing management approaches, initiating high priority 
projects, and monitoring results using an adaptive framework.'' The 
Mixed-Conifer Working Group resource documents are listed here with 
links to the webpage: Working Definitions; Study of forest 
fragmentation on the Pagosa District by McGarigal and Romme; National 
Forest Foundation Grant for the Upper San Juan Mixed Conifer Working 
Group; Historical Range of Variability and Current Landscape Condition 
Analysis: South Central Highlands Section; Southwestern Colorado & 
Northwestern New Mexico; Mixed-Conifer Forests in Southwest Colorado: A 
Summary of Existing Knowledge and Considerations for Restoration and 
Management; All Vegetation Map; All Vegetation Map/w Roads; 2010 Forest 
Health Report--Colorado State Forest Service; Report from the October 
2010 Mixed Conifer Workshop, report by the CFRI. The Mixed-Conifer 
Working Group is a volunteer group comprised of 25% environmentalists, 
25% conservationists & local citizens; 25% industry professionals and 
25% state and federal employees. Here are only a few of the 
participants; Colo. Div of Parks and Wildlife, Mountain Studies 
Institute, San Juan Citizens Alliance, Renewable Forest Energy, 
Colorado State Forest Service, Pagosa Ranger District (USFS) and the 
Archuleta Office of Emergency Mgmt. Exhibit C to this written testimony 
is a briefing paper regarding this work group.
    Having the support of your community is a key factor for success 
with any project and the collaborative efforts of the organizations I 
represent here today are essential to public education on forest health 
in Southwest, Colorado. Gaining public support is important. All of 
these organizations enjoy the working relationships and are confident 
that the locals of the areas support the forest health interest. It is 
my recommendation that any intermountain west community that is 
interested in the health of their forest to create a similar working 
group.
    After two years participating with The Mixed-Conifer Working Group 
and over 21 years experience managing large ranches; time has shown me 
that there is work to be done to get over the barriers that keep 
community sized forest health project streamlined and viable. The top 
nine obstacles with corresponding recommended solutions; as seen 
through my experiences with: the bidding process as contractor for 
Pagosa Cattle Company on USDA's RFP (request for proposals) and the 
collaborative and educational processes of the Mixed-Conifer Working 
Group are listed below.
        1.  GUARANTEE LONG TERM SUPPLY: Aligning the biomass supply 
        with a local electrical cooperative and a sound business plan 
        for private sector investors. Investors return on investment 
        for our project requires a 15 year minimum alignment.
                <bullet>  The current law should be amended to allow 
                for stewardship contract time parameters to increase 
                the span to up to 25 years.
        2.  PUBLIC SUPPORT: There is a large need to educate the public 
        as well as hold open meetings in order to gain the necessary 
        support to understand and accept all that is needed to be 
        performed in order to achieve a health forest. We describe the 
        forest look as ``pre-settlement'' reducing the tree stems per 
        acre in order to obtain many benefits.
                <bullet>  From 21 months of meetings through The Mixed-
                Conifer Working Group which is made up of volunteer 
                group comprised of 25% environmentalists, 25% 
                conservationists & local citizens; 25% industry 
                professionals and 25% State and Federal employees the 
                public support has increased and become focused on a 
                main goal of getting the forest healthy.
                <bullet>  It is my recommendation that any 
                intermountain west community that is interested in 
                developing a sustainable solution to their forest 
                health problems, create a similar working group.
        3.  CANCELLATION CEILING/GOV. BONDING REQUIREMENTS: This is a 
        crucial step in order to protect the contractor however the 
        current bonding requirements inflate costs to unappealing 
        levels. To protect contractors investment.
                <bullet>  Establish a universal stewardship contract 
                cancellation ceiling fund at the Federal level to help 
                alleviate the regional bonding burden.
                <bullet>  Contractors can look to the USDA loan 
                guarantee program. If their program had 100% guarantee 
                on the government side of contract default.
        4.  POL: Total removal and utilization of all POL (products 
        other than logs) within a Forest Service contract. Reduce fuels 
        loading in order to protect WUI (Wildland Urban Interface).
                <bullet>  Whole tree chipping at point of harvesting.
                <bullet>  New gasification technology is available. 
                Gasifying all woody biomass by chipping all POL for 
                gasification in a power plant to produce electricity.
        5.  IMPLEMENTATION: It has been our experience that the Forest 
        Service regularly shares information regarding the 
        opportunities for grants to initiate studies, or education 
        research tied to biomass utilization.
                <bullet>  It has been our experience that the Forest 
                Service has not set aside funds for actual 
                implementation of biomass utilization contracts.
                <bullet>  If the Forest Service has a heightened 
                concern in the unknown biomass market then it would be 
                my recommendations that smaller community scaled forest 
                health projects are funded. This will created awareness 
                and field data results to quantify future biomass 
                contracts.
        6.  HAUL DISTANCE: The Forest Service does not appear to take 
        into account the significance of the cost transportation of 
        forest products, like biomass for product from source to 
        plants. This is contrary to knowledge that hauling of 
        conventional forest products, like sawtimber, is typically the 
        most expensive aspect of converting standing trees to products.
                <bullet>  Reduce the haul distance of forest products. 
                It is our recommendation to limit the distance to 
                approximately 50 miles or less from contract area.
        7.  VALUATION OF FOREST PRODUCTS. Currently, the Forest Service 
        assumes trees in the small sawtimber range (beginning at 8''dbh 
        up to 12'' dbh) have substantial value in the market place. 
        Current market conditions do not reflect this assumption.
                <bullet>  We feel that the best economic way to restore 
                local forests around WUI (Wildland Urban Interface) is 
                for stewardship contracts to contain a price for the 
                POL (products other than logs) removal service and the 
                12'' dbh and larger should be sold as sawtimber by the 
                ton at market rates.
                <bullet>  Basically stating that 8-12'' dbh material 
                should be considered POL.
        8.  BALANCE: We have found that the Forest Service prefers to 
        fund large scaled ``landscaped'' projects instead of community 
        scaled forest health projects.
                <bullet>  Finding a balance to both large and community 
                scaled projects is our recommendation. Bigger 
                landscaped projects do not always mean better value. 
                Creating and implementing community scaled forest 
                health contracts will help build sustainable 
                communities and contract completion.
        9.  TIME VALUE: Amount of time and investment that a contractor 
        spends working on a Forest Service stewardship contract all the 
        while not knowing if the Forest Service has the capability to 
        fund the project.
                <bullet>  Secure and reserve funds for community scaled 
                forest health projects.
    In closing it is my intent to create a commercial viable business 
in which total forest product removal (sawtimber and POL) is achieved, 
leaving no residual fuels on the forest floor--as currently too much 
biomass (all) is left on the forest floor increasing fire risk. This 
business plan has been modified to ensure that all the Forest Service 
needs to create a health forest with minimal ground disturbance is 
achieved while creating industry in a rural community. This last bid 
process with the Forest Service has proved a little frustrating as a 
private sector business holding financial investors interests while 
working out all the contractual details has proven difficult, but that 
is why we are all here today at this hearing. I hope that we will leave 
the hearing today with concrete ways to change the current laws 
surrounding the USDA FS stewardship contracting process.
                                 ______
                                 
    Mr. McClintock. I would now like to recognize Mr. Clint 
Georg, Partner of the Alden Group from Englewood, Colorado to 
testify.

              STATEMENT OF CLINT GEORG, PARTNER, 
              THE ALDEN GROUP, ENGLEWOOD, COLORADO

    Mr. Georg. Chairman McClintock, Chairman Bishop, 
Congressman Tipton, thank you for inviting me to be here today.
    I have the same issue as Ms. Fishering. Can you hear me 
now?
    Mr. McClintock. Yes.
    Mr. Georg. I'm a member of a group of investors who own a 
sawmill property in Saratoga, Wyoming. The Saratoga Mill has 
been idle since 2002 and is one of the only two large sawmills 
left in this region, the sawmill here in Montrose being the 
second one. Our group intends to reopen the Saratoga sawmill, 
but the success of this venture will be dependent on reversing 
the impact of policies and regulations that have decimated the 
Colorado sawmill industry in the past few decades.
    Having viable sawmills is beneficial to the region in many 
ways. First, these two sawmills provide the forests in Colorado 
with the only large, commercially viable means to help 
alleviate the impact of the massive insect infestations and 
reduce the potential for massive wildfires.
    Second, operating sawmills are necessary for the long-term 
health of Colorado's uninfected forests as a means active 
forest management required to enhance the forests' future 
resilience to fire as well as numerous types of insects and 
diseases.
    And third, these sawmill operations provide a meaningful 
economic driver for the area. Simply put, operating these 
sawmills uses the free market forces to help remedy a pressing 
need in Colorado and Wyoming, as well as provides support for 
the long-term health of the vast forests in this region.
    A viable sawmill industry in Colorado will require three 
things: first, a stable supply of timber sales from the United 
States Forest Service. The supply must be geographically close 
to the sawmills, in sufficient quantity to support the needs of 
those mills, and it must be sustained at those levels on an 
ongoing basis beyond the current need of removing infected 
trees. This is largely a matter of resource allocation. For 
example, we believe doubling the volume of timber sold from the 
Northern Colorado area is necessary to support the Saratoga 
Mill at efficient production levels.
    It is my understanding that doubling the timber sales in 
this area requires adding just 11 people to the current staff. 
The U.S. Forest Service should prioritize timber contract 
processing to achieve this staffing level. The payback would be 
revenues from direct payments for the timber sold, the reduced 
costs of stewardship contracts, and the potential savings from 
reduced wildfire risks.
    The commitment for long-term access to this timber is 
necessary to justify the long-term nature of these investments 
and additional investments such as those that hold great 
promise using bio-mass and other means. But those investments 
are not justified without a stable, long-term supply of timber.
    Second, the timber sales must be economically viable. 
Viability is determined by the composition of the timber being 
sold and the performance requirements under those contracts. 
Lodgepole pine, the type of tree most widely infested, has 
relatively low commercial appeal, so the timber contracts must 
be written in a way that harvesting is not cost prohibitive.
    And third, the industry must comply with current 
environmental regulations, but it needs protection from 
malicious environmentalist actions such as those that destroyed 
the timber industry in other parts of this country.
    To understand this, we need look no further than Arizona 
where, in 1996, an environmental group won a court injunction 
that temporarily shut down logging on all national forests in 
Arizona and New Mexico. As a result, the Arizona timber 
industry is now largely extinct. Since then, Arizona has had 
the five largest forest fires in its history. For more than a 
decade, that state's government has desperately been trying to 
find financial incentive and other means to reestablish the 
Arizona timber industry but has been unsuccessful. It simply is 
not economically feasible to replace what was lost.
    In Colorado, what remains of the timber industry must be 
viewed as a precious resource for the state. It needs to be 
protected, because if this industry, and in particular if these 
two mills are lost, like in Arizona, they will not be replaced.
    There is an opportunity for the last two large sawmills in 
this region, using effective private enterprise, to aid in the 
near and long-term timber management needs of Colorado and 
Wyoming. For this to happen, it is essential for the U.S. 
Forest Service to provide an adequate, long-term, stable supply 
of timber under economically viable terms. It is also essential 
that the timber industry be provided protection from an 
unreasonable use of environmental laws and regulations such as 
those which has destroyed other regional timber industries.
    Thank you for your invitation to speak at this hearing. 
Thank you.
    [The prepared statement of Mr. Georg follows:]

        Statement of Clint Georg, Partner, The Alden Group, LLC

    Dear Chairmen McClintock and Bishop and Members of the Committee, 
thank you for prioritizing your time to learn about the needs of the 
remaining timber industry in this region. Thank you for inviting me to 
be a part of this hearing.
    I am a member of a group of investors who own the sawmill property 
in Saratoga, WY. The Saratoga mill has been idle since 2002 and is one 
of only two large sawmills left in this region--the mill in Montrose is 
the other one. Our group intends to reopen the Saratoga sawmill, but 
the success of this venture will be dependent on reversing the impact 
of policies and regulations that have decimated the Colorado sawmill 
industry in the past few decades.
    Having viable sawmills is beneficial to the region in many ways:
        1.  These two sawmills provide the forests in Colorado with the 
        only large, commercially viable means to help alleviate the 
        impact of the massive insect infestations and reduce the 
        potential for devastating wildfires.
        2.  Operating sawmills are necessary for the long-term health 
        of Colorado's uninfected forests as a means of active forest 
        management required to enhance the forests' future resilience 
        to fire as well as numerous types of insects and diseases.
        3.  These sawmill operations provide a meaningful economic 
        driver for the region. This can be measured in the value of 
        products produced from the timber, the hundreds of jobs for 
        sawmill employees, loggers and truck drivers, and the positive 
        impact to all the small businesses and communities that 
        directly and indirectly benefit from the economic activity of 
        the timber industry. To the extent that fires are reduced, 
        there is also an economic benefit to the public--for instance 
        the combined costs of just three of the large fires in Colorado 
        since 2002 has exceeded $500 million.
    Simply put, operating these sawmills uses the free market forces to 
help remedy a pressing need in Colorado and Wyoming as well as provides 
support for the long-term health of the vast forests in this region.
    A viable sawmill industry in Colorado will require three things:
    1.  A stable supply of timber sales from the USFS. The supply must 
be geographically close to the sawmills, in sufficient quantity to 
support the needs of those mills and it must be sustained at those 
levels on an ongoing basis beyond the current need of removing infected 
trees. This is largely a matter of resource allocation. For example, we 
believe doubling the volume of timber sold from the Northern Colorado 
area is necessary to support the Saratoga mill at efficient production 
levels. It is my understanding that doubling the timber sales in this 
area requires adding just 11 people to the current staff. The USFS 
should prioritize timber contract processing to achieve this staffing 
level. The payback would be revenues from direct payments for the 
timber sold, the reduced costs of stewardship contracts, and the 
potential savings from reduced wildfire risks. The commitment for long-
term access to this timber is necessary to justify the long-term nature 
of these investments and additional investments such as those which 
hold great promise for using bio-mass from the forest for generating 
clean-renewable energy. But those investments are not justified without 
a stable, long-term supply of timber.
    2.  The timber sales must be economically viable. Viability is 
determined by the composition of the timber being sold and the 
performance requirement under those contracts. Lodgepole pine, the type 
of tree most widely infested, has relatively low commercial appeal, so 
the timber contracts must be written in a way that harvesting is not 
cost prohibitive.
    3.  The industry must comply with current environmental 
regulations, but it needs protection from malicious environmentalist 
actions such as those that destroyed the timber industry in other parts 
of the country. To understand this, we need look no further than 
Arizona where in 1996 an environmental group won a court injunction 
that temporarily shut down logging on all national forests in Arizona 
and New Mexico. As a result, the Arizona timber industry is now largely 
extinct. Since then, Arizona has had the five largest forest fires in 
its history. For more than a decade, that state's government has 
desperately been trying with financial incentive and other means, to 
reestablish an Arizona timber industry but has been unsuccessful--it 
simply is not economically feasible to replace what was lost. In 
Colorado, what remains of the timber industry must be viewed as a 
precious resource for the state. It needs to be protected, because if 
the industry, and in particular if these two mills, are lost, like in 
Arizona, they will not be rebuilt.
    There is an opportunity for the last two large sawmills in this 
region, using effective private enterprise, to aid in the near and 
long-term timber management needs of Colorado and Wyoming. For this to 
happen, it is essential for the U.S. Forest service to provide an 
adequate, long-term stable supply of timber, under economically viable 
terms. It is also essential that the timber industry be provided 
protection from an unreasonable use of environmental regulations such 
as that which has destroyed other regional timber industries.
    Thank you for your invitation to speak at this hearing. Your 
leadership is a critical component in the future of this industry. I 
would be happy to answer any questions.
FOLLOWING IS INFORMATION SUPPORTING THE STATEMENTS ABOVE:
HISTORY OF THE COLORADO TIMBER INDUSTRY
A once vibrant industry, built up over a century, has been decimated 
        due to the lack of access to Colorado's abundant timber 
        resources.
    To understand the current crisis facing the forests in Colorado, it 
is helpful to review the history of the Colorado timber industry. The 
Colorado timber industry began in the 1860s when vast tracts of virgin 
forests were harvested to support mining, railroads and housing 
development in the state. Following World War II, with strong housing 
markets and public policy encouraging timber production on National 
Forests, timber harvests for industrial products in the Four Corners 
States increased from about 700 million board feet (MMBF, Scribner log 
scale) annually during the early 1950s to a peak of approximately 1,000 
MMBF in the late 1960s.
    During the 1970s and 1980s, harvest volumes dropped somewhat with 
harvests during the late 1980s averaging about 850 MMBF annually. 
Timber harvests from the region dramatically declined during the 1990s, 
caused largely by decreases in the harvests from National Forests 
caused by litigation related to threatened and endangered species and 
reduced Federal budget levels.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    This litigation caused the USFS to dramatically reduce the 
volume of timber sold in the Colorado from the high in the 1960s down 
to an average of just 40--45MMBF per year from 2003-2007. The reduced 
supply of timber could no longer support the needs of the timber 
industry and the effect in Colorado was dramatic; two oriented strand 
board mills closed, one in Olathe and the other in Kremmling; a large 
sawmill in Walden closed in 1994; three of Colorado's largest multi-
national mills closed in 2001 and 2002; a large independently-owned 
mill at South Fork closed in 2001 (after 50 years of operation); and 
nine other medium-sized mills and dozens of small mills have closed 
their doors since 1982.
    Unfortunately, timber management in the Colorado forests is 
dependent upon an active timber industry for timber stand improvements 
using treatments that harvest wood products. With the majority of local 
mills closing, the industry has reduced capacity to harvest timber 
(logs can only be economically shipped short distances). Consequently, 
over the years, the Colorado forests have experienced increased stand 
density and an accumulation of ladder-fuels; conditions that have 
directly led to the large-scale wildfires and insect epidemics now 
facing the state.
    Today, if we do not count the two dozen very small operators with 
10 or fewer employees, there are just two medium sized and one large 
operating mills in Colorado. Moreover, the large sawmill in Montrose is 
financially troubled and operating under receivership. A second large 
sawmill in Saratoga, WY is well located to service the northern 
Colorado forests (where the heaviest concentration of beetle killed 
pine is located), but has been idle since 2002 when it was shut down 
due to a lack of logs.
THE ROLE OF THE USFS IN THE COLORADO TIMBER INDUSTRY
The United States Forest Service manages the vast majority of timber in 
        Colorado and controls the destiny of the Colorado sawmill 
        industry.
    Any discussion of the Colorado timber industry requires a 
discussion of the USFS. Nearly 68 percent of Colorado's forests are in 
federal ownership and nearly three-quarters of the state's high-
elevation, commercially attractive species such as spruce-fir, 
lodgepole pine and aspen are located on USFS lands. In contrast, the 
majority of the Colorado forests controlled by private lands are low 
elevation species. This creates a situation where even modest size 
lumber operations in the state cannot survive without purchasing timber 
directly or indirectly from the USFS. Of course, this was conclusively 
demonstrated by the failure of so many Colorado timber operations 
discussed above over the years when the USFS dramatically reduce the 
amount of timber sales. The 40-45 MMBF of timber sold annually in 2003-
2007 was clearly inadequate to support a healthy timber industry as the 
single remaining large sawmill in Colorado, and the one just north in 
Saratoga, Wyoming, both require 40 MMBF annually to operate even a 
single shift (and to operate efficiently, should run multiple shifts).
    Currently the restrictions on timber sales in this area appear to 
be primarily an issue of funding and resource allocation. With a 
tightening federal budget, fiscal allocations to the region are 
projected to fall and the volume of timber projected to be sold in this 
region in the coming years is expected to be only a fraction of the 
timber that could be sold, as identified by the USFS in its internal 
forecasts.
    Fortunately, the amount of funding necessary to spur the Colorado 
timber industry appears to be fairly modest, particularly in light of 
the benefits. To understand the funds needed, it is helpful to 
understand the process the USFS has to go through to prepare a timber 
sale.
PROCESS TO PREPARE USFS TIMBER SALES
An understanding of the process and resources required by the USFS to 
        prepare a tract of timber for sale.
    Before committing to a timber sale at a particular site, the Forest 
Service is required to analyze virtually every environmental impact 
that might result from making that sale and to document in detail the 
results of those analyses. The process requires compliance with the 
National Environmental Policy Act (NEPA), and in the case of 
programmatic Land and Resource Management Plans, the National Forest 
Management Act (NFMA). Several of the key documents developed for a 
typical timber sale are the environmental assessment, biological 
evaluation, decision notice, and ``Finding of No Significant Impact.'' 
The process involves the work of trained foresters, wildlife experts, 
hydrologists and archeologists and can take 1.5 to 3 years to complete.
    Historically once this work was done and the decision to go forward 
with the sale was made, the process entered an appeal phase where the 
public could enter an appeal of the decision. Recently, this has been 
changed to an objection phase which is intended to streamline the 
process, but historically this phase has taken 1 to 5 years when caught 
up in litigation.
    Once the objection process is over, the Forest Service identifies 
the particular stand(s) of timber for the sale, puts a boundary around 
the unit, marks the trees if required, measures the trees, notes 
defects and other characteristics that help define the volume and other 
specifics of the sale. This field process takes about six months to a 
year. The rest of the process is office work that can be done in a 
matter of weeks. All told, the process typically takes about 3 to 3.5 
years to complete.
    The primary limiting factor of increasing the amount of timber 
sales, in light of the process required to prepare the timber sales, 
appears to be an issue of resource allocation or funding levels. The 
resources are primarily the staff required to prepare the timber sales. 
In the northern region of Colorado, the USFS employs six foresters, two 
wildlife experts, an archeologist and a hydrologist and perhaps one 
other individual in preparing the current level of timber sales. The 
Saratoga sawmill could process nearly double the annual amount of 
timber in the sales that are projected to be prepared by this team for 
the Medicine Bow--Routt, Arapahoe--Roosevelt and White River Forests 
over the next several years. Doubling the level of timber contracts 
would require doubling, or adding eleven people, to the staff to 
prepare those sales. The cost of this increased staff could be offset 
by the revenue generated from those contracts, the reduced cost of 
stewardship contracts as well as the potential cost reductions from the 
reduced risk of fire in the logged areas.
    The second factor influencing an assured timber supply to the 
industry is the current inability of the USFS to make long-term 
commitments on the volume of timber sold in out years. The USFS service 
develops a five year forecast of timber sales in the region. Execution 
of this plan is dependent on a number of factors, but the primary 
factor is the allocation of resources which is an annual event. The 
annual nature of the funding helps to discourage any investment in the 
industry in this region because meaningful investments typically 
require multi-year paybacks. The USFS and industry need to find a means 
of a multi-year commitment for the timber supply in order to 
incentivize addition investments.
POINT NO. 1: A MINIMUM REQUIREMENT FOR AN ACTIVE AND HEALTHY TIMBER 
        INDUSTRY IN COLORADO IS THE ALLOCATION OF ENOUGH FUNDING FOR 
        THE USFS TO OFFER A SUFFICIENT NUMBER OF TIMBER CONTRACTS TO 
        SUPPORT SAWMILL OPERATIONS IN THE REGION.
BENEFITS OF THE SAWMILL INDUSTRY TO COLORADO
And active sawmill industry in Colorado benefits the people, economy 
        and environment.
    An active timber industry in Colorado, supported by an 
appropriately increased volume of USFS timber sales, provides a number 
of benefits to Colorado and the forests in the area. First is the 
economic impact to the state.
    Today Colorado, a state rich in timber supply, imports more than 90 
percent of the wood products consumed in the state from other states 
and countries. Increasing timber harvests in the state can be used to 
spur economic growth measured in the products produced from those 
timber harvests, the hundreds of jobs for sawmill workers, loggers and 
truck drivers and all the direct and indirect benefits to the 
communities and small businesses supporting the economic activity of 
the timber industry.
    As an example, I recently spoke with the mayor of a small town that 
previously had a small operating sawmill. After that sawmill closed in 
2009, families left town to find work and there was a 40% drop in the 
number students attending the local school. Without a means to replace 
those jobs, the mayor expects that the town will need to close the 
school. If that happens, the mayor has told me that it will be hard to 
get young families to move there--effectively a death sentence for the 
town. This is a scenario that has been repeated across the country 
since sawmills represent an industry often better suited to rural areas 
rather than to big cities.
Point No. 2: Colorado and the region have an opportunity to spur 
        economic growth with a resurgence of the timber industry in the 
        state.
    In addition to providing economic advantages, the timber industry 
is essential to maintaining a healthy forest. Today, increased public 
support for the timber industry in our area is largely the result of 
the widespread devastation caused by the mountain pine beetle.
Mountain Pine Beetle Devastation
    Mountain pine beetles have been part of the natural cycle in 
Colorado forests for eons, however the extent of the current 
infestation and the amount of destruction it has wrought is 
unprecedented. The scope of the infestation was due in large part to 
the high density and lack of age diversity of the forests. In Colorado, 
mountain pine beetles attack mature ponderosa and lodgepole pine. In 
nature, periodic fires and other devastating events thin forests and 
create an age diversity that limits the impact of a pine beetle 
outbreak. Where fire is suppressed, timber harvesting creates the same 
advantageous environment. However in Colorado, years of fire 
suppression and years without a vibrant sawmill industry produced a 
situation in many of the high country forests of dense, mature, eight 
inches in diameter or larger lodgepole pine; precisely the habitat in 
which mountain pine beetles thrive. When the epidemic started, there 
were not the natural age barriers to slow it and the high density of 
the forests meant the beetles could quickly spread.
    The impact on the state of the pine bark beetle should not be 
understated:
    There is an economic impact to the state in reduced recreational 
activities such as hiking, camping and skiing due to: scenery changes; 
reduced wind protection; and safety hazards from falling dead trees.
    For individual landowners with affected trees on their properties, 
the financial impact includes: property value reductions; erosion 
issues from increased water yields; and wood and tree branch disposal 
challenges.
    And of course, the impact of mountain pine beetle killed trees 
results in an increased potential for wildfire which may result in: 
loss of life and property; reduced real estate values; changes to 
tourism-based economies; long-term costs of water supply and reservoir 
clean-up; and safety hazards from falling dead trees.
Wildfires
    Two notable Colorado fires are the Fourmile Canyon fire in 2010 and 
the Hayman fire in 2002. The Fourmile Canyon fire burned 167 homes, 
cost $10 million dollars to fight and resulted in $217 million in 
property damage. The Hayman fire was the largest fire in Colorado 
history and burned 138,000-acres.
    The costs of these fires are large by any standard but, according 
to The Western Forestry Leadership Coalition, a State and Federal 
government partnership, an accounting of costs should include: 
suppression costs; other direct costs (private property losses, damage 
to utility lines, damage to recreation facilities, etc.); 
rehabilitation costs, indirect costs (lost tax revenues, business 
revenue and property losses that accumulate over the longer term); and 
additional costs (these included hard to quantify cost such as 
extensive loss of ecosystem services, aesthetic and scenic beauty, 
wildlife existence value, the economic cost of the loss of human life 
are included here).
    With this full accounting, the economic cost to the state for the 
2002 Hayman fire was $208 million, the 2002 Missionary Ridge fire was 
$153 million and, of course the total cost of the 2010 Fourmile fire 
canyon fire greatly exceeded the $227 million of direct costs.
    It is widely accepted that the lack of forest management has 
resulted in a heighten danger of these massive fires and that more can 
be expected. Unfortunately, fire danger increases again in 
approximately 15 to 20 years when the trees killed by the pine bark 
beetle rot and fall down, adding woody material to the young trees and 
other fine fuels growing on the forest floor. A fire in this 
arrangement is difficult to suppress and will pose additional safety 
hazards to firefighters. Severe wildfires of this type burn at higher 
intensities and for longer durations which can be very detrimental to 
plant communities, soils, and watersheds.
    There is no practical way to stop a large scale mountain pine 
beetle epidemic once it has begun and to lessen wildfire hazard it is 
critical to reduce the number of dead, dry trees as well as infected 
trees that will eventually die. Removing these trees has often meant 
that the property owner (including the USFS) has paid to have the trees 
removed.
    The most cost effective removal of these trees, and the only 
practical method on a large scale, is to have a commercially viable 
means of harvesting and selling the timber. There have been a number of 
articles in the media highlighting various companies trying to make use 
of the beetle killed timber including companies making wood flooring, 
furniture, log cabins and heating fuel. There has also been, in one 
case, $76 million of federal grant money invested in trying to use wood 
chips from beetle killed trees as a source for cellulosic ethanol that 
would break America's ``addiction to oil''. Unfortunately the ethanol 
experiment failed without solving the issue of how to operate on a 
commercially viable scale and all the other commercial efforts in the 
state for timber usage only equal a fraction of the capacity of either 
the Montrose or Saratoga sawmills.
    The USFS, facing a dwindling commercial timber industry and needing 
to remove vegetation and perform other activities to promote healthy 
forest stands, reduce fire hazards, or achieve other land management 
objectives, was granted authority in 2003 to issue Stewardship 
contracts for forest management. This authority, which expires in 2013, 
is being used by the USFS in Colorado and Wyoming to pay private 
companies to provide forest management and remove infected trees from 
critical areas.
    One of the benefits of stewardship contracting is that some of the 
cost of treatment is offset with the value of the logs removed in the 
course of the work. Having an outlet for these logs increases the value 
of the logs and will ultimately reduce the USFS Stewardship contracting 
costs. Currently, the largest insect infestations are in Northern 
Colorado, a relatively long distance from the sawmill in Montrose. Once 
the Saratoga sawmill is operating, the value of the logs in this area 
will increase and the USFS will be able to pay less for Stewardship 
contracts.
    The Montrose mill and the Saratoga mill are each capable of 
processing 40 MMBF of timber annually on a single shift. Operating at 
multiple shifts, these two large sawmills will only harvest a small 
portion of the Colorado forests--even operating on two shifts, a 
sawmill of this size would take more than a thousand years to treat all 
the timber in Colorado--but these sawmills offer the only large scale 
method of processing timber and they do so while paying for the timber. 
This benefits the USFS both directly through revenues from timber sales 
and indirectly through the reduced cost of stewardship contracts in the 
area. In all, these sawmills provide a cost effective means of removing 
infected trees in the Colorado and Wyoming region.
Colorado Spruce and Ponderosa Pine Forests
    It must be noted that although the mountain pine beetle continues 
to be Colorado's most damaging forest pest, this is not the only 
significant threat to Colorado's forests. The same beetle is also 
attacking an increasing amount of ponderosa pine forests; 275,000 acres 
in 2011 alone. Also, the spruce bark beetle, the second greatest insect 
threat to the state, is causing extensive mortality in Colorado's 
spruce forests and as of 2011 had already infested 262,000 acres of 
Engleman Spruce. Controlling the impact of these infestations, similar 
to lodgepole pine infestations, requires removal of the timber and 
emphasizes the importance of an active sawmill industry servicing the 
state.
Point No. 3: Large sawmill operations provide a cost effective means of 
        timber management that is not matched by other commercially 
        viable options.
Long-term Forest Management
    When faced with widespread infestations now prevalent in Colorado, 
there is a clear and pressing need for removal of as much infected 
timber as possible. However, ongoing timber harvests in sustainable 
quantities are also necessary for the long-term health of the forest.
    Forests, left completely without human intervention, are subject to 
a pattern of natural disturbances resulting from wildfires and 
windstorms and have adapted to these periodic cycles. Lodgepole pine is 
an example of one species adapted to this cycle. High-severity fire is 
the primary type of disturbance shaping the structure of lodgepole 
pine. The fires clear large areas of tree cover and help control 
disease and insect pests, and expose mineral soil seedbeds. The 
lodgepole pine cones open as a result of the high heat from these fires 
and release their seeds to grow and regenerate the forests in the now-
cleared area. Natural wildfires typically burn sections of the forests 
and help maintain varying age distributions that also control the 
spread of invasive insects and disease.
    Although wildfire is a key part of the ecology of many forest 
species, the control of wildfire that is necessary to protect human 
life, communities, watersheds, and fish and wildlife resources means 
that these forest types must now be maintained by other measures. The 
Society of American Foresters recommends that clear cutting be used in 
the development and care of these types of forests since clear cutting 
closely resembles the natural process and is the preferred means of 
assuring of prompt (or successful) regeneration. Clear cutting is also 
the preferred method of harvesting lodgepole pine for commercial uses 
as lodgepole pine has low commercial appeal and other types of 
harvesting are cost prohibitive. In the past, and perhaps still today, 
there has been much public confusion about clear cutting and its 
effects on the environment. The purely visual impact of a clear cut 
commonly leads to negative perceptions that manifest an array of 
misconceptions about sustainability, impacts to soil, water and 
wildlife, and the compatibility of timber management with recreation.
    Good forest management requires different types of timber harvests; 
in uninfested, healthy spruce forests, thinning is the preferred 
approach while in healthy lodge pole pine forests, clear cutting 
remains one of the best methods to create conditions conducive to 
regeneration.
    While today the focus for helping keep Colorado's remaining timber 
industry alive is understandably because of the very visible impact of 
the mountain pine beetle, there should be equal concern about 
encouraging this industry to harvest timber from our green forests as a 
means of maintaining the health of those forests for the future. 
Conversely, if those forests are left to rely only on natural 
processes, we can expect insects, diseases and fire to return in the 
future and have negative impacts on our forests.
POINT NO. 4: Healthy forests require an active timber industry and 
        should be encouraged even in areas not currently affected by 
        the mountain pine beetle.
Basics of operating a sawmill in today's economic environment
For sawmills to be financial feasible, timber must be available in a 
        commercially reasonable manner.
    The sawmill industry in general is facing significant economic 
challenges. In the ten years from 2000 to 2010, the number of operating 
sawmills in the western United States dropped from 287 mills to just 
170, a 40% reduction. The decline was due to many factors including a 
dramatic decrease in lumber prices following the housing burst and 
escalating fuel prices which have a major cost on hauling the logs to 
the sawmills.
    The economics of operating sawmills is also greatly affected by the 
timber characteristics. Both of the large sawmills, in Montrose and 
Saratoga, are stud mills meaning they primarily produce 2X4 studs for 
framing timber. Studs can be produced from lodgepole pine or Engelmann 
spruce, with lodgepole pine being the predominate species now available 
because of the insect infestations. Unfortunately, lodgepole pine is 
also a species with relatively low economic value. It is typically a 
smaller diameter tree and that results in relatively more waste when 
processed into lumber. Spruce, on the other hand, is typically a larger 
diameter tree and generates relatively more lumber for the volume of 
timber used.
    In Colorado, the value of both lodgepole pine and spruce will 
diminished as they die and the longer they remain dead in the forest. A 
tree killed by the pine bark beetle starts drying out and as it does, 
the sun and other factors cause it to dry out unevenly. This creates 
cracking (or ``checking'') and twisting (``spiraling''). Both these 
conditions reduce the amount of lumber that can be recovered from a 
particular volume of timber. The longer a tree remains in the forest, 
the more deterioration can be expected. Finally, after a period of 
time, (the actual timeframe depends on various factors, but could be 
about 5 to 7 years) the trees will be too deteriorated to be of 
economic value for the sawmills. Furthermore, if the weakened stand of 
trees are blown down by high winds, the timber cannot be economically 
recovered. The mountain pine beetle is infecting nearly all the 
lodgepole pine in the state, so there is a limited window of years 
where the sawmills will be processing dead timber. In the long-run, the 
sawmills will need to operate using predominantly green sources of 
timber.
    A further complication is the lack of universal acceptance of 
beetle kill lumber. Although the mountain pine beetle does not affect 
the structural integrity of the timber, beetle-killed pine has a 
distinctive blue stain that can affect its acceptance. As an example, 
in 2009, Big Horn Lumber, a midsized sawmill operating in Laramie, WY 
closed citing a lack of market for blue stained pine. In another 
example, Lowes and Home Depot, have declined to carry beetle killed 
lumber in their stores.
    The USFS, in preparing the timber in this region for sale will have 
a great impact on the sustainability of the sawmills. The USFS can make 
these timber sales more attractive to the sawmill operators by 
including a higher percentage of spruce or not-yet-dead lodgepole pine, 
or larger diameter trees. Other factors affecting the value of the sale 
include the cost of the timber (the ``stumpage''), the costs for road 
maintenance, slash deposits and the requirement to remove trees that 
are not large enough to meet minimum logging size (Product Other than 
saw Logs--POL).
    POL is a major concern for the future of the sawmill industry. The 
method specified for removing POL will impact the value of the sale 
particularly if the terms of the sale require the loggers to remove 
this product from the forest. In some cases, there are economic uses 
for the POL, such as pellets and fence posts, but material to be 
removed and processed is expensive to transport relative to the value 
of the product and in Colorado there is simply not enough demand for 
the POL and it becomes a liability for the sawmill. As an example, for 
one recent sale that we analyzed, the cost of removing the POL was 
several times more expensive than the actual cost of timber and this 
made that contract uneconomical to bid (we were not the only ones to 
reach this conclusion, that contract received no bids).
    It is important to note that there appears to be a clear push by 
the forest service and others to find a use for POL. In some cases this 
push has led to a hope that new technologies will use bio-mass such as 
POL to help manage forests. In fact there are technologies such as co-
generation and biomass gasification that have the promise of using a 
significant amount forest material such as the POL or sawmill by-
products to produce clean energy. However, these processes only operate 
profitably in conjunction with sawmills, not independent of sawmills. 
We believe there is an economically viable possibility of building a 
biomass gasification or co-generation operation that is supported by 
the sawmill operations, but only after the sawmill operations are back 
running profitably and only after a long-term source of timber is 
assured.
    Finally, it is also important to understand that the chance of 
bringing either one of these two sawmills up and operating efficiently 
is not without substantial risk to the investors. Before the Saratoga 
sawmill can be restarted, and perhaps before the Montrose sawmill is 
transferred out or receivership, the investors will need to have a 
sufficient supply of timber, on economically viable terms under 
contract from the USFS.
POINT No. 5: For the timber industry to survive in Colorado, the USFS 
        contracts must be prepared in a way that is financially 
        feasible for the sawmills.
ENVIRONMENTALIST THREATS TO THE COLORADO TIMBER INDUSTRY.
While environmental laws have effectively helped protect the 
        environment from abusive practices, they have also been used to 
        decimate the timber industry to the detriment of the very 
        forests they were intended to save.
    Undoubtedly the greatest single cause for the demise of the timber 
industry in the Rocky Mountains has been the impact of the 
environmentalist movement. The environmentalist movement of the late 
1960's began when a controversy developed over the practice of clear 
cutting and terracing on steep slopes. The final result of the 
controversy was passage of the National Forest Management Act of 1976 
(NFMA) which set guidelines for clear cutting.
    The seventies also saw passage of The National Environmental Policy 
Act of 1969, signed into law January 1, 1970, which mandated that the 
environmental impacts of proposed Federal projects be comprehensively 
analyzed and The Endangered Species Act of 1973 which provided for 
protection of rare, threatened, and endangered animal and plant 
species. A watershed event occurred on August 7, 1986, when the U.S. 
Forest Service acted to protect the northern spotted owl from decline 
and extinction by limiting timber sales in mature portions of National 
Forests where the animals live.
    Combined, a long series of governmental actions and court decisions 
stemming from these environmental policies resulted in a reduction of 
more than 75 percent of the timber harvested annually from public 
lands. Perhaps the clearest example of the impact of the environmental 
movement, and a warning of what could yet happen in Colorado, is the 
case of the Arizona timber industry.
The Arizona Timber Industry
    For much of the 20th century, a variety of factors combined to 
interrupt the historic fire cycles over much of Arizona's native 
forests. This resulted in forests overstocked with small diameter 
trees, creating a ``ladder fuel'' situation, which placed millions of 
acres of Arizona forestland at risk for catastrophic fires. Similar to 
what is now happening in Colorado, the increasingly destructive cycle 
of insects, diseases, and wildfire in Arizona's ponderosa pine and 
pinyon-juniper forest ecosystems poses a significant risk to personal 
health, animals, watersheds, and property.
    In the 1980s, Arizona had an active timber industry that helped 
maintain the heath of the forest and the industry harvested an average 
of 400 million board feet of timber annually. However beginning in the 
1980s, a Tucson-based environmental group, the Center for Biological 
Diversity, charged that the U.S. population of Mexican spotted owls had 
shrunk to just a few thousand because of logging in the old-growth 
ponderosa pines. The group ultimately won a 1996 court injunction that 
temporarily shut down logging on all national forests in Arizona and 
New Mexico. Within a few years, applying more legal pressure on behalf 
of all affected species, it forced the Forest Service to reduce logging 
by 70 percent and limit the harvest to trees less than 16 inches in 
diameter. Years of legal battles had greatly diminished the Arizona 
timber industry and by 1996 it was largely extinct and the amount of 
timber harvested from Arizona forests was almost exclusively fuel wood.
        ``We squashed the timber industry and the Forest Service, and 
        dictated the terms of surrender'' in the Southwest, said Kieran 
        Suckling, the director of the Center for Biological Diversity.
    But environmentalists' celebrations were cut short by a 2002 
conflagration: The Rodeo-Chediski fire burned 467,000 acres (732 square 
miles), destroyed 400 homes and cost more than $43 million to fight. 
This was the largest fire in Arizona history until 2011, when the 
Wallow fire consumed 538,000 acres in eastern Arizona, destroying 32 
homes and costing more than $79 million to suppress.
    Three more of the largest Arizona fires, the Cave Creek Complex 
(2005)--244,000 acres, Horseshoe Two (2011)--222,954 acres, and Willow 
(2004)--120,000 acres have all occurred subsequent to the demise of the 
Arizona Forest Industry. In total, those five fires consumed nearly ten 
percent of all of Arizona's forests (equivalent to more than 2 million 
acres if in Colorado). Decades of reduced logging coupled with active 
fire suppression had made Arizona's famous 2.4-million-acre ponderosa 
pine belt the most overgrown and flammable thickets in the West.
    According to the Arizona's governor office, the Rodeo-Chediski fire 
in 2002 (along with a smaller fire in 2003), elevated awareness about 
forest ecosystem conditions and wildfire risks in Arizona. However, by 
that time it was also recognized by the Arizona agencies that the only 
cost effective management technique was to involve the timber 
industry--an option no longer available to the state. Even Kieran 
Suckling, the director of the Center for Biological Diversity, the very 
person and organization that had done so much to destroy the timber 
industry, recognized the need for harvesting timber and in 2009 signed 
a deal with entrepreneur Pascal Berlioux to try and restart a timber 
industry in Arizona.
    Berlioux's company, Arizona Forest Restoration Products, hoped to 
do restoration work on at least 600,000 acres over 20 years, cutting 
only trees that are smaller than 16 inches. In turn, the Center for 
Biological Diversity promised not to file lawsuits against this work, 
and to defend the effort in court if other groups sued. Unfortunately, 
despite collaborative efforts by the State of Arizona, the USFS and 
others, reestablishing a timber industry has thus far proven to be too 
great a challenge. Berlioux has since shied away from making the $250 
million investment that he estimated would be required to establish a 
timber operation in Arizona and no new mills are being built in this 
area.
    Without the prospect of reestablishing an active sawmill industry 
and in an effort to ``create a viable, sustainable industry that is an 
effective tool in restoring and maintaining healthy forests'', the 
state sought to use government and financial incentives to create a 
new, different kind of timber industry using new technology and new 
products that lacked legitimate markets. Perhaps predictably, these 
efforts have failed and instead the USFS in Arizona is paying for 
forest management under stewardship contracts at a rate of about $420, 
on average (and sometimes as much as $1,000) for each acre treated.
    The obvious lesson from Arizona is that under the existing laws, 
the public, and specifically environmentalist groups, can use 
litigation and other methods to destroy the timber industry. Once lost, 
the industry cannot be expected to be reintroduced into a region, even 
with coordinated support and financial incentives from the USFS and 
state and local governments. To this point, the sawmill equipment in 
Saratoga was idled and left in place; something that is fairly unusual. 
If this equipment had been liquidated (as was the equipment in the Big 
Horn mill in Laramie) and had to be replaced, there would be no 
conceivable economic justification for restarting the mill.
    At this time, the USFS is operating timber sales in Colorado with 
what it calls ``social license''. This means the public generally 
supports efforts to harvest trees that have been insect infested. The 
Colorado public has a high degree of awareness of the impact of beetle 
killed pine because, among other reasons, a) the dead trees are very 
visible around highly trafficked areas such as the I-70 corridor and 
around ski areas such as Steamboat Springs and others, b) there have 
been many news articles in print and on television regarding beetle-
killed pine, and; c) the increasing frequency and severity of large 
forest fires in the state over the past few years has heightened the 
awareness of the danger of large tracts of dead trees.
    As a result of this awareness, the USFS generally has social 
license to conduct timber sales in the areas where structures and other 
human development meet or intermingle with undeveloped wildland; 
wildland-urban interface (WUI) areas. What is less certain is the USFS' 
social license to operate timber sales in non-WUI areas.
    It will be important to have timber sales in the non-WUI. First, 
nearly 20% of Coloradoans live close to nature, surrounded by that 
wilderness high-risk space and the state's population is projected to 
blossom in the next 30 years--with much of the growth expected to occur 
in those woodsy areas. Moreover, active timber sales in non-WUI areas 
are required to maintain the forest health in those areas. In 
particular, the spread of insect infestation of the Colorado spruce 
forests cannot be stymied without the ability to harvest infected 
timber in non-WUI areas. In addition, essential water supplies are at 
risk from falling trees because of the damage wildfires can cause to 
watersheds. Within the heart of the outbreak in Colorado and Wyoming, 
in non-WUI areas, are the headwaters for some of the rivers supplying 
water to 13 western states.
    Dead timber that is not harvested is subject to massive blow downs 
in the coming years. At the very least, this will impede the rate of 
regeneration in those forests. What is more, for those blow downs that 
catch fire, the conflagrations will burn hotter than fires in standing 
timber and will destroy nutrients in the soil necessary for 
regeneration.
    There is a great deal that is unknown about the long-term impact of 
the massive kill-off of the forests in Colorado, but there is much to 
be concerned about in untreated areas. The long-term consequences of 
the outbreak will be most dramatic in untreated areas where the shift 
in tree species composition will influence timber and water production, 
wildfire behavior, wildlife habitat and other forest attributes.
    The ability of environmental groups to limit timber harvest to WUI 
areas, to the detriment to the long-term health of the forests, is a 
situation that, if unchecked, can easily destroy the remaining timber 
industry in this region. Political leadership will be required to find 
a solution allowing sawmills long-term access to timber harvests from 
national forests in Colorado, both in WUI area and in non-WUI areas.
Point No. 6: Environmental activism has been a significant influencer 
        on the decline of the timber industry, ultimately to the 
        detriment of the FORESTS.
Point No. 7: A regional timber industry should be viewed as a highly 
        beneficial asset that once lost, is unlikely to be 
        reestablished due to the high cost of investment and the 
        uncertainty of long-term returns.
                                 ______
                                 
    Mr. McClintock. Thank you, Mr. Georg.
    I would now like to recognize Mr. Dan Jiron, a regional 
forester of the Rocky Mountain Region for the U.S. Forest 
Service from Golden, Colorado to testify.

   STATEMENT OF DAN JIRON, REGIONAL DIRECTOR, ROCKY MOUNTAIN 
         REGION, U.S. FOREST SERVICE, GOLDEN, COLORADO

    Mr. Jiron. Good morning, Mr. Chairman. Thank you both for 
the opportunity to come, and thank you, Mr. Tipton, for 
convening this hearing.
    The Forest Service recognizes the need for a strong forest 
industry to help accomplish forest restoration work. A vibrant 
industry can provide both workforce and the know-how to 
undertake mechanical treatments and other restoration 
activities. Maintaining a viable industry is vital to Colorado. 
A loss of this industry would significantly impact our ability 
to accomplish forest health and reduce safety and health issues 
associated with dead and dying trees.
    There have been some successes. We have two CFLR projects 
here in Colorado. One is right in our backyard, on the Western 
Slope. The Uncompahgre Plateau Collaborative Forest Restoration 
Project in 2011 provided 63 direct jobs and 124 total jobs. In 
this project, we have treated over 10,000 acres and produced 
6.5 million board feet.
    As members of the Subcommittee are well aware, the West is 
experiencing a beetle epidemic, and that is occurring all over 
the Rocky Mountain region in Region 2. Bark beetles have killed 
over 40 million acres of conifers in the western U.S. since 
2000.
    The Chief of the Forest Service has committed to spending 
$101 million on bark beetle work throughout the western regions 
for Fiscal Year 2012. The Rocky Mountain Region's share is $33 
million. Regionally, we have prioritized our forest health 
efforts focusing on safety, resiliency and recovery. In 2012, 
we expect to accomplish nearly 16,000 acres of fuel reduction, 
hazard tree removal, and noxious weed work.
    Timber volume to sell in 2012 within the region is slightly 
up from last year. We are at approximately 193 million board 
feet for Fiscal Year 2012, and that compares to 189 million 
board feet in 2011. This year we plan to sell 91 million board 
feet in Colorado, compared to 82 million board feet in 2011.
    Stewardship contracting is one tool that helps us to 
acquire restoration services by offsetting the value of the 
services received with the value of products removed with a 
single contractor agreement.
    In addition, we have a front range long-term stewardship 
contract over on the other side that was awarded in 2009, and 
it was one of only three such contracts in the nation. This is 
a new way of doing business for the Forest Service, which will 
reduce treatment costs and facilitate the utilization of low-
value products. We are currently exploring additional 
opportunities for long-term stewardship contracts within the 
region.
    The region continues to work with partners and permittees 
to address threats to infrastructure, including power lines, 
roads and communities. In an effort to streamline our NEPA, the 
region developed a large-scale power line EIS that covered the 
three forests that were most heavily impacted by beetle 
mortality. We are committed to working closely with power line 
companies where they are interested in more aggressively 
treating the transmission corridors.
    I would also mention in South Dakota we have taken several 
steps in NEPA to assist us to move faster and more efficiently, 
and the Black Hills has been a leader in helping us to carry 
out work related to restoration.
    Here on the West Slope, the last two large sawmills in 
Colorado, Intermountain Resources and Delta Timber, are here. 
Market declines in the last five years and a regional focus on 
mountain pine beetle had left the timber industry with some 
high-priced contracts sold prior to the market decline. The 
region has worked diligently over the last several years to 
provide forest industry relief where possible, and to promote 
healthy forests through active management.
    In August of 2011, Forest Service Chief Tidwell authorized 
that contracts awarded prior to July 1, 2008, meeting certain 
conditions, could be mutually canceled. In total, nine 
purchasers benefitted from this authority regionally, and seven 
benefitted within Colorado.
    The Forest Service will continue to strive to adapt and 
improve our ability to meet our mission of sustaining the 
health, diversity and productivity of the nation's forests and 
grasslands for present and future generations. Our goal is to 
employ existing industry, expand local business opportunities, 
and create jobs. Doing so will require working closely with our 
partners, including Congress and local governments.
    I thank you for your time and availability and look forward 
to answering your questions.
    [The prepared statement of Mr. Jiron follows:]

  Statement of Daniel (Dan) Jiron, Regional Forester, Rocky Mountain 
      Region, U.S. Forest Service, U.S. Department of Agriculture

    Mr. Chairman, Congressman McClintock, Mr. Chairman, Congressman 
Bishop, and Members, thank you for the opportunity to come before these 
subcommittees. I would also like to specifically thank Colorado 
Congressman Tipton and Colorado Congressman Coffman for requesting this 
field hearing. I am the Regional Forester for the Rocky Mountain 
Region, consisting of Colorado, Wyoming, South Dakota, Nebraska and 
Kansas. Thank you for inviting us here today.
Nationally
    Today, people understand that forests provide a broad range of 
values and benefits, including biodiversity, recreation, clean air and 
water, forest products, erosion control and soil renewal, and more. We 
have national forests in 42 states and Puerto Rico that comprise a land 
area of nearly 193 million acres. Our mission is to sustain the health, 
diversity, and productivity of the Nation's forests and grasslands for 
present and future generations. The Forest Service does this through 
working with numerous federal, state, tribal, and local partners, 
citizens, and industry.
    The Forest Service also recognizes the need for a strong forest 
industry to help accomplish forest restoration work. A vibrant industry 
can provide both the manpower and the know-how to undertake mechanical 
treatments and other restoration activities. Forest industry also 
lowers the cost of restoration to the taxpayer by recovering value from 
forest products. The Forest Service is committed to increasing the 
number of acres being mechanically treated by 20% over the next three 
years. This increase would allow the Forest Service to increase the 
number of acres and watersheds restored across the system, while 
supporting jobs and increasing annual forest product sales to 3 billion 
board feet of timber. A critical part of this effort is building public 
support for forest restoration and management activities.
    In January 2012 the Chief announced the Accelerated Restoration 
Initiative to increase the pace and scale of restoration and improve 
both the ecological health of our forests and the economic health of 
forest-dependent communities. An additional benefit of this restoration 
work is job creation. For example, through implementation of the 
Collaborative Forest Landscape Restoration Program (including the use 
of stewardship contracts), the proponents of projects on national 
forest lands anticipate creating or maintaining 1,550 jobs. The 
benefits of maintaining a robust forest industry flows not only to 
local communities but also to our public lands because the agency 
relies on local forest contractors and mills to provide the work force 
to undertake a variety of restoration activities. In addition, a study 
has shown that for every 1 million dollars spent on activities like 
stream restoration or road decommissioning 12 to 28 jobs are generated.
    Two CFLR projects are here in Colorado. The Uncompahgre Plateau 
Collaborative Forest Restoration Project was estimated to have provided 
63 direct jobs and 124 total jobs in FY 2011. In FY 2012, it is 
anticipated to leverage funds in the amount of $430,300 to complete 
more resource management. As a result of implementing this project, 
2,218 acres were restored, 893 acres were reforested, 1,828 acres of 
forest vegetation were improved, 2,871 acres of wildland-urban 
interface hazardous fuels acres were treated, 3,065 acres of non-
wildland-urban interface hazardous fuels acres were treated, and 6.57 
million board feet (MMBF) were sold.
    In addition, restoring the health and resilience of our forests 
generates important amenity values. Healthy, resilient forests and 
grasslands are magnets for outdoor recreation, with more than 170 
million visits per year to the National Forest System. These visits 
lead to jobs and economic opportunity.
    In order to accomplish the hundreds of thousands of acres of 
natural resource projects we do across the country each year, we 
continuously strive to increase efficiency in our National 
Environmental Policy Act (NEPA) process. The Agency has initiated a 
NEPA learning networks project to learn from and share the lessons of 
successful implementation of streamlined NEPA analyses. The goal of 
this effort is to ensure that the Agency's NEPA compliance is as 
efficient, cost-effective, and up-to-date as possible. Specifically we 
are looking at expanding the use of focused environmental assessments 
(EAs) and iterative environmental impact statements (EISs), expanding 
categories of actions that may be excluded from documentation in an 
environmental assessment or an environmental impact statement, and 
applying an adaptive management framework to NEPA. Our landscape-scale 
NEPA projects will also increase efficiencies by analyzing across broad 
swaths of land, avoiding repetitive NEPA analysis.
Beetle Epidemic
    As the members of the Subcommittees are well aware, the West is 
experiencing a beetle epidemic, and this infestation is changing the 
way our forests will look in the future. Susceptible tree and stand 
conditions combined with recent droughts and rising temperatures have 
contributed to significant forest mortality. Bark beetles have killed 
over 40 million acres of forests in the western United States since 
2000.
    The beetles causing most of this mortality are native insects, 
including mountain pine beetle, western balsam bark beetle, fir 
engraver, spruce beetle, and Douglas-fir beetle. The mountain pine 
beetle outbreak in the central Rocky Mountains is larger than any 
previously recorded outbreak in the Region, affecting over 6.6 million 
acres in Colorado and Wyoming. Damage was most widespread and dramatic 
in dense, aging, homogeneous lodgepole pine forests that dominate many 
mountainous areas of Colorado, Wyoming, Montana, Idaho, and Utah. Some 
of these outbreaks are occurring at higher elevations than in the past. 
Most notably, high-elevation whitebark pines have been killed on sites 
previously thought to be too cold for serious beetle outbreaks. These 
changes in beetle activity are related to warmer winter temperatures 
that have led to quicker development and higher survival rates for 
over-wintering insects. In Colorado, we are experiencing an epidemic of 
high beetle populations and susceptible hosts because:
        <bullet>  Warming results in higher beetle numbers and 
        survival.
        <bullet>  A lack of two weeks at minus 40 degree C in winter 
        means more beetles survive the winter.
        <bullet>  Warming allows for beetles to move up the hill and 
        attack higher elevation lodgepole pine and other species of 
        pines like whitebark.
        <bullet>  Warming and drought cause trees to be less resilient.
    The Chief of the Forest Service has committed to spending $101.4 
million on bark beetle work throughout the western regions in FY 2012. 
The Rocky Mountain Region's share is $33 million.
    The Region has focused initial efforts on most heavily impacted 
areas around the White River, Routt and Arapaho Roosevelt National 
Forests. We are now prioritizing our forest health efforts across the 
entire region focusing on safety, resiliency and recovery.
    Within the bark beetle area, the Region has worked with partners to 
address threats to the infrastructure, including powerlines, roads and 
communities. For example, the Forest Service developed the large-scale 
powerline EIS that covers the 3 national forests most heavily impacted 
by beetle mortality. The Region remains committed to working closely 
with the powerline companies where they are interested in more 
aggressively treating the transmission corridors.
Forest Management and Restoration Program including Stewardship 
        Contracting
    Timber volume that the Forest Service anticipates offering in 2012 
within the Region is comparable to previous years--approximately 193 
million board feet (MMBF) in FY2012 compared to 189 MMBF in FY2011. The 
amount of timber sold in the last five years within Colorado averaged 
98.5 MMBF annually.
    Stewardship contracting has increased greatly in Region 2 over the 
last 12 years, and it is an integral part of the forest management 
program, particularly for the treatment of low-value dead or dying 
vegetation caused by insect epidemics, or other low-value hazardous 
fuels. This tool helps the Forest Service to acquire additional 
restoration services. Stewardship contracting allows the Forest Service 
to offset the value of the services received with the value of forest 
products removed pursuant to a single contract or agreement.
    In FY2011, Region 2 awarded 44 stewardship contracts for the 
treatment of 13,100 acres. Since the authority was originally enacted 
in 1999, the Region has awarded more than 196 stewardship contracts and 
task orders treating more than 70,500 acres.
    Through stewardship contracts, Region 2 has been incorporating more 
biomass into sales to encourage utilization in pellets, bioenergy, 
biochar or other nontraditional products. For example, the Front Range 
Long-Term Stewardship Contract was awarded in 2009, and includes 
biomass utilization through pellets, decorative bark, horse bedding, 
and other forest products. We are entering into the fourth program year 
of the 10-year contract. This is a new way of doing business for the 
Forest Service, which will reduce treatment costs and facilitate the 
utilization of low-value products.
Mills and the Economy
    In its efforts to restore the health and resilience of our national 
forests, the Forest Service faces some obstacles--the lack of 
industrial capacity, the economic downturn, high transportation costs, 
and low product values. These are the main factors that contribute to 
high treatment costs, which limit the use of stewardship contracts and 
affect the economics of timber sales within the Region.
    Delta and Montrose are home to the last two large sawmills in 
Colorado--Intermountain Resources and Delta Timber.
    Market declines in the late 2000's and a regional focus on mountain 
pine beetle treatments have left the timber industry holding high 
priced contracts sold in the early to mid 2000's. Many of the remaining 
contracts were ineligible for relief measures afforded to the industry 
in the 2008 Farm Bill. Any loss of the timber industry negatively 
impacts the Forest Service's ability to battle the beetle epidemic and 
reduce fire risks associated with this epidemic.
    Commercial harvest utilizing a viable timber industry is the most 
efficient means to economically treat stands and restore landscapes, 
while supporting local economies. The Colorado forest industry provides 
the ability to actively manage vegetation and fuels on National Forest 
System lands, including salvage of dead and dying timber, and proactive 
treatments to maintain forest health and resilience, with the bonus of 
treating more acres at a lower cost. Employing existing industry, 
expanding local businesses, and creating local jobs maintains and 
increases capacity for managing the many acres of treatment identified 
in landscape restoration plans and Community Wildfire Protection Plans 
through a sustained workforce and stewardship capacity in loggers, 
foresters, saw millers, and truck drivers. Unfortunately, these 
critical land management partners and tools have greatly diminished in 
other regions and states.
    The Region has worked diligently over the past several years to 
provide timber industry relief where possible and to promote healthy 
forests through active management. We have had challenges of course, 
and I am well aware that the largest mill in the state is still in 
receivership.
    On August 2, 2011, Forest Service Chief Tidwell authorized the 
mutual cancellation of certain contracts awarded prior to July 1, 2008. 
The timber prices paid by purchasers prior to the forest products 
economic decline were higher than the market could bear in recent 
years. This authority allowed purchasers to mutually cancel sales that 
were no longer economically viable, and provide for continued operation 
of more economically viable timber sales. In total, nine purchasers 
benefitted from this authority regionally and seven benefitted within 
Colorado. The result is a more financially viable industry and 
maintenance of local jobs, to allow forest management to continue into 
the future when the market recovers. The Region is evaluating the 
reoffer potential and developing timelines to reoffer this volume as 
quickly as possible, where viable.
    In summary, the Forest Service will continue to strive to adopt and 
improve our ability to meet our mission of sustaining the health, 
diversity and productivity of the Nation's forests and grasslands for 
present and future generations. Doing so will require working closely 
with our partners, including Congress and local governments.
    It is my hope that the information that I have provided covers the 
interests of the Subcommittees with regard to the Forest Service. I 
thank you for your time and availability, and I look forward to 
answering your questions.
    That concludes my prepared statement.
                                 ______
                                 
    Mr. McClintock. Thank you, Mr. Jiron.
    At this point I am pleased to turn the gavel over to the 
distinguished Chairman of the National Parks, Forests and 
Public Lands Subcommittee, Mr. Bishop, who will conduct the 
remainder of the hearing.
    Congressman Bishop.
    Mr. Bishop. [Presiding.] Thank you.
    That is not in the script.
    [Laughter.]
    Mr. McClintock. Yes, it is right here.
    [Laughter.]
    Mr. Bishop. But we have other testimony to hear.
    Let me go back to our next witness. Mr. Shoemaker, I would 
like to recognize you, the Executive Director of the Wilderness 
Workshop for Carbondale, Colorado, to testify. The same rules, 
5 minutes, please.

 STATEMENT OF SLOAN SHOEMAKER, EXECUTIVE DIRECTOR, WILDERNESS 
                 WORKSHOP, CARBONDALE, COLORADO

    Mr. Shoemaker. Thank you. Thank you, Chairman Bishop, 
Chairman McClintock, Representative Tipton. I appreciate the 
opportunity to present to you today.
    I am the director of a local grassroots, community-based, 
non-profit conservation organization over in Carbondale, 
Colorado, over the hill from here, and I think today, though, I 
will speak mostly from my experience as the vice-chair of the 
Colorado Bark Beetle Cooperative, which is really most relevant 
to the issues today.
    I have been with the Colorado Bark Beetle Cooperative, 
which is a broad, diverse, multi-stakeholder collaborative 
effort that is based in the bark beetle theater over in the 10 
counties of Northern Colorado, and it has been self-charged 
with raising awareness about the bark beetle issue starting 
back in 2006, 2005, when there is a famous story about a state 
legislator who took a bark beetle down to the State Legislature 
in a little vial and he said, ``I'm here today to talk about 
beetles,'' and the response was ``I don't understand what a 
band from England in the '70s has to do with anything in 
Colorado.''
    The point is that there wasn't a lot of awareness about the 
scale and the intensiveness of the bark beetle epidemic.
    The Bark Beetle Cooperative has done a great job of raising 
awareness about the scale and the impact that the beetle 
epidemic has had on Northern Colorado, and we have done a great 
job of hammering out agreement across a broad set of 
stakeholders in terms of what the priorities are for addressing 
those impacts. The priorities we identified were protecting 
life, property, critical community infrastructure, communities, 
and water supplies.
    We took that broad agreement, which was full spectrum--
Nancy was at the table, other representatives of the timber 
industry, and some very conservative county commissioners from 
Grant and Jackson County--and we all came to agreement, and we 
took that agreement to Washington, D.C. and were successful in 
getting a whole bunch of money and attention focused on 
Colorado and addressing impacts to beetles. Something on the 
order of $70 million has resulted from our efforts to build 
agreement and focus attention on mitigating the impacts to 
Colorado.
    Fortunately, all that agreement has created a bunch of 
NEPA-ready projects that are on the shelf, but only about a 
quarter of those NEPA-ready projects have actually been 
accomplished. In other words, the hold-up there is not 
agreement, it is not litigation or appeals. It is funding to 
get the projects done. As we heard, the lodgepole pine has 
little market value, and that is a challenge because somehow we 
have to get these priority life-safety mitigations 
accomplished, but it is hard to do without any funds, and I 
think we would like to see more funds flow to the Forest 
Service to enable this mitigation work to get done.
    One thing we are focused on also is building what is called 
a zone of agreement. The Governor's Forest Health Advisory 
Council chartered a group called the Lodgepole Pine Zone of 
Agreement Group to come up with a broad set of principles that 
outline where the agreement is, where the consensus is on how 
to address lodgepole pine. Principally, the purpose of the 
study was to agree on a set of forest management goals and 
objectives and means of achieving them that could be mapped, 
and wood volume and type can be quantified, laying the basis 
for wood supply certainty. That is a quote from the Governor's 
Forest Health Advisory Council's charter to the Lodgepole Pine 
Zone of Agreement Working Group.
    The point is we recognize that you need a certainty of wood 
supply in order to make an investment decision and to scale up 
for the capital investments, and our contention is that the 
best way to do that is to pull together local collaborative 
processes, like the Colorado Bark Beetle Cooperative or the 
Ponderosa Pine group down in Southwest Colorado, or what we 
will hear from the Uncompahgre Partnership group up next, to 
hammer out what that agreement is, and within that zone of 
agreement you can actually map, then, where the wood is, what 
kind of wood it is, and what kind of value it is. That, then, 
can lay the road map for providing the certainty in wood supply 
over a long period of time.
    I think, in short, collaboration is the grease that can get 
things going. Collaboration is the grease that can get wood 
products out of the wood, into the market, and creating jobs 
and feeding our economies.
    Thank you.
    [The prepared statement of Mr. Shoemaker follows:]

 Statement of Sloan Shoemaker, Executive Director, Wilderness Workshop

    Chairman McClintock and Chairman Bishop, thank you for the 
opportunity to testify on this important issue.
    My name is Sloan Shoemaker and I am the Executive Director of the 
Wilderness Workshop based in Carbondale, CO, just over the pass from 
where we sit today. Wilderness Workshop was founded immediately after 
the passage of the Wilderness Act of 1964 and has since successfully 
advocated for Congressional designation of nearly 500,000 acres on 
Colorado's Western Slope.
    But because ecosystems don't stop at wilderness boundaries, the 
Wilderness Workshop actively engages in the discussion about how the 
matrix of public lands beyond wilderness areas are managed. Our 
interest is simple--protect the ecological integrity of public lands so 
that the innumerable benefits and ecosystem services that flow off of 
them will continue to undergird the healthy communities and strong 
economies of Colorado's central mountains.
    That's why I've been engaged with the Colorado Bark Beetle 
Cooperative since 2006. I am currently the President of the CBBC non-
profit corporation and vice-chair of the Steering Committee. CBBC is a 
policy level collaborative addressing the ecological, social, and 
economic impacts of the mountain pine beetle outbreak. CBBC is 
comprised of a broad spectrum of stakeholders including the timber 
industry, forest energy industry, conservation organizations, local 
government, emergency management, USFS, BLM, Colorado State Forest 
Service, utilities, private property owners, water managers, wildlife 
managers, interested citizens and more.
Collaboration is the grease
    CBBC has worked hard to hammer out agreement on priorities for 
treating the affects of the bark beetle epidemic. Those priorities 
include the protection of life, property, communities, critical 
community infrastructure and water supplies. This broad, diverse 
stakeholder agreement unified the Colorado Congressional Delegation 
behind these mitigation priorities and effectively leveraged agency 
attention and new resources to the state of Colorado. Below is a 
summary of increased funding resulting from CBBC and partners efforts 
from 2006 to 2010:
        <bullet>  $12,000,000, Department of Defense via Senate 
        Interior Appropriations Committee
        <bullet>  $44,550,000, Department of Agriculture via FS
        <bullet>  $10,000,000, ARRA funding
        <bullet>  $42,882, National Forest Foundation
        <bullet>  $50,000, Donations from CBBC members
        <bullet>  $5,000,000, State of Colorado through passed 
        legislation
        <bullet>  $300,000, County cost sharing grants
        <bullet>  $50,000, Colorado State Forest Service revolving loan 
        fund
    CBBC is proud to have raised public, congressional and agency 
awareness of the significant impact that bark beetles are having on our 
mountain communities. And, CBBC is proud that this awareness has 
translated into chainsaws running in the woods to mitigate those 
impacts. The hard work we've done to build consensus has leveraged 
nearly $70,000,000 worth of on-the-ground work that has reduced the 
hazards facing our communities, created jobs, and supplied wood to the 
wood products industry. Yet, there's still a long way to go--as of the 
end of 2011, less than a quarter of the NEPA ready mitigation work has 
been accomplished.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    This point bears emphasis. This mitigation work--215,380 WUI 
acres, 3700 miles of roads, 1300 miles of trails, and 460 recreation 
sites--has cleared NEPA with no appeals or litigation. So after three 
years of an all-hands-on-deck effort, why does 75-79% of this urgent 
mitigation work remain unfinished? There's not enough money to get it 
done.
What about the market?
    The best and brightest minds in Colorado have been struggling for 
years to figure out how to get this wood to pay its way out of the 
forest. But, as a 2011 report \1\ states:
---------------------------------------------------------------------------
    \1\ Review of the Forest Service Response: The Bark Beetle Outbreak 
in Northern Colorado and Southern Wyoming. A report by USDA Forest 
Service Rocky Mountain Region and Rocky Mountain Research Station at 
the request of Senator Mark Udall, September 2011
---------------------------------------------------------------------------
        Dead standing trees and most green standing trees in the 
        Colorado and Wyoming outbreak area have little or no commercial 
        value due to size, condition, accessibility or marketability. 
        In fact, they have negative value because they must be removed 
        at a cost. p. 10
    The economic recession and downturn in the housing market have 
killed demand for structural wood products. And, the longer the beetle 
killed lodge pole pine stands, the more defective it becomes, even 
further reducing its already marginal value. These issues are 
exacerbated by trade agreement issues with Canada which has been 
dumping its wood products on U.S. markets. Several pellet mills have 
sprung up to seize the opportunity this vast wood supply seemingly 
presents. But, they have limited capacity and...
        ...utilization of large quantities of biomass material is still 
        years away. The benefit/cost ratio for converting 
        municipalities to biomass-fueled heat or power does not favor 
        use of biomass when compared to natural gas because natural gas 
        costs less at this time. p. 12 \2\
---------------------------------------------------------------------------
    \2\ Ibid.
---------------------------------------------------------------------------
    The bottom line: there isn't a market solution for mitigating 
beetle kill hazards in a timely manner. It must be paid for with public 
funds. There's more NEPA ready work on the shelves, indeed several 
years worth, than there is money to pay for it. These means that even 
the triaged, highest priority human health and safety related tree 
removal isn't getting done at the necessary pace due to lack of funds.
    It's ironic that this hearing is titled ``Logs in the Road.'' The 
CBBC's collaborative efforts to build consensus around mitigation 
priorities cleared the road for the USFS to launch a vast hazard tree 
mitigation effort across the three national forests in the beetle 
theater. The USFS calculates 25 acres of tree mitigation per road mile 
making this a 92,500 acre linear clearcut. In a previous day, 
clearcutting 92,500 acres across 3 national forests would be tangled up 
in appeals and litigation for years. But this NEPA sailed through. 
Unfortunately, only 600 miles have been treated to date and the agency 
is struggling to find the funds to keep moving forward. Given that an 
estimated 100,000 trees are falling per day in Northern Colorado and 
Southern Wyoming, there will literally be logs in the roads...not as a 
result of excessive litigation or red tape...but due to lack of 
funding. Downsized government has come home to roost.
Industry and Zones of Agreement
    Though today's economics work against a robust timber and wood 
products industry in Colorado, it is critical that industry remain 
viable and at the table as it will play a key role in on-going forest 
management. Colorado will never be a major timber production state. Our 
growing seasons are too short and our wood quality is too poor to ever 
support a massive timber program. However, there is room for 
appropriately scaled industry. In fact, industry is essential to 
helping meet mitigation and restoration goals. But, how much industry 
is enough?
    One promising way to answer that is to work within the 
collaborative framework to identify a zone of agreement (ZOA). Industry 
needs certainty upon which to build a business plan. The ZOA can 
provide that certainty. If all stakeholders can agree on a set of 
forest management goals and objectives and the means of achieving them, 
that agreement can be mapped and wood volume/type can be quantified, 
laying the basis for wood supply certainty. Industry can then scale and 
invest appropriate to this supply over the long term.
    The recently disbanded Colorado Governor's Forest Health Advisory 
Council chartered the Lodgepole Pine Zone of Agreement Working Group in 
April 2010. ``The underlying purpose...is to help the FHAC better 
understand what wood supply would be available to sustain wood 
industries in the LPP zone over the long-term, not just during the 
period of salvaging standing dead trees.'' \3\ Due to time and resource 
limitations, the LPP ZOA group stopped short of a fine filter 
quantification of wood supply across the LPP zone. However, it did 
develop a process framework for converting the philosophical ZOA into 
an operational ZOA using Summit County as a case study.
---------------------------------------------------------------------------
    \3\ Colorado Governor's Forest Health Advisory Council, Lodgepole 
Pine Zone of Agreement Working Group Report. April, 2010. Colorado 
Forest Restoration Institute.
---------------------------------------------------------------------------
    While this approach may seem time intensive and unwieldy, sometimes 
we have to go slow to go fast. The most valuable lesson learned from 
the numerous collaboratives around the state is that time invested 
upfront to build trust, deepen communication, explore differences and 
hammer out agreements expedites projects to the ground and creates the 
climate of certainty necessary to sustain a robust but appropriately 
scaled industry. Effective collaboration can improve the rate of 
implementation more effectively than trying to reduce environmental 
reviews and public involvement. The formula is simple; develop locally-
relevant science within a solid collaborative process thoroughly 
supported by local agency and community leadership to arrive at a 
strategy that does not result in appeals or litigation--science, 
collaboration, and leadership.
Protecting water supplies
    Millions of people rely on water from watersheds now dominated by 
beetle killed lodgepole pine trees. Given how vast the epidemic is and 
how few resources are available to address its impacts, a strategically 
targeted approach to protecting water supplies is imperative. The first 
order of business is to treat hazard trees that threaten to fall on or 
block water delivery infrastructure. This infrastructure is readily 
locatable and hazardous trees that threaten it can be readily 
identifiable and treated. Hazard tree removal also reduces fuel loading 
around infrastructure to reduce or eliminate direct impacts from 
wildfire.
    A larger and more worrisome threat is posed by the risk of massive 
post-fire debris flows. This threat isn't restricted to beetle killed 
forests. Any fire dependent forest will eventually burn, posing the 
same debris flow hazard to reservoirs and the water supply system. 
Again, because of the scale of the potential problem and the fact that 
predicting where the next fire will be is impossible, a targeted and 
strategic approach that will give the most bang for the buck is 
warranted.
    A group of scientists, land managers and water suppliers was 
convened in the fall of 2007 to examine ways to protect Front Range 
water supplies. The Data Refinement Work Group was formed with the 
purpose to ``identify and prioritize those watersheds that provide or 
convey water used by communities and municipalities. This 
identification of watersheds will, in turn, assist in prioritizing 
watersheds for hazard reduction treatments or other watershed 
protection measures.'' \4\ Four components were identified to assess 
watershed risks. They are:
---------------------------------------------------------------------------
    \4\ Front Range Watershed Protection, Data Refinement Work Group. 
Protecting Critical Watersheds In Colorado From Wildfire: A Technical 
Approach To Watershed Assessment And Prioritization, Executive Summary, 
February 2009, p. 2.
---------------------------------------------------------------------------
        <bullet>  wildfire hazard
        <bullet>  flooding or debris flow hazard
        <bullet>  soil erodibility
        <bullet>  water uses ranking
    These layers are then overlain to develop a composite hazard 
ranking.
    This watershed assessment methodology identifies and prioritizes 
sixth-level watersheds based upon risks to water supplies posed by 
debris flows and increased sediment yields following wildfires that 
could have impacts and is intended to be the first phase of the 
process. It results in the identification of Zones of Concern that 
warrant a closer look. Because the data is too coarse at the 6th level 
watershed scale, the next step is convening local stakeholders with 
expert knowledge of the watershed to focus at a finer scale on these 
Zones of Concern. This will result in identification of specific 
treatment areas, methods and priorities for on-the-ground projects. 
Having been fairly widely vetted, there's general consensus and comfort 
that this strategic approach to water supply protection has great 
merit, especially in time when resources are few and priorities must be 
identified to yield the most efficient use of the very limited 
resources available. Because this methodology is scientifically sound 
and enjoys broad support, resulting projects are likely to be 
uncontroversial and the biggest barrier to implementation is likely to 
be funding.
How did we get here and what happens next?
    No discussion of the bark beetle epidemic is complete without 
reflecting on how we got here and looking forward at what future 
forests might look like.
        Across vast acres in the West, even-aged stands of pine forests 
        have formed as a result of years of fire suppression and large-
        scale, intense logging at the turn of the century. Many of 
        these tree species life histories are fire-adapted, and 
        lodgepole pine, for example, naturally regenerates in the 
        presence of fire. These homogeneous and overly dense forests 
        have provided an extensive food source for beetles, and they 
        have responded with large population build-ups. In addition, 
        climate change has resulted in warmer winters that have not 
        been cold enough to reduce beetle populations. This phenomenon, 
        combined with multi-year drought, has allowed beetles to 
        proliferate at higher elevations and latitudes and has resulted 
        in more beetle generations per year in some areas.\5\
---------------------------------------------------------------------------
    \5\ Western Bark Beetle Strategy--Human Safety, Recovery and 
Resiliency, U.S. Forest Service, July 11, 2011, p. 4
---------------------------------------------------------------------------
    This intersection of macro-scale factors has allowed the beetle 
outbreak to cross a threshold, blooming into an epidemic at a scale 
impossible to stop. It seems each successive generation must relearn 
this lesson.
    Forest managers threw everything they had at the spruce bark beetle 
outbreak on the Flattops in the 1940-50s to no avail. The mountain pine 
beetle got a head of steam in the 1970s and managers tried to cut their 
way ahead of it, again to no avail. Some long time Forest Service 
personnel relate that they've been fighting the beetle and losing their 
entire careers. When the public first started becoming aware of the 
current epidemic, the cry went up to fight the beetle and do everything 
in our power to stop it. ``Six or eight years ago, we were under a lot 
of public pressure to stop the beetles from spreading further,'' says 
Steve Currey, director of bark beetle operations on the Medicine Bow-
Routt National Forests in Colorado and Wyoming. ``Now people understand 
that this thing is too big, and really impossible to stop.'' \6\
---------------------------------------------------------------------------
    \6\ Ibid. p.4
---------------------------------------------------------------------------
    The beetle killed LPP forests are routinely referred to as 
devastated but this characterization misunderstands what is actually 
happening. While the millions of acres of dead LPP are visually 
arresting, this isn't an ecological disaster. LPP is an early 
successional species that co-evolved with this sort of disturbance and 
consequently regenerates quite well. The beetle attacked the larger, 
overstory trees killing many but not all. Mortality has been 
heterogeneous, with isolated pure LPP stands showing 100% mortality 
while others retain a significant amount of surviving large canopy 
trees. These survivors lay the foundation for a structurally diverse, 
mixed age class future forest.
        The beetles have selectively killed the larger trees, whereas 
        most smaller trees and saplings have survived. Often obscured 
        by the red crowns of the larger dead or dying trees, small 
        trees usually are at least as abundant in a surviving 
        understory as dead trees are in the overstory. All of these 
        diverse stand structures are grouped together, however, in the 
        reported acreages of ``destroyed'' forest.\7\
---------------------------------------------------------------------------
    \7\ Rocca, Monique E. and Romme, William H., Beetle-infested 
forests are not ``destroyed,''in Frontiers in Ecology. The Ecological 
Society of America, publisher. P. 71.
---------------------------------------------------------------------------
    Further, shade tolerant species like Engelmann Spruce, sub-alpine 
fir, and Douglas fir have established in the understory of what from a 
distance look like homogenous LPP forests. Also, aspen trees are now 
showing up in places where previously there was a homogenous stand of 
LPP. With the removal of a live overstory, these suppressed understory 
species are released and thriving on the newly abundant resources 
(water, sunlight and nutrients) available to them. This advanced 
regeneration is the future forest already established, ensuring that 
future forests will be much more heterogeneous and diverse than the one 
it's replacing.
    Whole books could be written about future fire behavior in the 
beetle killed LPP. There's understandable concern about fire severity 
and rate of spread in the vast dead LPP forest. But, researchers are 
demonstrating that it's much more complicated than the simplistic 
equation that dead trees equal greater fire hazard. Studies show that 
wind, temperature and humidity have a greater impact of fire behavior 
than the structural changes wrought by beetles. ``It's important to 
remember that nobody is saying beetle-killed forests won't burn,'' 
Turner says. ``They will burn perfectly well. The point is that they 
will burn no more severely than a comparable green forest.'' \8\ The 
point is that local ecological context and climatic conditions the day 
of burn matter and broad generalizations serve no purpose. In any case, 
the fact remains that the highest probability for surviving wildfires 
lays in treating the fuels within 40 meters or so of structures at 
risk.\9\ If I was a local fire chief, I'd be more focused on educating 
residents in my district about the common sense measures they can take 
to protect the Home Ignition Zone than the condition of fuels in the 
backcountry.
---------------------------------------------------------------------------
    \8\ Bark Beetles and Fire: Two Forces of Nature Transforming 
Western Forests. Fire Science Digest, Issue 12. February 2012. p.6.
    \9\ Cohen, J. D. (2000). Preventing disaster, home ignitability in 
the wildland-urban interface. Journal of Forestry 98(3): 15-21.
---------------------------------------------------------------------------
    CBBC has chartered a special Future Forests Committee tasked with 
developing a nuanced understanding of the variability in numbers, 
sizes, and species of surviving trees and the species diversity and 
distribution of natural regeneration to get a handle on what future 
forests will look like if left alone. Armed with this understanding, 
the committee will then initiate a dialog with local communities to 
explore what their vision for future forests is. Comparing that vision 
to the trajectory forests are naturally on will reveal areas of 
conflict where desired future conditions diverge from the forest's 
trajectory. This will then inform where forest management actions in 
the mid- to long-term must occur to reset the forest trajectory towards 
the desired future condition.
Is NEPA a log in the road?
    A 2003 GAO report to Congress found that only 3% of hazardous fuels 
reduction projects in 2001-02 were litigated affecting only 100,000 
acres of the 4.7 million acres authorized by NEPA decisions in those 
years.
    A 2010 GAO report to Congress found that only 2% of hazardous fuels 
reduction projects in 2006-08 were litigated affecting only 124,000 
acres of the 10.5 million acres authorized by NEPA decisions in those 
years.
    Congress recently attached a rider to the FY12 omnibus spending 
bill that the President signed into law requiring a fast-track process 
that limits citizen participation by applying the streamlined HFRA pre-
decisional objection process to every project implementing a Forest 
Plan. The rider provides:
        FOREST SERVICE PRE-DECISIONAL OBJECTION PROCESS
        SEC. 428. Hereafter, upon issuance of final regulations, the 
        Secretary of Agriculture, acting through the Chief of the 
        Forest Service, shall apply section 105(a) of the Healthy 
        Forests Restoration Act of 2003 (16 U.S.C. 15 6515(a)), 
        providing for a pre-decisional objection process, to proposed 
        actions of the Forest Service concerning projects and 
        activities implementing land and resource management plans 
        developed under the Forest and Rangeland Renewable Resources 
        Planning Act of 1974 (16 U.S.C. 1600 et seq.), and documented 
        with a Record of Decision or Decision Notice, in lieu of 
        subsections (e), (d), and (e) of section 322 of Public Law 102-
        381 (16 U.S.C. 23 1612 note), providing for an administrative 
        appeal process:
        Provided, That if the Chief of the Forest Service determines an 
        emergency situation exists for which immediate implementation 
        of a proposed action is necessary, the proposed action shall 
        not be subject to the pre-decisional objection process, and 
        implementation shall begin immediately after the Forest Service 
        gives notice of the final decision for the proposed action: 
        Provided further, That this section shall not apply to an 
        authorized hazardous fuel reduction project under title I of 
        the Healthy Forests Restoration Act of 2003 (16 U.S.C. 6501 et 
        seq.).
    This is an extreme fix for what is apparently more a problem in 
lore than reality. This is especially troubling because NEPA is 
essentially conservative in intent--it seeks to hold the government 
accountable to its citizens. Insulating government from review just 
means making government less accountable. Further streamlining of NEPA 
has the perverse effect of allowing government bureaucrats in DC to get 
away with whatever they want with less public oversight and 
accountability.
    NEPA allows everyone to participate, gives everyone a voice, and 
opens the courthouse door to all who would hold the government 
accountable. And, NEPA isn't biased towards one side or the other and 
provides the opportunity for everyone to have a voice based on the 
study process required by NEPA. While the conservation community is 
well known for its skillful engagement in the NEPA process, here are 
two examples of where miners successfully navigated the NEPA process.
    This year, an individual uranium prospector filed suit against DOI 
for putting 1 million acres of lands off-limits to mining near the 
Grand Canyon. He didn't even have a lawyer. What he had was NEPA, which 
permitted him to provide comments to the agency showing why he thought 
uranium mining could occur without harming the environment. And it gave 
him rights when he thought BLM had broken the law. While I don't agree 
with the substance of his suit, I will defend his right to intervene in 
the process. What could be more American than a single individual 
trying to hold the government accountable? Should we make it even 
harder for him--and for others--to do so?
    Another mining interest used the NEPA process to challenge and 
enjoin a uranium leasing program they felt wronged by. A key point to 
the NEPA injunction issued by Judge Martinez on the DOE uranium leasing 
program is that the problems at the lease sites and the narrow analysis 
carried out by private contractors were brought to the DOE's attention 
in 2006. Instead of taking public input seriously, DOE kept its head in 
the sand and is now addressing these issues pursuant to court order and 
oversight. Judge Martinez agreed that DOE failed to comply with NEPA 
which never would have happened if the public was denied the right to 
appeal and litigate. From the conservation community's perspective, 
there are a few key factors at play that result in project level NEPA 
delaying on-the-ground action. The lengths entrenched agencies go to 
avoid disclosure of serious problems is a real culprit. Litigation does 
not succeed unless an agency truly botches the job. Outsourcing the job 
to government contractors with deep ties to industry is also a key 
failure. Our federal agency experts should be doing the analysis, not 
industry.
    Further, agencies can be their own worst enemies, turning a simple 
NEPA process into an analysis black hole. Our experience suggests that 
this results from agencies trying to make appeal proof NEPA documents 
for controversial or unjustifiable projects. As discussed above, a more 
effective and efficient way to avoid appeals and expedite projects to 
the ground is through upfront collaboration to build the agreement that 
allows projects to sail out the back end uncontested.
                                 ______
                                 
    Mr. Bishop. Thank you.
    We will next hear from Ms. Leigh Robertson, who is a grant 
writer for the Education Outreach Coordinator, and this is why 
I got the gavel now, so I can pronounce this word. Uncompahgre?
    Ms. Robertson. Uncompahgre.
    Mr. Bishop. Fine, OK. Uncompahgre.
    [Laughter.]
    Mr. Bishop. You don't have that word in Utah, I'm sorry.
    The Uncompahgre Partnership from Ridgway, Colorado.
    You have 5 minutes, ma'am.

 STATEMENT OF LEIGH ROBERTSON, GRANTWRITER, EDUCATION/OUTREACH 
    COORDINATOR, UNCOMPAHGRE PARTNERSHIP, RIDGWAY, COLORADO

    Ms. Robertson. Thank you, Congressmen, for this opportunity 
to testify. As you mentioned, I represent Uncompahgre Com, a 
nonprofit that promotes forest health in ways that provide 
positive impacts on local economic, cultural and ecological 
values. We are also a partner in the Western Colorado Landscape 
Collaborative, along with local offices of the Forest Service, 
Bureau of Land Management, Colorado Parks and Wildlife, Western 
Area Power Administration, and Tri-State Generation and 
Transmission Association. Our local collaborative is working 
hard to improve the resiliency of our forests, and I would like 
to share some information about this valuable model.
    To give an example, in July of 2002 the Burn Canyon Fire 
charred over 30,000 acres. The Forest Service made plans for a 
salvage logging sale in the canyon after the fire. 
Environmental groups were concerned about the potential for 
ecological damage from logging operations. By discussing the 
issues and working together, various interested parties were 
able to come up with a win-win solution. This included 
developing a multi-party monitoring partnership to determine 
the impacts of salvage logging. This stopped appeals by 
environmental groups of two other timber sales within the 
canyon and helped two small, local timber companies stay in 
business. As a result, harvesting and processing of wood 
products resulted in an estimated return of over $1,460,000. In 
addition, logging, trucking and sawmill businesses spent over 
$770,000 in the region for goods and services.
    Another example is the Uncompahgre Plateau Collaborative 
Forest Restoration Program. By involving local stakeholders 
early on in the planning process, environmental concerns were 
addressed, and there were no appeals of the NEPA document, 
which has resulted in several stewardship contracts. This 
environmental assessment has led to over 29,000 hundred cubic 
feet of timber to local mills and has provided 229 part- and 
full-time jobs.
    In addition, we've worked with partners such as WAPA and 
Tri-State when planning forest treatments. This has resulted in 
larger and more effective treatments that reduce the likelihood 
of wildfires destroying power lines and the associated 
disruption of power and communication to thousands of people, 
property damage, and possible loss of human life. These 
treatments also improve wildlife habitat and forest diversity. 
So far, over 2,000 acres of power line treatments have been 
accomplished.
    Currently, the Forest Service and local partners are 
planning for the next phase of the CFLR project. The NEPA 
document for the Escalante Project Area will cover 
approximately 142,000 acres. There are a number of benefits to 
planning for large landscapes such as this: the ability to 
implement many forest treatments under one NEPA document, which 
provides for greater efficiency and coordination. Wildlife, 
recreation, industry and environmental concerns can all be 
effectively addressed and resolved up front with stakeholders. 
The more profitable treatments, such as logging of spruce 
trees, can help offset the costs of ecosystem restoration 
treatments, such as the thinning of small-diameter pine trees, 
which are not profitable to log commercially. Money can be 
leveraged among several partners, and projects can be planned 
to keep naturally ignited fires compartmentalized between 
treated areas and existing roads.
    While we have been able to work successfully within 
existing environmental regulations, we do see other areas that 
could be improved. This includes increasing the authority of 
local land managers to move on projects and collaborate with 
other partners, and other items mentioned in my written 
testimony. We encourage Congress to keep supporting 
collaboration, such as through continued funding for the 
Collaborative Forest Landscape Restoration Program. The CFLR 
Program not only encourages local stakeholder involvement, but 
also promotes sharing of knowledge among the various projects 
across the U.S., which improves efficiency.
    I would also like to mention that the collaborative work we 
are doing with Tri-State and WAPA is so unique that the 
transmission forum members from Canada, the United States and 
Mexico will be meeting this September in Montrose to learn 
about this effective model. This kind of partnership between 
the utilities, Colorado Parks and Wildlife, Uncompahgre Com, 
the BLM and Forest Service can only continue to grow if 
collaboration is encouraged and supported in the Federal 
agencies.
    I thank you for your time.
    [The prepared statement of Ms. Robertson follows:]

     Statement of Leigh Robertson, Education/Outreach Coordinator, 
                         Uncompahgre/Com, Inc.

    Congressmen, thank you for this opportunity to testify.
    My name is Leigh Robertson, and I represent Uncompahgre Com, a 
nonprofit that promotes forest health in ways that provide positive 
impacts on local economic, cultural and ecological values. We are also 
a partner in the Western Colorado Landscape Collaborative, along with 
local offices of the Forest Service, Bureau of Land Management, 
Colorado Parks and Wildlife, Western Area Power Administration and Tri-
State Generation and Transmission Association.
    Our local collaborative is working hard to improve the resiliency 
of our forests, and I would like to share some information about this 
valuable model.
    To give an example, in July of 2002 the Burn Canyon Fire charred 
over 30,000 acres. The Forest Service made plans for a salvage logging 
sale in the canyon after the fire. Environmental groups were concerned 
about the potential for ecological damage from logging operations. By 
discussing the issues and working together, various interested parties 
were able to come up with a win-win solution. This included developing 
a multi-party monitoring partnership to determine the impacts of 
salvage logging and preventing one timber sale located on steep land 
that would have required the construction of new roads. This stopped 
appeals by environmental groups of two other timber sales within the 
canyon and helped two small, local timber companies stay in business. 
As a result, harvesting and processing of wood products resulted in an 
estimated return of over $1,460,000. In addition, logging, trucking and 
sawmill businesses spent over $770,000 in the region for goods and 
services.
    Another example is the Uncompahgre Plateau Collaborative Forest 
Landscape Restoration Program (CFLRP). By involving local stakeholders 
early on in the planning process, environmental concerns were 
addressed, and there were no appeals of the NEPA document which has 
resulted in several Stewardship contracts. This Environmental 
Assessment has led to over 29,000 ccf of timber to local mills and has 
provided 229 part and full-time jobs.
    In addition, we've worked with partners such as the WAPA and Tri-
State when planning forest treatments. This has resulted in larger and 
more effective treatments that reduce the likelihood of wildfires 
destroying power lines and the associated disruption of power to 
thousands of people, property damage, and possible loss of human life. 
These treatments also improve wildlife habitat and forest diversity. So 
far, over 2,000 acres of power line treatments have been accomplished.
    Currently, the Forest Service and local partners are planning for 
the next phase of the CFLR project. The NEPA document for the Escalante 
Project Area will cover approximately 142,000 acres. There are a number 
of benefits to planning for large landscapes such as this:
        <bullet>  The ability to implement many forest treatments under 
        one NEPA document, which provides for greater efficiency and 
        coordination
        <bullet>  Wildlife, recreation, industry and environmental 
        concerns can all be effectively discussed and resolved up front 
        with stakeholders
        <bullet>  The more profitable treatments, such as logging of 
        spruce trees, can help offset the costs of ecosystem 
        restoration treatments, such as the thinning of small diameter 
        pine trees--which are not profitable to log commercially
        <bullet>  Money can be leveraged among several partners, and
        <bullet>  Projects can be planned to keep naturally-ignited 
        fires compartmentalized between treated areas and existing 
        roads.
    While we have been able to work successfully within existing 
environmental regulations, we do see other areas that could be 
improved. These improvements could include:
        <bullet>  Getting federal budgets to the local field offices 
        before the end of the current fiscal year.
        <bullet>  Increasing the authority of local land managers to 
        move on projects and to collaborate with other partners,
        <bullet>  and other items mentioned in my written testimony.
    We would encourage Congress to keep supporting collaboration, such 
as through continued funding for the Collaborative Forest Landscape 
Restoration Program. The CFLR Program not only encourages local 
stakeholder involvement, but also promotes sharing of knowledge among 
the various projects across the U.S., which improves efficiency.
    Thank you for your consideration of this testimony.
    Further suggestions for things that could be improved:
        <bullet>  Currently, collaborators can only request federal 
        funds 30 days before they will be used. It can be very hard to 
        predict when funds will be needed due to factors such as 
        weather and contractor's schedules. It would be helpful if the 
        local forest supervisor had the ability to extend that time up 
        to 90 days.
        <bullet>  Ongoing changes in policies and new regulations can 
        have a dramatic effect on local offices--reducing efficiencies, 
        morale and employee production.
        <bullet>  The Forest Service often values timber too high, 
        which can prevent local contractors from bidding on timber 
        sales. It makes more sense to listen to the local timber 
        industry reps and see what price is economically feasible. If 
        the Forest Service keeps the valuation a little lower, industry 
        contractors can bid up the price.
        <bullet>  The recently added additional layer in the state BLM 
        organization causes less efficiency and hinders local managers 
        in moving effectively to meet their land management objectives. 
        We'd rather see that money going to add more field-level 
        employees.
        <bullet>  Additional regulations imposed on collaborators (in 
        formal participating agreements) increase costs for these 
        organizations. This makes it very challenging in this economy.
    Other Comments:
        <bullet>  We don't see any need to circumvent the NEPA process. 
        Logging of beetle-killed trees could have detrimental 
        environmental affects in some areas, so the process provides 
        necessary safeguards. If planning efforts include stakeholders 
        in the early stages, appeals can often be prevented.
        <bullet>  The collaborative approach mentioned above, e.g., 
        involving stakeholders and working across large landscapes is 
        also effective in other areas, such as coordinated weed 
        management and the Colorado Plateau-wide native plant program.
        <bullet>  In addition to the Forest Service, the BLM has been 
        an important partner in this process, e.g., many power line 
        treatments were conducted on BLM land.
        <bullet>  Another critical component of our success has been 
        the use of the various funding sources in implementing programs 
        across agency boundaries to benefit our broad landscape 
        approach to healthy public lands.
        <bullet>  We applaud your efforts to get out to local 
        communities to hear the issues of concern, since each locale 
        has their own specific challenges. As you can see, the need to 
        log beetle-killed pine to improve forest health isn't an issue 
        on the Uncompahgre Plateau. Here, pine trees aren't even a 
        species that local loggers and mills want to buy. Spruce is the 
        tree that is economically feasible to log and mill. That said, 
        we are doing all we can to:
                <all>  improve forest resiliency to minimize future 
                outbreaks of insect infestations and reduce the 
                likelihood of catastrophic wildfires, and
                <all>  provide local jobs, recreational opportunities, 
                and move towards ecosystem health in a collaborative, 
                science-based manner.
    We encourage Congress to continue supporting this effective 
approach.
                                 ______
                                 
    Mr. Bishop. Thank you, and I will say Uncompahgre properly 
from now on, because I will never say it again.
    [Laughter.]
    Mr. Bishop. All right. Thank you.
    We will next turn to Mr. Downie, who is the David--no. Yes, 
Mr. Downie, one page too soon. The Director of the Vegetation 
Management and Ancillary Service Program for Xcel Corporation, 
from Denver, Colorado.

 STATEMENT OF JIM DOWNIE, DIRECTOR, VEGETATION MANAGEMENT AND 
   ANCILLARY SERVICES PROGRAM, XCEL ENERGY, DENVER, COLORADO

    Mr. Downie. Mr. Chairman and members of the Committee, 
thank you for the opportunity to share our perspective. Public 
Service Company of Colorado is the largest investor-owned 
utility in Colorado, with approximately 1.7 million customers. 
In Colorado we have approximately 4000 miles of electric 
transmission lines, of which 760 are on U.S. Forest Service 
lands.
    My remarks will focus on the ongoing efforts by Xcel Energy 
to maintain its electric transmission rights-of-way as required 
by the Colorado PUC and in compliance with Federal regulators 
to better ensure the safe, reliable delivery of electricity 
while taking into consideration the Forest Service's efforts to 
ensure forest health, and the very real challenges of both Xcel 
and the Forest Service face every day in advancing these 
efforts.
    To put the utility issue in perspective, it is important to 
understand that, although utility corridors make up less than 1 
percent of acreage involved in the current MPB epidemic in 
Colorado, the impact of one tree coming into contact with 
electric lines starting a fire, or a wildfire damaging or 
destroying transmission lines could have far-reaching 
consequences for many residents of Colorado and perhaps other 
states.
    We have long worked in partnership with the Forest Service 
to perform vegetation management around electric facilities 
located on Federal lands and more recently with collaborative 
groups like the CBBC.
    Despite this, challenges remain. There are three main 
operational challenges, all with ties to overall forest health. 
First is NERC implemented the Vegetation Management Standard in 
2007 in response to the 2003 Northeast blackout. Essentially, 
this standard has a zero tolerance for tree-related outages. 
The most practical and cost-effective way for us to ensure that 
doesn't happen is to remove all incompatible vegetation from 
rights-of-way.
    But essentially, the issue is we have FERC and NERC saying 
don't have any tree outages, and sometimes the Forest Service 
and, more importantly, their critics saying that we want trees 
there, maybe to screen the lines so you can't see it and that 
kind of stuff. So we have competing Federal mandates and 
inconsistent policies impacting national lands. Our progress on 
Federal lands has been inconsistent, ranging from removal of 
incompatible vegetation to limited removal.
    The second issue is, beginning in 2008, the impact of 
unprecedented levels of mountain pine beetle activity left 
thousands of dead trees within striking distance of our 
facilities. We have managed that very successfully. We have 
removed about 200,000 trees in the last several years. They 
were all hazard trees, and we greatly appreciate the assistance 
the forest has been able to provide regarding this, but we are 
all frustrated by legal and regulatory constraints that prevent 
us from performing this work more efficiently, effectively and 
safely.
    The last issue is the bark beetle infestations have brought 
about an awareness of the potential for radiant heat that can 
damage and destroy transmission structures. In the MPB epidemic 
area alone, 76 percent of our transmission structures are made 
out of either wood or aluminum, which obviously are very 
sensitive to heat. Some transmission lines are more critical 
than others, with many providing electricity to hundreds of 
thousands of customers.
    In the event of a fire, transmission lines can be short-
circuited by smoke. This is usually a short-term problem. 
However, if a fire completely destroys structures, the loss of 
the lines ability to serve electricity can be long-term. In 
other words, it is out of service until we can repair it or 
rebuild it. Losing multiple structures or more than one 
transmission line at the same time from fires can create an 
even greater challenge for our customers.
    We are keenly aware that the challenges facing our company 
are occurring in the context of a much larger one the Forest 
Service faces with regard to forest health. We are most 
appreciative of the leadership shown by the Forest Service to 
address the situation, and we also are very appreciative of the 
leadership shown in the Congress by the two committees 
represented here, as well as Senator Udall and his tireless 
efforts on the matter.
    In seeking to address the situation in the long term, it 
has become clear to us that existing Federal laws are a 
significant barrier to enabling the Forest Service and 
utilities like us to work together in a comprehensive way to 
address the two main challenges, which are again trees coming 
in contact with the lines and the potential for wildfire 
damage.
    The moment we step onto lands outside the rights-of-way, we 
face a significant legal challenge. The property is owned and 
managed by the Forest Service, and the utilities are not the 
stewards of these lands. The challenge is that such lands are 
now impacting our infrastructure, which is critical to the 
health, safety and welfare of our modern society. Although we 
do not have the legal control for these areas outside our 
permits, some have argued that utilities like ours should 
somehow be responsible for the conditions that were created by 
events wholly outside of our control.
    In sum, the laws and regulations governing forest 
management do not provide flexibility for the Forest Service 
and companies like ours to effectively and efficiently and 
safely address forest health/fuels treatments in areas 
immediately adjacent to our rights-of-way and sometimes on the 
right-of-way. One needs to look no further than right here 
where, as Ms. Robertson and Mr. Jiron have noted, there are 
some great projects and great success stories with WAPA and 
Tri-State working on Forest Service lands and leaving a really 
great end product.
    Because of that common interest, addressing this matter in 
such a way where we can access these areas in a swift but 
limited manner, without shouldering extensive liability, we 
believe should be a priority.
    Thank you, Mr. Chairman, for the chance to share our views. 
I would be happy to answer any questions.
    [The prepared statement of Mr. Downie follows:]

                Statement of James S. Downie, Director, 
        Vegetation Management & Ancillary Programs, Xcel Energy

    Mr. Chairman and Members of the Committee
    Good Morning, My name is James S. Downie. I am the director of 
vegetation management and ancillary programs for Public Service of 
Colorado, which is an Xcel Energy company. Today I am representing Xcel 
Energy.
    Thank you for the opportunity to share our perspective.
Company Overview
    Xcel Energy is an investor-owned electricity and natural gas 
company with regulated operations in eight Midwestern and Western 
states. Based in Minneapolis, Minn., we provide a comprehensive 
portfolio of energy-related products and services to approximately 3.4 
million electricity customers and 1.9 million natural gas customers 
through our four wholly owned utility subsidiaries (Public Service of 
Colorado, Northern States Power -Minnesota; Northern States Power-
Wisconsin; Southwestern Public Service).
    In Colorado, we are the largest investor owned utility with 
approximately 1.7M residential, commercial and industrial customers.
    In Colorado we have approximately 4000 miles of high voltage 
overhead electric transmission lines that serve large load centers, of 
which 760 are on U.S. Forest Service Lands. Statewide we have 
approximately 10,000 miles of distribution lines that serve primarily 
residential customers, of which 134 are on U.S. Forest Service lands.
    My remarks will focus on the ongoing efforts by Xcel Energy to 
maintain its electric transmission rights-of-way as required by the 
Colorado Public Utilities Commission and in compliance with federal 
regulators to better ensure the safe, reliable delivery of electricity 
while taking into consideration the Forest Service's efforts to ensure 
forest health--and the very real challenges both Xcel Energy and the 
Forest Service face every day in advancing these efforts. To put the 
utility issue in perspective it is important to understand that, 
although utility corridors make up less than one percent of acreage 
involved with the current mountain pine beetle epidemic in Colorado, 
the impact of one tree coming into contact with an electric line 
starting a fire, or a wildfire damaging or destroying high voltage 
transmission lines could have far reaching consequences for many 
residents of Colorado and perhaps other states.
Vegetation Management on Public Lands: Opportunities, Challenges And 
        Barriers
    We have long worked in partnership with the Forest Service to 
perform vegetation management around electric transmission and 
distribution facilities located on federal lands and more recently with 
collaborative groups like the Colorado Bark Beetle Cooperative (CBBC).
    Despite this, challenges remain on the relatively small footprint 
utility corridors make within the total acreage of the Forest. There 
are three main operational challenges, all with ties to overall forest 
health:
        1.  The North American Electric Reliability Corporation (NERC) 
        implemented the Vegetation Management Standard (FAC-003-1) in 
        2007 as a response to issues highlighted by the 2003 Northeast 
        Blackout, which was initiated by transmission lines sagging 
        into the tops of trees. This Standard generally sets a ``zero-
        tolerance'' for any tree related outages from trees located 
        within the existing right-of-way on lines >200kV. The most 
        practical and cost-effective way to meet both the letter and 
        spirit of this Standard is to remove all incompatible 
        vegetation from these rights-of-way and implement a long-term 
        integrated vegetation management approach to this work that is 
        environmentally responsible and sustainable. Xcel Energy has a 
        program designed to accomplish this task and hundreds of 
        thousands of incompatible trees have been removed from our 
        rights-of-way in all eight states in the past five years, on 
        both private and public lands. However, due to competing 
        federal mandates and inconsistent policies impacting national 
        lands, our progress on federal lands has been inconsistent, 
        ranging from complete removal of incompatible vegetation to 
        limited removal.
        2.  Beginning in 2008 the impact of unprecedented levels of 
        bark beetle activity left thousands of dead trees within 
        striking distance of our facilities. Xcel Energy has 
        successfully used emerging technologies such as LiDAR and near 
        infrared imagery to better manage this threat, both on and off 
        the right-of-way, removing approximately two-hundred thousand 
        hazard trees on both electric distribution and transmission 
        facilities in the past several years. We greatly appreciate the 
        assistance the Forest has been able to provide regarding this 
        issue to date. However, we are all frustrated by legal and 
        regulatory constraints that prevent us from performing this 
        work more efficiently, effectively and safely.
        3.  Bark beetle infestations have brought about an awareness of 
        the potential for radiant heat that can damage and destroy 
        transmission structures in the event of a wildfire and thus 
        highlights two needs from our perspective:
                a.  Reducing ground fuel load within 50-60 feet of wood 
                and aluminum structures and maintaining it below an 
                acceptable threshold.
                b.  Reducing the potential for damage to structures 
                from crowning fires by reducing crown closure on 
                portions of the forest adjacent to these structures.
        We note that the above measures are estimates and they cannot 
        guarantee that facilities will not be damaged by radiant heat 
        in the event of a fire.
        Of particular concern to us is that approximately 76 percent of 
        the structures located within the current mountain pine beetle 
        epidemic area are constructed of wood and aluminum. In 
        addition, we recognize that the threat of radiant heat damage 
        from wildfires may exist outside the epidemic area.
    Some transmission lines are more critical than others, with many 
providing electricity to hundreds of thousands of residential, 
commercial and industrial customers.
    In the event of a fire, transmission lines can be short-circuited 
by smoke. This is usually short-term problem. However, if a wildfire 
completely destroys structures, the loss of the lines ability to serve 
electricity can be long-term (i.e. out of service until the line is 
repaired or rebuilt). For example, during the 2002 Hayman fire Public 
Service Company lost one structure on a 230kV line near Cheeseman 
Reservoir. Because of the remote location, terrain and access 
restrictions it took about a week to replace this structure and get the 
line back in service. Losing multiple structures or more than one 
transmission line at the same time from fires could create even greater 
challenges to serve our customers.
    We are keenly aware that the challenges facing our company are 
occurring in the context of a much larger one the Forest Service faces 
with regard to forest health and fuels treatment work. We are most 
appreciative of the leadership shown by the Forest Service to address 
the situation and we also are very appreciative of the leadership shown 
in the Congress, both by the two committees represented here as well as 
Senator Udall and his tireless efforts on the matter of bark beetle 
infestation across Colorado.
    Indeed, but for the collective leadership of the Congress and the 
agency, the situation would no doubt be considerably more dire than it 
is today.
    In seeking to address the situation in the long term, it has become 
clear to us that existing federal laws are a significant barrier to 
enabling the Forest Service and utilities like us to work together in a 
comprehensive way to address two main challenges. First is the 
reduction of the ever present potential for hazard tree contact and 
wildfire damage risk to electric facilities throughout the state of 
Colorado. Second is the ability for utilities to efficiently and 
effectively ensure compliance with federal regulations.
    Here is why: we are issued permits to access the rights-of-way, for 
the purposes of maintaining our lines, including the sometimes limited 
removal of incompatible vegetation. In short, with the permits, we have 
the authority to manage those portions of Forest Service lands to some 
degree.
    However, the moment we step onto lands outside the rights-of-way, 
we face a significant legal challenge--the property is owned and 
managed by the Forest Service and the utilities are not the stewards of 
these lands. The challenge is that such lands are now impacting our 
infrastructure, which is critical to the health, safety and welfare of 
modern society. Although we do not have the legal control for these 
areas outside our permits, some have argued that utilities like ours 
should somehow be responsible for the conditions that were created by 
events wholly outside of our control.
    The challenge we face, however, as alluded to earlier, is that such 
a situation creates potentially significant liabilities for us and our 
customers--while at the same time limiting our ability to efficiently 
and effectively address potential threats. The result: we are not in 
complete control of our own destiny in terms of providing electricity 
service, yet we and our customers could well be punished for it through 
higher costs and lost electricity supply should a fire on public lands 
destroy or damage our lines.
    To be clear, we recognize that the Forest Service, too, is often 
limited to where, and how often, they can get to these areas due to a 
number of factors, not the least of which is limited resources.
    In sum, the laws and regulations governing forest management do not 
provide flexibility for the Forest Service and companies like ours--and 
our contractors--to effectively, efficiently and safely address forest 
health/fuels treatments in the areas immediately adjacent to our rights 
of ways and sometimes on the right-of-way (e.g. use of mechanized 
equipment which in some areas is welcomed and other areas shunned). The 
potential impacts of this are clear.
    For utilities, the Forest Service and collaborative groups like the 
CBBC there is a real intersection of protecting the public interest 
here.
    Because of that common interest, addressing this matter in such a 
way where we can access these areas in a swift but limited manner, 
without shouldering extensive liability, we believe should be a 
priority.
    Thank you Mr. Chairman for the chance to share our views. I would 
be happy to answer any questions.
                                 ______
                                 
    Mr. Bishop. Thank you.
    [Applause.]
    Mr. Bishop. We now turn to Mr. Dodd, who is with the Enviro 
Land Management from Whitewater, Colorado.
    You are still with us even though you don't have a name 
tag.

     STATEMENT OF DAVID DODD, ENVIRO LAND MANAGEMENT, LLC, 
                      WHITEWATER, COLORADO

    Mr. Dodd. OK. Thank you for the opportunity. Thank you, 
Chairman Bishop and McClintock and Representative Tipton. We 
really appreciate you being here. It is really a breath of 
fresh air to get someone on the same side that we have been on 
for the last 20 years.
    My name is David Dodd. We own DDI Equipment. We started in 
1978 in Steamboat Springs. We started out selling forestry 
equipment, and then we later moved to Grand Junction.
    In 2001, we seen that the forestry sawmills were closing 
and there was a real negative impact on the ability to obtain 
sawlogs from the Forest Service. So we started a company called 
Enviro Land Management, and that company was designed to go in 
and service. At the time, we thought because of the lack of 
management on the U.S. Forest Service ground, that there was 
going to be an opportunity to go in and actually be paid to 
work and service, which we are right now, the thinnings and the 
removal of product.
    So at this point in time, we have about 15 full-time 
employees, and then we have, maybe in peak season, which we are 
approaching now, we might have 25. We have a modest fleet of 
equipment with fellers, bunchers, forwarders, log trucks and 
chip trucks.
    Right now we also have four current contracts with the 
Forest Service. We are just closing in on finishing a 3,000-
acre fuels mitigation project in Arizona. Then we have a 
project at Vail and Summit County and Steamboat Springs.
    These types of projects are expensive for the Forest 
Service and for landowners, which is part of what we do is do 
mitigation for private, which we used to do probably 50 
percent. Now it is down to 10 percent because of the economy. 
So 90 percent of what we do is government agencies.
    The logs that you are seeing this morning on our truck out 
there was what we called POL, product other than lumber. A big 
portion of the forest that we do treat is not exactly sawlogs. 
That came off a project which is 100 acres in Summit County, 
and all of those logs coming off of that project are what we 
call POL, product other than lumber, or product that is real 
difficult to find a place to do something with, like Mr. Ford 
mentioned, that is a good place to go.
    In our opinion, the sawmill here in Montrose and the 
opportunity in Saratoga is huge because there are not a lot of 
places to take timber, even in a multi-state region, right now.
    We provide about 200 to 300 loads of logs to Montrose a 
year, which is a small percentage of what the total needs are, 
but it is very important to us to have that opportunity. It 
also helps reciprocal when we go to bid jobs, that we know we 
are going to have some money to help pay for that project with 
better sawlogs.
    Although most of our projects we have to remove the POL as 
well as the sawlogs, so it actually becomes sort of a liability 
to us unless we can find a place to take that material. A 
couple of years ago we were doing a job in Eagle and we had--it 
was a private landowner, and he was very meticulous and wanted 
everything off of the ground, and we had to take 100 loads. We 
had to chip all the logs with the undesirable material, the 
slash and undesirable logs, and we took 100 loads to the dump 
in Eagle County and had to pay them to take the loads.
    So there is a big opportunity that we could use to do 
something with that material, although the real tough part 
about any of that, with the mill and the POL, is that people 
that want to make an investment have to have assured that they 
are going to be able to have a sustainable supply of timber.
    We did have an OSB mill, an OSB plant--that is oriental 
strand board--in Olathe, and that went by the wayside around 
2004 or 2005. Those places are exactly what we need in this 
area to handle a big volume of material. We looked at what is 
going on in Arizona right now, which was brought up earlier. 
They are allegedly--it is pretty out there for public 
information, but they have a $300 million contract to deal with 
cleaning up the forest, which is 30,000 to 50,000 acres a year, 
and it is my understanding that they are negotiating with an 
OSB plant right now to facilitate that.
    Anytime you talk about a 10-year stewardship or long 
stewardships, in our opinion, you had to have--I am color 
blind, by the way, so if I go over--you have to have a place to 
go with material. We looked at 10-year stewardship contracts 
and we declined to try to bid on those because you had to put a 
lot of time and effort into trying to find some place to deal 
with that material, just like Arizona. They have a 10-year huge 
contact, but you have to have a plan. And to take a plan, 
somebody on Wall Street or any bank, anybody else, is that, OK, 
show me how you are going to pay back the money. And, oh, by 
the way, the Forest Service could cancel the clause because 
they could have an appeal from an environmental appeal that 
could stop the project. So it is not the Forest Service's 
fault.
    Wrap it up?
    Mr. Bishop. I need you to finish, yes.
    Mr. Dodd. OK. Again, thank you for the opportunity, and we 
really appreciate you guys' interest in helping us.
    [The prepared statement of Mr. Dodd follows:]

          Statement of David Dodd, Enviro Land Management, LLC

    Thank you Chairman Bishop, Chairman McClintock, and Representative 
Tipton for your interest in national forest management and the 
opportunity for me to testify this morning.
    My name is David Dodd. We have owned and operated DDI Equipment in 
Grand Junction since 1979. We specialize in sales and service of forest 
vegetation management equipment, and we have worked with dozen of 
sawmills, loggers, and forestry contractors throughout Colorado, New 
Mexico, Arizona, and South Dakota. We also own a company called Enviro 
Land Management LLC (ELM) located in Whitewater, Colorado, just south 
of Grand Junction. ELM was started in 2001 to offer services in 
forestry and fuels mitigation. We are considered the pioneers of the 
industry and have a modest fleet of equipment, including feller 
bunchers, skidders, forwarders, wood grinders, log trucks, and chip 
trucks. We normally employ 15 people with up to 25 during our peak 
season.
    We have 4 current projects with the U.S. Forest Service--a 3,000 
acre fuels mitigation project that we are just completing near 
Prescott, AZ, and three roadside hazard tree removal projects in Summit 
County, and near Steamboat Springs and Vail, CO. We have a very good 
rapport with the U.S. Forest Service and the Colorado State Forest 
Service, and we enjoy working with both.
    These types of projects are very expensive to the landowner, in 
some cases private landowners but most often the U.S. Forest Service. 
As long as there are adequate markets, forestry projects that include 
trees meeting sawlog standards makes a tremendous difference in the 
project economics, either reducing the cost to the landowner or 
allowing more acres to be treated.
    In our opinion, the industry's largest challenge is markets for 
forest products. The Montrose sawmill (Intermountain Resources) is the 
best option for sawlogs. Our company delivers 200 to 300 loads per year 
to Intermountain Resources, which is a small percentage compared to the 
mill's total needs, but critical to our business and the economics of 
the projects we work on. The sawmill is a critical part of the ELM 
business plan as we work on projects from government agencies and 
private individuals.
    These projects also require us to remove products other than logs 
(POL). With better markets, POL could be a great resource, but now it 
is a great liability. Depending on the contract, we have to remove down 
to a 3'' top, and lop and scatter or pile for burning the 
unmerchantable slash, limbs, tops, and cull material. A biomass co-
generation power plant is in the planning stages near Gypsum, CO, and 
that could be a tremendous outlet for the slash and unmerchantable 
small material. One of their biggest issues is the need for an assured 
supply of raw materials at the right price.
    Our goal now is to do everything we can do to help Intermountain 
Resources survive, for the health of our business and for other logging 
and forestry contractors who depend on that mill. We continue to 
provide equipment, parts and service to a number of other contractors, 
and those jobs are critical both for the work they accomplish in the 
woods and for the jobs and economic benefits to local communities in 
western Colorado.
    In Arizona, we believe the best option for small diameter trees is 
an oriented strand board (OSB) plant. That is under consideration in 
Arizona as we speak. The biggest challenge has been, and will be, a 
sustainable supply of raw materials, and whether the Forest Service can 
offer a predictable, sustainable supply, especially with the constant 
threat of appeals and litigation.
    I understand the challenges with the federal budget, but in the 
long-run, it makes a lot more sense to do proactive work in our forests 
to reduce the potential for catastrophic fires and beetle epidemics, 
while simultaneously providing jobs and economic benefits in our local 
communities.
    In closing, I want to thank you for the privilege of testifying 
here today. Managing the national forests is complex and I appreciate 
you taking the time to hold this hearing to learn more about the issues 
and potential solutions. Our company is committed to sustainable forest 
management, jobs, families and communities. I would be delighted to 
work with you and your staffs in finding solutions to the issues 
discussed here today.
                                 ______
                                 
    Mr. Bishop. Thank you. That is my fault for not watching, 
either. But I have never heard the color blind excuse used 
before.
    [Laughter.]
    Mr. Bishop. That is good, that is good.
    Our final speaker, our final witness, last but not least, 
is Mr. Gary Wilkinson, who is the President of the San Juan 
Trail Riders Association in Durango.
    Mr. Wilkinson.

STATEMENT OF GARY WILKINSON, SAN JUAN TRAIL RIDERS ASSOCIATION, 
                       DURANGO, COLORADO

    Mr. Wilkinson. Thank you, Chairmen McClintock and Bishop, 
and Congressman Tipton, for providing me the opportunity to 
testify at today's field hearing.
    My name is Gary Wilkinson. I have been involved in the 
motorsports industry for almost 45 years. I co-owned and 
managed Handlebar Cycle, a motorsports business, for 27 of 
those years. My business grew from a small operation to one 
that supported 10 families.
    I am a native of Colorado and have lived in Durango since 
1963. I am the second of four generations of the Wilkinson 
family who have had the privilege to enjoy OHV recreation on 
the public lands in Colorado. I am the president of San Juan 
Trail Riders, which is a 400-plus member organization dedicated 
to promoting responsible OHV recreation, and I currently serve 
on the Colorado State Parks OHV Subcommittee.
    Colorado offers unique opportunities for motorized 
recreation throughout much of the state. The sport and the 
industry have enjoyed an increase in popularity by both 
residents and non-residents. Off-highway vehicle and 
snowmobile-based recreation contributes to the state's economy 
via the purchase of vehicles, expenditures incurred while on 
recreational trips, maintenance of vehicles, purchasing 
accessories, and other expenditures that support their 
activities.
    A recent study conducted by the Lewis Berger Group gives us 
the best available data. According to that study, motorized 
recreation enthusiasts were estimated to have generated in 
excess of $1 billion in direct gross sales during the study 
period. Motorized recreation in Colorado is directly or 
indirectly responsible for over 12,000 jobs and $370 million in 
labor income and $107 million in indirect business taxes.
    My family, and the local OHV groups that I have been 
involved with, have been active partners with the U.S. Forest 
Service for decades. We maintain trails and encourage a ``stay 
the trail'' ethic. It is important to note that the OHV 
community in Colorado has fully supported the 2005 policy 
limiting us to designated routes.
    The 2005 Travel Rule was originally promulgated to address 
unmanaged OHV use. Instead, the agency has used the rule to 
make landscape-level changes to the existing road and trail 
infrastructure. This is in addition to a steady stream of 
legislation, litigation, and other agency initiatives over the 
last three decades that has closed thousands of miles of roads 
and trails and eliminated tens of thousands of acres of 
snowmobile opportunities. Conversely, many millions of acres 
have been set aside for the exclusive use of non-motorized 
visitors.
    Recently, several travel plans completed by the San Juan 
National Forest have followed a very distressing pattern. 
First, through the process to eliminate cross-country travel, 
the agency closes a significant percentage of the existing OHV 
opportunity. Once final, the environmental community steps in 
and seeks to close even more via litigation such as in the case 
in the Rico/West Dolores area, where a lawsuit threatens to 
close 14 different trails that I personally have ridden for 
more than 40 years. Lawsuits, in my opinion, don't protect the 
environment. This sort of litigation is part of the problem 
with public lands management today.
    The problem isn't limited to United States Forest Service 
lands. Proposed BLM LRMP's for the Colorado Valley and 
Kremmling offices proposes closing 40 and 60 percent of the 
trails in those respective offices. They assert somehow that 
there will be zero economic impacts from these closures, which 
I find illogical.
    The motorized community is deeply committed to improve the 
recreational experience for all public land users and to 
protect our natural resources. Colorado's OHV registration 
program brings in around $4 million a year. These funds are 
made available to address a variety of land use issues and 
further demonstrate our commitment.
    Numerous studies, including one on wilderness prepared for 
Congress by Utah Representative Bill Orton, state that most 
citizens, including the elderly, children, most handicapped, 
and the poor, are almost entirely excluded from use and 
enjoyment of Federally managed lands by limiting vehicle access 
and facilities. A 2001 BLM study shows that a major reason for 
the increase in popularity of OHV use is an aging population 
who find OHV recreation an enjoyable way to visit public lands.
    I do support managing some areas as primitive where 
vehicles are not allowed. However, Colorado has a plethora of 
areas that are set aside for the exclusive use of people who 
prefer non-motorized recreation. Those of us who prefer or 
because of limitations are required to use vehicles for access 
and recreation are being squeezed into smaller and smaller 
areas with each passing year.
    According to a presentation U.S. Forest Service officials 
recently submitted, the total agency-wide acreage affected by 
the beetle kill since the outbreak began in 1996 is 41.7 
million acres. You have heard that here today. Specifically in 
Region 2, some 10.7 million acres have been affected. Here in 
Colorado, the agency estimates some 6.6 million acres are 
affected. Over the next 10 years, they estimate that an average 
of 100,000 trees will fall daily as a result of the bark beetle 
epidemic. Beetle-killed trees now threaten thousands of miles 
of roads, trails and developed recreation sites. Our 
communities are also at risk as, in addition, beetle-killed 
forests now threaten essential water supplies and an estimated 
550 miles of transmission and distribution power lines.
    Mr. Bishop. Mr. Wilkinson, I need you to sum up now.
    Mr. Wilkinson. OK. While many in the U.S. Forest Service 
seem to acknowledge the problem, an overburdened regulatory 
system delays any real action. When, in the rare circumstance, 
the agency does complete the necessary analysis, the litigious 
environmental groups step in. These well-funded and 
philosophically driven groups seem to oppose even modest fuel 
reduction programs. These problems need solutions.
    I believe that it is imperative that you become more 
involved in the processes which will ultimately determine the 
health and well-being of our public lands, while ensuring that 
they are fairly managed for all users. I am convinced that for 
us to have sustainable forests, we must demand that the 
decisions made by our public land managers be based on proven 
science, not ideology and perception.
    Thank you for your time.
    [The prepared statement of Mr. Wilkinson follows:]

                Statement of Gary Wilkinson, President, 
          San Juan Trail Riders Association, Durango, Colorado

    Thank you Chairmen McClintock and Bishop for providing me the 
opportunity to testify at today's field hearing.
    My name is Gary Wilkinson I have been involved in the motorsports 
industry for almost forty five years. I co-owned and managed Handlebar 
Cycle from 1980 to 2007. Handlebar Cycle grew from a more or less mom 
and pop operation to a business that supported 10 families when I sold 
the business in 2007. I am currently employed at Handlebar Motorsports 
where I am the general manager.
    I am a native of Colorado and I have lived in Durango since 1963. I 
am the second of four generations of the Wilkinson family who have had 
the privilege to enjoy OHV recreation on the public lands in Colorado. 
I am the president of San Juan Trail Riders which is a 400 plus member 
organization dedicated to promoting responsible OHV recreation and I 
currently serve on the Colorado State Parks OHV Subcommittee. I also 
hike, mountain bike, and in past years have enjoyed hunting and fishing 
in ``Colorful Colorado.''
Economic importance of Off Highway Vehicle and snowmobile recreation
    Colorado offers unique opportunities for motorized recreation 
throughout much of the state. This is mainly due to the vast amount of 
appropriate terrain for off-highway motorized recreation. As such, the 
sport and industry of motorized recreation has enjoyed an increase in 
popularity in the state by both residents and non-residents. Off 
Highway Vehicle (OHV) and Snowmobile based recreation contributes to 
the State's economy via the purchase of vehicles, making expenditures 
while on recreational activity trips (day and overnight), spending 
money to operate and maintain vehicles, purchasing other accessories 
needed while riding (clothes, safety equipment), and making other 
expenditures for items that support their activities (food and fuel, 
etc.).
    While most tourism and recreation economic impact studies under-
represent the impact of OHV and Snowmobile recreation, the most recent 
(2009) study by the Colorado Off Highway Vehicle Coalition, conducted 
by the Louis Berger Group,gives us the best data to date. According to 
that study, which surveyed the economic activity in the 2007-08 season, 
motorized recreation enthusiasts were estimated to have generated over 
$784 million in total direct gross sales for motorized recreation 
throughout the year. This direct spending generated an additional $243 
million in downstream gross sales due to additional economic activity. 
Motorized recreation in Colorado is directly or indirectly responsible 
for over 12,000 jobs and $370 million in labor income and $107 million 
in Indirect Business Taxes.
Decades of road, trail and snowmobile closures--a critical mass has 
        been reached
    My family, and the local OHV groups that I have been involved with, 
have been active partners with the USFS for decades. We've been 
involved in maintaining trails and encouraging a ``Stay the Trail'' 
ethic--even when the USFS allowed us to go anywhere, anytime! It is 
important to note that the OHV community in Colorado has fully 
supported the 2005 policy limiting us to designated routes.
    Sadly, it has not worked out as advertized. The 2005 Travel Rule 
was originally promulgated to address ``un-managed'' OHV use. Instead, 
the agency has used the rule to make landscape level changes to the 
existing road and trail infrastructure. This is in addition to a steady 
stream of legislation, litigation and other agency initiatives that, 
over the last 3 decades, has closed thousands of miles of roads and 
trails and tens of thousands of acres of snowmobile areas. Conversely, 
many millions of acres have been set aside for the exclusive use of non 
motorized visitors.
    Recently, several travel plans completed by the San Juan National 
Forest have followed a very distressing pattern. First, through the 
process to eliminate cross country travel the agency closes a 
significant percentage of existing OHV opportunity. Once final, the 
environmental community steps in and seeks to close even more via 
litigation such is the case in the Rico/West Dolores area where a law 
suit threatens to close 14 different trails that I personally have 
ridden for more than thirty years. The problem isn't limited to USFS 
lands. Proposed Bureau of Land Management, LRMP's for the Colorado 
Valley and Kremmling offices proposes closing 40 and 60% of trails in 
those respective offices. They assert somehow, that there will be zero 
economic impacts from these closures. These are just horrible plans 
which will result in huge negative impacts to those communities
    This sort of litigation is part of the problem with public lands 
management today. When planning doesn't go exactly the way someone or a 
group prefers they can easily mangle the process via lawsuits. The 
motorized community is deeply committed to improve the recreation 
experience for both motorized and non motorized users. We work with our 
public land managers and stake holders to improve trail opportunities 
and protect our natural resources. We have a strong OHV registration 
program which brings to the table more than 4 million dollars each 
year. This money is made available in the way of grants. These grants 
fund all aspects of trail maintenance. It is too bad that the 
environmental groups won't work with the motorized community to provide 
trails for all users instead of filing frivolous lawsuits. Lawsuits 
don't protect the environment. Working cooperatively with trail users 
will.
Regulations that limit access harms the elderly and disabled
    According to numerous studies, including a comprehensive study on 
Wilderness prepared for Congress by Utah Representative Bill Orton,, 
most citizens including the elderly, children, most handicapped, and 
the poor are almost entirely excluded from use and enjoyment of 
federally managed lands by limiting vehicle access and facilities. The 
Bureau of Land Management's National Management Strategy for Motorized 
Off-Highway Vehicle Use on Public Lands shows that a major reason for 
the increase in popularity of OHV use is an aging population who find 
OHV recreation a enjoyable way to visit public lands. And, if I may 
speak for my family, I would implore the Subcommittee to recognize 
that, without vehicle access, my family is essentially locked out of 
vast areas of Colorado's public lands.
    I will not say that I do not support managing some areas as 
``primitive,'' where vehicles are not allowed. In fact, I have 
supported this type of management where it is appropriate. However, 
Colorado has a plethora of areas that are set aside for the exclusive 
use of people who prefer non-motorized recreation. Those of us who 
prefer, or are required to use vehicles for access and recreation are 
being squeezed into smaller and smaller areas. Each year, more and more 
of Colorado's scenic backcountry is available to those healthy enough 
to hike long distances.
Lack of effective response to the Bark Beetle outbreak questions the 
        ability of the agency to properly manage its lands
    According to a presentation our local USFS officials gave to the 
OHV community, the CITE HERE the total agency wide acreage affected by 
bark beetle (all beetles) since outbreak began in 1996 is 41.7 million 
acres. In Region 2 (Colorado, Wyoming, South Dakota, Nebraska), some 
10.7 million acres have been affected by bark beetle (all beetles) 
since outbreak began. Here in Colorado the agency estimates some 6.6 
million acres are affected. The agency estimates that over the next 10 
years, an average of 100,000 trees will fall daily as a result of the 
bark beetle epidemic.
    Visitors to USFS lands are affected not only by the visual impacts. 
Falling trees pose serious risk to human life and the infrastructure 
our rural communities rely on. Dead trees across the state have created 
heavy fuel loading which can result in intense, so-called ``fatal 
wildfires.'' Beetle-killed trees now threaten thousands of miles of 
roads, trails and developed recreation sites. Our communities are also 
at risk. Beetle-killed forests now threaten essential water supplies 
and an estimated 550 miles of transmission and distribution power 
lines.
    It is worthwhile to note the agency's own review of the Bark Beetle 
Outbreak in Northern Colorado and Southern Wyoming identifies 
Wilderness and Roadless as a contributing factor to the out-break and 
as a limiting factor as to how the agency can respond. Only a tiny 
fraction (less than 15%) of beetle-killed areas are open to any sort of 
active management to address the situation. This is because budgetary 
and regulatory limitations--such as prohibitions on entering roadless 
areas and designated wilderness areas preclude those efforts. And yet, 
Colorado's new Roadless Rule increased ``upper tier'' roadless areas to 
1.4 million acres from the previous 550,000acres.
    To recreationists, this problem needs a solution. While many in the 
USFS seem to acknowledge the problem, an overburdened regulatory system 
delays any real action on the ground. When, in the rare circumstance, 
the agency does complete the necessary ``analysis,'' the litigious 
environmental groups step in. These well funded and philosophically 
driven groups seem to oppose even modest fuel reduction programs. Often 
they oppose any and all efforts to remove excessive fuel loads.
    In closing while I don't claim to be an expert in forest health I 
am convinced that for us to have sustainable forests we must demand 
that the decisions that are made by our public land managers be made 
based on proven science not ideology or probability.
                                 ______
                                 
    Mr. Bishop. Thank you.
    [Applause.]
    Mr. Bishop. To all of those who have come distances to 
provide information and testimony here, we thank you very much 
for your testimony. Your written testimony will obviously 
always be included in the record, as well as the oral 
testimony, your answers to questions here as well.
    Once again, we appreciate the input you have in here. I 
want you also to know that if there may be--just so you keep 
this in mind--additional questions for witnesses, we will ask 
you to respond to them in writing if we don't have enough time 
to go through this here.
    We have a time when we must end this meeting, so I want to 
make sure that Mr. Tipton gets the opportunity first to have 
his questions asked and answered. We will go through several of 
those potential rounds. So I will turn to him for 5 minutes to 
ask some questions.
    Representative Tipton.
    Mr. Tipton. Thank you, Mr. Chairman. Did I mention I am 
color blind?
    [Laughter.]
    Mr. Tipton. I would like to, with unanimous consent, submit 
for the record a statement by Mr. Bruce Ward, who is the 
Founder of Choose Outdoors and the White House Champion of 
Change for Rural Colorado.
    Mr. Bishop. No objection.
    [The prepared statement of Mr. Ward submitted by Mr. Tipton 
follows:]

          Statement of Bruce Ward, Founder of Choose Outdoors 
         and a White House Champion of Change for Rural America

    The smoke is gone, but the fear remains. We have lived in Denver's 
``wildland urban interface'' for decades because of our love of 
Colorado's beauty, but now the yearly ``fire watch'' causes us pause as 
we hold our breath hoping the forest around us doesn't burn. The most 
recent fire--the Lower North Fork -claimed at least three human lives, 
27 homes, over 4,200 acres
    The obvious question; Who is to blame? We should also ask--why are 
we suffering such fire catastrophes? Is this the truth behind Smokey 
The Bear's accusation--``only YOU can prevent Forest Fires!''
    The Good News? We reduce or prevent future fires by promoting 
forest health. The Bad News? We may have to give up the easy answers of 
either blaming one person for ``setting'' each fire, and that there is 
nothing we can do to prevent these fires. Understanding the cause and 
addressing it gives us the ability to stop tragic fires.
    We need to stop thinking that trees live forever; like all living 
things they have finite life spans. This radical idea of recognizing 
the cycle of life means forest health is contingent on new trees. This 
requires us to challenge our belief that cutting trees is not 
``environmental'' or ``green''. The old ethos of ``Let nature take its 
course,'' and ``in 500 years the earth will have healed itself'' must 
be seen as flawed.
    The problem has roots from when the West was being settled and 
clear cutting was considered expedient and necessary. We were more 
focused on creating a civilized west. The unintended consequence of 
endless fire suppression is now manifesting itself. Native Americans 
commonly set fires every Spring knowing it kept the trees and animals 
within stronger and saw fire as a tool used extensively prior to the 
white man's encroachment and restrictions.
    The documented excesses of tree harvesting without environmental 
limits in the 19th and 20th Centuries created a culture that reacted by 
believing that cutting any tree was sacrilege, using products made from 
trees wasteful and uneducated. Tree Killers should feel guilty about 
their role in hastening the destruction of our planet.
    We know many trees in nature would have life spans not much longer 
than the longest living human--yet we protect geriatric trees whose 
very nature is turning them toward fire and replacement. We can see the 
effects all around us as nature pushes to return to a balance allowing 
new trees to replace the old, the time has come to dispel that well 
intentioned but wrong environmentalist mantra that forbids ``killing 
trees'' and realize that interfering with nature is what creates the 
problem. Now is the time to embrace a new environmentalist culture that 
embraces planting new trees, that enjoys wood products from local 
sources because they come from renewable resources, provide jobs to 
rural economies, and most importantly bring our environment back into 
balance.
    Undersecretary of Agriculture Harris Sherman asked for my help to 
increase the awareness of the mountain pine beetle epidemic and engage 
the private sector solutions to deal with millions of acres of pine 
trees dying and turning brown--our own potential ``Katrina of the 
West''. I reached out to stakeholders who shared their views that on 
the complexity and unprecedented magnitude of the epidemic.
    I found caring citizens who were using ``Rocky Mountain Blue 
Stain'' wood; a community of environmentalists, lumberman, builders, 
lumber yards, pellet mills, furniture makers working together to take 
our blue wood and turn it into products that would help the forest 
heal. But even these efforts struggle against the mistaken belief that 
using wood is somehow bad.
    The time is now to change decades of outmoded public perception 
that the only good forestry goal is to let our forests age, and how 
sustainable forestry is married to utilizing wood products in order to 
plant and grow new trees.
                                 ______
                                 
    Mr. Tipton. With regards to a statement that he had made 
that the beetle infestation is potentially the Katrina of the 
West. And with unanimous consent, I would like to submit that 
for the record.
    Mr. Bishop. It is already in.
    Mr. Tipton. This question I think I would like to have for 
all of our panelists, and it is pretty simple and 
straightforward. Just a yes or no I think will probably 
suffice.
    Do you think that the bark beetle infestation, the threat 
of forest fire here for the West, is an emergency?
    I will start with Ms. Fishering.
    Ms. Fishering. Yes.
    Mr. Ford. Yes.
    Mr. Georg. Yes.
    Mr. Jiron. Yes, qualified.
    Ms. Robertson. Yes.
    Mr. Shoemaker. Yes.
    Mr. Downie. No question.
    Mr. Tipton. No question.
    I think that is. It has been interesting listening to some 
of the testimony, that we all recognize that this is a genuine 
threat.
    Mr. Jiron, you and I were just down in Chimney Rock, had 
the opportunity to be able to tour, and noted how healthy the 
forests are. Your forest rangers pointed out to me the spacing 
between the trees, said this is a healthy forest.
    I would like to go ahead and ask, what are some of the 
inhibitions that we are seeing--and, Mr. Jiron, I might start 
with you--that are inhibiting the Forest Service from 
fulfilling that mission of creating healthy forests?
    Mr. Jiron. Our desire, like everyone has spoken here, is to 
always do more. We have been able to increase the amount of 
timber output and coming up with new ways of doing business. We 
are looking at a series of stewardship contracts, including 
that area around Chimney Rock, which would help. We are also 
looking at continuing our work in green timber sale contracts.
    Mr. Tipton. Are you seeing regulatory and legal concerns 
that are inhibiting you as well? When we hear Mr. Downie speak 
about conflicting regulations between FERC and the Forest 
Service management as well?
    Mr. Jiron. We are always concerned about those challenges 
when they come up. Our job at the end is to make sure that we 
are implementing the laws and policies that Congress passes, 
and then----
    Mr. Tipton. So there are those challenges?
    Mr. Jiron. We do have challenges. But when we do find 
those, we are always looking ourselves what else can we do 
within our current authorities to be more efficient. I 
mentioned just very briefly in my comments on the Black Hills, 
for example, we have been able to try some very effective NEPA 
efficiencies on the Black Hills, working with collaborative 
groups, working with citizens in South Dakota, and it has been 
effective.
    So we do have those challenges. We look forward to always 
looking at ways to resolve them.
    Mr. Tipton. As you all know, the commercial viability of 
our timber projects, and by extension the ability of the Forest 
Service to be able to partner with private industry to address 
the bark beetle epidemic on an effective scale, depends in 
large part in terms of the timber industry contacts.
    Mr. Ford, in your testimony you mentioned the need for 15- 
to 25-year stewardship contracts rather than the current 
maximum of 10 years. Why is that timeframe necessary, and what 
other aspects of timber contracts would be helpful to properly 
merge the market needs of the timber industry with the safety 
and forest health that the public needs?
    Mr. Ford. Well, the length of time is important for the 
amount of investment dollars that have to be put up. You can't 
ask a private enterprise to come forward with, as in our case, 
$22 million and then limit the time amount that you are going 
to give a supply. It is pretty simple. If you want to go to 
your bank, you want to go to your investors with any kind of 
business plan, you are going to have to have a timeline in 
which you can pay back the investment, and 10 years is not 
adequate for the size of the projects that we are looking at.
    Another problem that we have come up against is that there 
seems to be a misconception of the value of timber in that 12, 
13 inches and smaller, and I don't care if it is ponderosa pine 
or lodgepole pine or others. There seems to be too much of a 
value put on that, when it is a product actually that we are 
all looking for ways to dispose of. I think we are going to 
have to bring the products other than logs up to a higher 
amount, and that is what is going to have to get paid for in a 
service contract, and then industry will pay by the ton, or 
however you sell it, the products that are larger than that.
    Mr. Tipton. Thank you for that.
    Ms. Fishering, could you maybe speak--we are running short 
here on time, but which laws and some of the regulations and 
inconsistencies are still holding back progress?
    Ms. Fishering. I would still say you spoke to or we heard 
about the efficiencies that we are trying to get to. There has 
been a new report called ``Increasing the Pace and Scale of 
Restoration.'' The problem with me is it doesn't go fast 
enough, it is still not big enough. Saw timber has to be a 
bigger component of it, or it is not cost effective. You heard 
us numerous times today say there is not a good enough supply. 
As Mr. Jiron mentioned, we have 91 million board feet that 
should be put on the market this year.
    The reason I say that, when you put it in context, you open 
a mill in Saratoga and you get Intermountain and Montrose 
operating at full capacity, those two alone could use the 90 
million board feet. What happens to every other single supplier 
like the biomass users that are trying to grow their industry? 
What are you going to do with the little mills in the rest of 
the state? You have Delta Timber right down the street. That is 
another 9 million board feet need per year. We are not going to 
be there, and you are sitting there with tons of problems.
    You need a bigger capacity industry, do more merchantable 
trees per acre, and you have a recipe that you might get past 
some of the laws, and the speed. South Dakota is a great 
example. It is going to take 18 months to do that environmental 
impact statement. It is going to give them great new authority, 
such as doing adaptive management. We look forward to it. We 
are working with the Forest Service. But those are laws making 
it take 18 months. The bugs move faster than 18 months.
    So we do need some efficiencies and speed.
    [Laughter.]
    [Applause.]
    Mr. Tipton. Thank you, Mr. Chairman. I yield back.
    Mr. Bishop. OK. We will come back with another round for 
you.
    Mr. McClintock, do you have some questions for our 
witnesses?
    Mr. McClintock. Thank you, Mr. Chairman.
    Mr. Dodd, it used to be that lumber companies would bid for 
timber on Federal lands. They would pay the Federal Treasury to 
purchase that Federal timber. Now it seems the Federal 
Government has to pay you to remove timber from the public 
lands. How is it that tending our forests has gone from a 
profit-making venture that relieves Federal taxpayers of their 
burdens to a costly one that actually burdens those same 
taxpayers?
    Mr. Dodd. In the late '90s, in the mid '90s, the Forest 
Service would put up timber sales, and when they would do that, 
they were subject to appeals. And basically, in my industry, a 
lot of the people thought, well, this is the Forest Service's 
fault because they won't put up enough sales.
    I guess in my logic I was thinking, well, why should they 
put up sales when they are only going to be appealed, and the 
only one you are putting money into is the environmentalists' 
pocketbooks and the lawyers of the environmentalists? So why 
put up the sale when it was going to be appealed and it wasn't 
going to do anything anyway? So that was the biggest problem.
    Then the mills wanted a sustainable supply. I know LP, 
Louisiana Pacific, had the OSB plant here, and they did about 
60 million a year in board feet, and they said that they wanted 
to stay but they had to have that guarantee. There is no way 
the Federal Government could give that guarantee when a Federal 
judge at any point in time, like Judge Mickey in the mid '90s, 
did that to Arizona and New Mexico.
    Mr. McClintock. And since this has occurred, how has the 
health of our forests trended?
    Mr. Dodd. It went way downhill. I mean, right now we have 
such a problem that it is not just a matter of when; it is 
going to happen anytime. In fact, we predicted this was going 
to happen. One of the things that really spurred our interest 
was in '99 we had a 20,000-acre blowdown in Steamboat Springs, 
tons and tons of timber up there, and we had mills in Saratoga 
and Montrose, and they only put up about 1 percent of that. A 
lot of people think that is what precipitated the beetle 
outbreak because the trees, when they are dying, put out the 
pheromones, and then it just multiplied from there.
    Mr. McClintock. So what has happened to our forests and 
what has happened to our forest economy is not because we have 
been struck down by some mysterious act of God. These are all 
acts of government, are they not?
    Mr. Dodd. Absolutely.
    [Applause.]
    Mr. McClintock. And I guess the good news is that acts of 
government actually are within our power as a people to change 
if we summon the political will to do so. Is that your sense of 
it?
    Mr. Dodd. Absolutely. Only in America will you have the 
government that pays, that actually gives grant money to 
environmental groups, and these same environmental groups sue 
the government.
    [Applause.]
    Mr. McClintock. And I want to point out, that is exactly 
the kind of nonsense that needs to come to a screeching halt.
    [Applause.]
    Mr. McClintock. And frankly, I would challenge the 
Republican majority in the House to bring that to a halt.
    [Applause.]
    Mr. McClintock. You can't blame the Senate or the President 
for that. All appropriations originate in the House. It doesn't 
get spent unless we say it gets spent, and perhaps we need to 
be held accountable for the damage that is being done by these 
grants of taxpayer money to groups that are in direct 
opposition to the interest of the taxpayers.
    [Applause.]
    Mr. McClintock. Mr. Jiron, you have mentioned that while we 
have increased our yield of board feet from 189 million board 
feet to 193 million board feet, that sounds very impressive 
until we look at the written testimony that Ms. Fishering has 
provided us, which shows a catastrophic decline in timber 
harvest measured from the 1970s or '80s, so let me put this to 
you directly.
    You have submitted this as a great achievement, going from 
189 million board feet to 193 million board feet. How does that 
compare with what we were harvesting in the 1970s and '80s?
    Mr. Jiron. Thank you, sir, for the question. I am not sure 
that I am submitting it as a great achievement, rather progress 
forward from working within authorities that Congress has given 
us, like long-term stewardship contracts, collaboration. 
Certainly, conditions have changed since the 1970s, but we are 
using the authorities that we do have to try to increase it. We 
recognize the economic conditions. We have done things like 
cancellation of contracts to help operators.
    Mr. McClintock. But the point I want to emphasize is this 
is not some great step forward. It is not even an incremental 
step forward compared with the catastrophic decline in timber 
sales that has occurred over the past 20 years.
    Thank you.
    Mr. Bishop. OK. To our friends here, this is actually an 
official hearing. I realize you have a great deal of passion. 
We are also on a time limit. If you approve of what we say, it 
cuts into the amount of time we can ask questions. So please 
don't like anything we say.
    [Laughter.]
    Mr. Bishop. Don't dislike anything we say, either.
    [Laughter.]
    Mr. Bishop. We would appreciate it if you would maintain 
that decorum.
    Before I ask any other questions, I am going to yield to 
Mr. Tipton for a second round.
    Mr. Tipton. Thank you, Mr. Chairman. I would like to follow 
up a little bit.
    As we went down the line, every person noted that we have a 
bark beetle infestation challenge, an emergency literally in 
this state; the threat of fire, the threat that that is going 
to have literally on our environment, the threat that it is 
going to be having on our businesses.
    Ms. Robertson, glad to hear about the collaborative 
processes that you have been able to work through.
    I would like, though, to ask Mr. Ford, because part of the 
solution is common sense, win-win situations where we can get 
in and harvest some of this timber to be able to make the 
treatments, and also create jobs, and also create energy, 
perhaps, for this country.
    So, Mr. Ford, can your business model, the biomass plant 
that you are proposing down in Pagosa Springs, is this a model 
that can be replicated elsewhere?
    Mr. Ford. We tried hard to make this a model that can be 
wrapped around a 50-mile radius of any small community that 
would like to see the forest come to a healthy standard around 
there. It would be easy to reproduce. You could reproduce it in 
areas that already have an existing timber saw timber market. 
You wouldn't have to have a small mill at that point, or if you 
need to add that component to it, you also could do that.
    The 50-mile radius is also key because for the small coops 
that are in these mountain states, that is about the max they 
want to buy power in the chunks that they are from us. So the 
5-megawatt, the 50-mile radius is all key numbers.
    Mr. Tipton. OK. Thank you for that.
    Mr. Jiron, I would also like to be able to go back to some 
of the visit that we had down in Pagosa Springs, some of the 
issues that we are seeing as we drive throughout the West 
Slope, particularly in Colorado; in fact, our entire state. We 
have a variety of different designations on our land. As I 
travel through our district, 54,000 square miles of Colorado, I 
see people who love their state, care about the environment 
that they live in and want to be able to protect it, and I 
think that is part of the Forest Service mission as well, to be 
able to protect the landscape that we see.
    But the recent report, the report that I mentioned in my 
earlier question, noted that only 25 percent of the bark beetle 
outbreak area was accessible due to designations, and it was 
inhibiting the Forest Service's ability to be able to 
effectively allow the opportunity to be able to treat these 
areas.
    So I am curious. What impact do designations have? Are we 
inserting the win-win philosophy, the common sense value, when 
we have the real threat that every person on this panel noted 
is a threat to the State of Colorado, to our environment, to 
our water, to our tourism, to the ability to be able to create 
jobs by not allowing access into some of these areas to be able 
to treat?
    Mr. Jiron. Thanks for that question. It is a compelling 
one. I think that designations play a part in management. We 
have been dealing with that issue of some kind for decades, and 
we do have to think about how something is designated as we 
formulate management plans to do it.
    As I mentioned in my testimony, though, a lot of the work 
that we have had to do in the immediate last few years related 
to bark beetle has been emergency work. Much of that work has 
had to occur in wildland-urban interface, near communities, 
nearest to communities. Those areas tend not to have as much 
designation or some kind of sanction from Congress.
    So we have been able to use our authorities both in the 
national forest system and state and private forestry to be 
able to use those. As we go further into it, we may have to 
work through challenges. But as many on the panel have 
mentioned today and as all of you have acknowledged, there is a 
great deal of work to do.
    So I haven't bumped into it as much in terms of management. 
We may run into that, and we will deal with that as we go. But 
again, a lot of the emergency work is around communities and 
private landowners and that sort of thing.
    Mr. Tipton. OK, thanks.
    Ms. Fishering and Mr. Dodd, a big concern I have is it is 
about jobs and the economy. We want to be able to do things 
sensibly. We want to make sure that we are doing it right. We 
want to be able to create those win-wins.
    But you have worked in this part of Colorado for years and 
have obviously been integral to the timber industry in this 
area, which we have seen as really suffering. But also, you 
know the effects that this is having on our larger community as 
well.
    What impacts have you seen that the decline in the timber 
industry have had on our ability to create, to sustain jobs, to 
be able to create a healthy community, and to be able to 
provide for our children's future?
    Ms. Fishering. I don't want to go ad nauseam about 
merchantable saw timber, but you can't have a sawmill if you 
only use small diameter. The emphasis--and it is a challenge 
for the Forest Service because the forest health, public health 
and safety is key in our state with falling trees because of 
bark beetle. However, the trees falling on the roads aren't 
typically good, merchantable saw timber. So, therefore, we are 
creating a tension between the needs of getting biomass out of 
the forests and what is economically effective to keep the 100 
jobs at the Montrose mill.
    The allocation of dollars, I brought that up. Keep in mind 
that this region is truly the second lowest funded region in 
the country. It didn't have the extra money when we had the 
bark beetle attacks coming. We had to deal with--we got extra 
campground money, extra road maintenance dollars. We did not 
get one extra dollar for timber management dollars, which kind 
of ties their hands behind their back. That is where I talk 
about conflicting laws.
    Right now, there is a new algorithm. It is an algorithm out 
of D.C. that cuts hazard fuel treatment dollars to this region 
of Colorado. That took $400,000 right out of the budget of this 
forest right here, but we got an extra $400,000 from the new 
authority, but we are not gaining any traction.
    So without that right allocation of dollars, all of our 
hands are tied even if we come to all the agreement in the 
world. But we need saw timber, and people who are the 
collaborators often don't understand a tree this big is a whole 
lot different than a tree this big. This species is different 
than that species. There is a lot of devil in the details.
    But we are working on it. We meet with these folks 
regularly. But allocation of dollars is going to be huge. 
Algorithms that get unintended consequences are killing jobs in 
Colorado.
    Mr. Tipton. Thank you.
    Mr. Bishop. Thank you.
    Allow me to ask a couple of questions, if I might, first of 
all to Mr. Georg. Especially if you are talking about reopening 
a plant, all the time in D.C. we are hearing that one of the 
reasons that forest timber sale programs are in decline is 
because there is simply no market for it. If this is the case, 
why is your group trying to reopen a sawmill?
    Mr. Georg. That is a very good question.
    Mr. Bishop. Right into the microphone.
    Mr. Georg. Is that better? Can you hear me now? How about 
now? OK.
    It is a very good question. One of the conditions--we have 
not opened the mill yet. It is our intent to open the mill. One 
of the things we need before we open the mill is a supply of 
saw timber, and it is important to note that it is saw timber. 
We have purchased our first timber contract, but we realize 
before we open this mill we need to acquire a number of 
contracts.
    Mr. Bishop. Is there a market for your product?
    Mr. Georg. I am sorry. Yes, there is a market. Lodgepole 
pine can be used for studs. It will not be appropriate for 
places like Home Depot and places like that, but there is a 
wholesale market for lodgepole pine, and we can use it.
    Mr. Bishop. OK. Thank you. Then let me go to Ms. Fishering 
again, if I could.
    One of the testimony that was given in here by a different 
witness says that litigation has only affected a very small 
percentage of hazardous field projects, which may be true for 
hazardous field projects, but is there any value--what has been 
your experience with litigation on projects that offer 
sufficient material to keep those mills running?
    Ms. Fishering. Our history in Colorado very specifically is 
we had those issues in large scale in the '90s, and that is 
what led to the lowest supply of saw timber in the history of 
this region, and Representative McClintock spoke to that, and 
it was by 2001 that most of the big mills closed, leaving ours 
as the only one, and the collaboration has helped us avoid the 
litigation.
    What it does do, the one downside of collaboration is it is 
compromise, compromise, compromise, sometimes to get to that 
sweet spot where everyone agrees, and what I see being lost is 
saw timber. So we decide, oh, we won't work here, we won't get 
you quite as much as you could get. We need them to understand 
economics because that is, right now, a handicap for us in 
Colorado.
    Mr. Bishop. All right. So in addition, they are 
compromising you out of existence. What about land designation 
such as the wilderness habitat restrictions? How does that 
limit the land base for the management?
    Ms. Fishering. I still believe we can strategically target 
areas. We have some very good examples. I think of the Upper 
Blue, where we sat down with everybody in the room, and this is 
more power and water because we are trying to protect the 
reservoirs, the City of Denver, and we found plenty of acreage 
that we needed to treat that was on suitable land.
    The problem is so big, there are plenty of acres even with 
some of the restrictions. There are some areas we can't be 
strategic. But you talk to our power companies. We try to find 
the most fire risk location, and we have been able to find 
suitable acres to get that done.
    Mr. Bishop. OK. Mr. Wilkinson, I think I probably know this 
from your testimony, but is there sufficient balance, in your 
opinion, with how the Forest Service manages for multiple use?
    Mr. Wilkinson. No, there is not, in my opinion, and I think 
too much of the decisions or too many of the decisions are 
based on, as I said, ideology and not on hard science.
    If I could follow up to Ms. Fishering, I don't claim to be 
a forest health management expert, but I can tell you when we 
increase our roadless, upper tier roadless to 1.4 million acres 
from 550,000 acres, it is going to have an effect on our 
ability to manage those forests. I believe that is a key 
contributor.
    Mr. Bishop. Thank you.
    Mr. Jiron, if I could ask you a couple of questions in a 
minute or less. What kind of beetle treatments are you able to 
implement in wilderness areas?
    Mr. Jiron. In wilderness areas, we are limited to what we 
can do to any non-mechanized treatment, open trails and things 
like that.
    Mr. Bishop. In the 2011 regions report, you said the 
commercial access on large scales that would support a long-
term supply of wood to industry is difficult outside of the WUI 
and at-risk communities. Can you elaborate on what you mean? 
What are the reasons that make this difficult? In 20 seconds or 
less.
    OK, now it is 24.
    Mr. Jiron. Much of our resources have had to go into 
wildlife-urban interface based on the level of beetle 
infestation to protect communities.
    Mr. Bishop. Did that answer my question? Why is it 
difficult outside of those areas?
    Mr. Jiron. Because we have had to invest a lot of our 
resources----
    Mr. Bishop. So that is the prioritization you are using.
    Mr. Jiron. Correct.
    Mr. Bishop. I see.
    Mr. Jiron. The prioritization.
    Mr. Bishop. My time is up.
    Mr. McClintock, do you have some more questions?
    Mr. McClintock. Yes. Actually, Mr. Chairman, I would like 
to defer to Mr. Tipton on some issues involving transmission 
that are critical to the work of the Water and Power 
Subcommittee.
    Mr. Tipton. Thank you, Chairman McClintock.
    Mr. Downie, I did want to follow up with you. How does 
losing transmission lines to wildfire or falling trees present 
an economic and a public risk? Can you talk about that a bit?
    Mr. Downie. To some degree. Obviously, transmission 
operations itself is not my expertise. But to give you an 
example, I think somebody mentioned the 2002 Hayman fire, and 
we lost just one structure on a 230 line by Cheesman Reservoir, 
and it took us a week to get that structure rebuilt due to 
terrain issues, but also access issues and those types of 
things. So that is kind of ominous if more structures are lost 
or more than one line was affected.
    Mr. Tipton. So it is economic and it is a safety risk if 
you aren't allowed to get in and treat; correct?
    Mr. Downie. Yes, sir.
    Mr. Tipton. Right. Mr. Downie, the ability to be able to 
get in and use equipment, you talked in your testimony 
originally about if you got a foot off of your right-of-way, 
you may have had some issues, but assuming you can stay in your 
right-of-way, is the ability really to be able to get in trucks 
to be able to make these treatments, is that critical to the 
delivery of transmission and to keep those lines up and going?
    Mr. Downie. Yes, in some cases. In our testimony we were 
referring to mechanized equipment, essentially equipment that 
can masticate dead trees very effectively. In our issues there, 
again it is an inconsistent thing. In some parts of the forest, 
it has been welcomed. In other areas, it has been shunned. Some 
areas we are told that we need to do NEPA and that kind of 
stuff in order to use it, other areas we don't. So it has been 
very inconsistent.
    But when we are dealing with a dead forest, as somebody 
said, kind of falling down around our ears, we hesitate to put 
our contractors at risk with hand crews to fell those trees 
when we can take a piece of mechanized equipment like, for 
example, a slash buster, which is a track hoed vehicle with a 
masticating head on it, and a tree falls on that, you don't 
have too much of an issue.
    But we can get the work done much more efficiently, 
effectively, cost-effective and safely. You can't use it 
everywhere because it is restricted by slope and access, and 
unfortunately in some areas the time has now passed for us to 
really take advantage of it because there was such an urgent 
issue for us to get those trees dealt with, we just went ahead 
and did it by hand.
    Mr. Tipton. So it is a matter of public safety. Maybe you 
could explain just a little bit to us--and I will be happy to 
yield back, Chairman McClintock, if you had any other 
questions--but what do you need to more safely manage the 
transmission lines that run through government? We were talking 
about conflicting regulations, the ability to be able to get 
in, timeframes. What would really help accelerate this for you?
    Mr. Downie. I think the Forest Service needs more 
flexibility, and examples of that would be, for example, again, 
we are talking about a relatively small footprint here when we 
are talking about utility lines. How about something like a 
categorical exclusion from some of this stuff so that we can go 
in and deal with those three operational issues that I 
described in our testimony so that we can just go in and get it 
done?
    We also need to have the liability issue dealt with. We 
weren't the cause of the dead forest adjacent to our line. It 
is not our property. So we see us as needing some relief from a 
liability perspective on that issue.
    Mr. Tipton. Thank you, and I yield back.
    Mr. McClintock. Thank you.
    Mr. Georg, about how long does it take the Forest Service 
to prepare an average timber sale?
    Mr. Georg. My understanding is it takes about 3-and-a-half 
years on a normal timber sale.
    Mr. McClintock. Now, after a tree gets infected by beetles 
and dies or is killed by fire, how long does the tree remain 
marketable for higher-value products like 2x4s?
    Mr. Georg. You are asking me a question I am not sure of. 
But my understanding----
    Mr. McClintock. Mr. Dodd or anyone who is in the business? 
Ms. Fishering?
    Mr. Dodd. Anytime between 3 and 6 years. It depends.
    Ms. Fishering. And I think it is higher than that. There 
are all sorts of--you can evolve to different kind of products 
at a certain stage because the tree continues to check during 
the winter, which means cracks into the trees, so you get less 
and less saw timber. But the plan at the sawmill in Montrose 
was to change product mix over time so we would be able to be a 
factor and to be helping on using those trees for at least 10 
years. It depends on geography and it depends on weather. But 3 
to 6, if we said that, we would be closing our doors to most of 
the mills in Colorado. We are finding a good way of staying in 
business using that wood.
    Mr. McClintock. The concern I am trying to explore is that 
just the bureaucratic delay alone in preparing the sale 
consumes a great portion, if not the entire portion, of the 
salvage time that you have to go in and get that timber for 
high-value products.
    Ms. Fishering. Which is why we support using the Healthy 
Forest Restoration Act, which shortens that time period for a 
conventional timber sale.
    Mr. McClintock. Yes, but then you have the litigation that 
follows on top of that. That is the problem in my area. We have 
had tremendous forest fires, enormous volumes of fire-killed 
timber that is still salvageable. But once we get through the 
bureaucratic process, then the litigation starts, and the 
litigation has no chance of success but it is able to delay the 
process enough so that we can't salvage any of that timber, 
which is simply insane.
    Ms. Fishering. True.
    Mr. McClintock. Thank you. I yield back.
    Mr. Bishop. Let me ask a couple of final questions, if I 
might, Mr. Jiron, if I may of you. How many acres do you treat 
with stewardship contracts versus traditional timber sales?
    Mr. Jiron. With stewardship contracts, since 1999 we have 
treated about 70,500 acres. So it is a good portion of our 
work, but we still use traditional timber sale contracts for 
the balance.
    Mr. Bishop. Give me a reference point to what ``good 
portion'' means.
    Mr. Jiron. If I can submit for the record, I can get back 
with you a number for that.
    Mr. Bishop. We have heard from--I would appreciate it if 
you would.
    We have heard from a few of our witnesses talk about how 
the timeframe for allowing timber harvests exceeds the 
timeframe for when the beetle-killed trees can be produced for 
a high-value product. Is it even possible within our current 
authority to correct this discrepancy and allow trees to be 
harvested in a timely manner?
    Mr. Jiron. We share that concern. In South Dakota we have 
been looking at NEPA efficiencies that have increased the time 
that we have been able to get to a decision and move on with 
the project. I am looking at trying to transfer those 
efficiencies to elsewhere in the region just to help us be able 
to move faster so we are doing all we can within the statutory 
authority we have.
    Mr. Bishop. So the answer was no, you don't have the 
authority to move this timeline.
    Mr. Jiron. We are using all the authority that we have 
right now.
    Mr. Bishop. All right. So I am making the assumption that 
if it is still slow, then you need more authority to move the 
timeline forward.
    Mr. Jiron. Well, there----
    Mr. Bishop. And I am not trying to put words in your mouth. 
I think that is a summation of what took place.
    Chief Tidwell sent a communication out very recently which 
simply said, ``When appropriations are reduced for parts of our 
mission, production and services will also be reduced.'' I 
recognize it is difficult, and you oftentimes have dangerous 
jobs that you and your land managers do on the ground, and we 
appreciate the work the agency is doing to address this 
epidemic. But this fiscal crisis is actually a reality, and the 
bottom line is this problem is not going to be solved with more 
Federal funds coming in for the problem. Sometimes I wonder if 
even the priorities are straight. The last time you had 
stimulus money that came to Colorado for this issue, you got 
$53 million. Only $16 million was put toward this problem. 
Others went to some more aesthetic kinds of situations.
    I will give you the last--do you have other questions from 
either of you?
    Mr. McClintock. No, sir.
    Mr. Tipton. No.
    Mr. Bishop. Then I will actually give you the last chance 
to address one of the concerns I have.
    This is not a new issue. We have been over 20 years with 
this issue. The solution is not new. We all know what it is. I 
don't care what the problem is, whether it is drought or 
climate change or management practices, the solution is to thin 
trees. We all know that, and we are not doing it for over 20 
years. We are flat-out not doing it. And that is why the 
frustration I have as we start to look through new aspects and 
new concepts, and we are starting to try other words that sound 
good. ``Collaboration'' is the new word. ``Transparency'' was 
the old word. It still means we are not doing it. We know what 
we need to do, and we are flat-out not doing it.
    [Applause.]
    Mr. Bishop. No, wait. I told you, you can't like anything I 
say.
    [Laughter.]
    Mr. Bishop. Senator Udall asked for a study that came out 
of the Rocky Mountain research department. It was actually last 
September, and I just read it over the weekend, and I am very 
much concerned about what I flat-out have read in here, that 
when we are talking about what areas have been treatable so 
far, we are talking about, like, 18 or 12 percent of the roads 
that have done--12 percent of the roads mitigated for hazardous 
trees, 12 percent of the trails mitigated for hazardous trees, 
61 percent of the recreation sites, 18 percent of the wildland-
urban interface. We are not coming even close to where the 
problem is, and we still all know what the problem is.
    And then the conclusions of this report are scary to me. 
They say, ``The factors that limited access to many areas for 
treatment to maintain forest stands, which include slopes, 
adjacency to inventory roadless areas, prohibition of 
mechanical treatment in designated wilderness, are still 
applicable today, and they haven't changed at all.'' And then, 
``Owing to terrain, budgetary, economic, regulatory limitations 
that also deals with things like our social license'', which 
means lawsuits, ``as well as roadless policies, owing to that, 
active management will be applied to a small fraction, probably 
less than 15 percent of the forest areas killed by the Mountain 
Pine Beetle.''
    The problem is--I am sorry. I get this sense of frustration 
in here. This is not new. We know what the solution is. There 
is no new solution. I am very frustrated that we are actually 
not moving forward in a way that solves the problems, and if we 
did so, we would solve some economic problems at the same time.
    So I will give you--once again, don't like what I say, 
please. I went over 12 seconds. I will give you another minute 
if you would just like to respond to that in summation.
    Mr. Jiron. We are absolutely committed to increase the 
amount of thinning and work that goes on in national forests. I 
know, we know that communities are benefitted by this, 
watersheds are benefitted by this, that it reduces the amount 
of taxpayer funding in catastrophic fire costs. So we will 
continue to use everything we have to be able to increase this 
work.
    Mr. Bishop. I appreciate that, and I think that is a fair 
summation. My problem is everything we have ain't good enough, 
and we have to do more, and I don't care whether that is a 
directive from Washington or it comes from the grassroots up. 
Somewhere along the line, I think that is what my colleagues 
have said here as well. What we have been doing for 20-plus 
years is not good enough and we have to change that way.
    With that, I want to thank our witnesses for their valuable 
testimony. As I said earlier on so you would be prepared for 
it, members of the Subcommittees here and not here may have 
additional questions for the witnesses. We ask you to respond 
to these in writing. The hearing record will be open for 10 
business days to receive any kind of responses that you may 
have or additional written testimony if you would like to add 
that to it.
    I would also like to thank those who have been here in 
attendance. It has been a respectful audience. I told you, we 
are running under the rules of what would happen if this were 
back in Washington, D.C. So when I said you can't like or 
dislike what we say, I am sorry, but you can't, and I 
appreciate the way you have held on this topic, which is a very 
significant and important topic, and an emotional topic as 
well.
    Mr. Tipton, I would like to yield to you if you would like 
to say one last word before we bring this Committee to a close.
    Mr. Tipton. Well, thank you, Mr. Chairman. I would like to 
thank everyone in attendance, particularly our panel for taking 
the time to be able to be here today. I know for many of you, 
that is time away from work, and that is something that is 
critically important.
    You know, just out on the road, we have a logging truck 
that is parked with a load of logs, and this is something that 
I think Chairman Bishop and Chairman McClintock have spoken to 
very eloquently.
    It is not brain surgery to be able to create healthy 
forests, and that is ultimately what we want to be able to do. 
One thing that we often don't think about, particularly in a 
year like this, is we are looking up on the Sneffels Range and 
we are seeing our snow shed starting now to be able to 
evaporate. Those trees are actually part of what helps protect 
our water. So we need those healthy forests to be able to do 
that.
    Our logging industry has actually played a very critical 
role in terms of job creation and those healthy forests. So I 
applaud those efforts, applaud J.R.'s concept of being able to 
take some of these downed and dead timber and to be able to 
turn it into usable energy and to be able to create jobs right 
here in the 3rd Congressional District.
    I thank all of you for your time because this is a 
passionate issue and an emotional issue at a variety of 
different levels. But as I listened to the testimony that went 
through, we do have that common ground of people that care 
about this state. I believe what I have been able to hear are 
sensible ways of just good common sense through the Forest 
Service to be able to address some of these issues. We look 
forward to being able to work with you to help be able to 
facilitate the fulfillment of your mission, and that is healthy 
forests and helping industry to be able to create jobs and be 
able to get people back to work.
    I will close. There is one other component that we have not 
talked about. Congressman Bishop, you and I visited on this at 
length at times, but this is also about education for our 
children as well, when we are talking about secure rural 
schools, our ability to be able to get in and harvest. So the 
multiple benefits that we can see I think are critically 
important.
    I certainly want to thank my two counterparts for taking 
the journey down to one of the most beautiful parts of the 
entire world here in Montrose County and for being with us, and 
thank you for your efforts, and all of our staff here as well.
    Mr. Bishop. You had to bring in the education part. You 
knew I am a school teacher, didn't you? You had to bring that 
in.
    What I also want you to do is, if you would thank the 
Montrose High School ROTC for the very professional way in 
which they did the Color Guard for us, or the posting of the 
colors, I appreciate that.
    And once again, for all of you, thank you for allowing us 
to come here and visit you in Montrose.
    If there are no objections heard, this Committee hearing 
will be in adjournment.
    [Whereupon, at 10:50 a.m., the Subcommittees were 
adjourned.]

    [Additional material submitted for the record follows:]

                          Constituent Feedback

Brian Bavin
1009 Tiyoweh Trail
Montrose, CO 82403
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="01757360686d7368656473636e63417860696e6e2f626e6c">[email&#160;protected]</a>
970-240-8546

Comments:

        1)  All roadless areas should be eliminated if they 
        have not been designated official as wilderness as of 
        now. This would allow the USFS and BLM to properly 
        manage these areas.
        2)  Potential tax incentives or subsides to the 
        development of chipping and/or politicizing of products 
        other than logs in order to facilitate the use of these 
        sustainable resources for the production of energy.
                                ------                                


                          Constituent Feedback

Ken Emory
2551 Silver Way
Montrose, CO 82401
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="caa7a5bfa4beaba3a4a0afafbaafb88aaba5a6e4a9a5a7">[email&#160;protected]</a>
970-596-5111

Comments:

    We need to be able to get access into WSA's and wilderness 
areas to manage for wild fires. All of our public lands are 
controlled by some federal agency. Each year more and more of 
our public lands are being closed for recreation, mining, 
logging and other areas that are creating job losses for local 
communities. However, each year more and more citizens are 
wanting to use their public lands, which should provide 
positive economic impacts, but it can also cause over use in 
some areas. Over 20% of Colorado mountains are designated 
wilderness. We need to manage our public lands not close them 
off forever for all future generations.
                                ------                                


                          Constituent Feedback

Richard Frantz
512 E. Main St
Montrose, CO
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="652632313625080a0b11170a16004b0b0011">[email&#160;protected]</a>
970-249-9008

Comments:

    Rep. McClintock asked why it costs money to government to 
harvest trees when it used to be a profit center for the 
government. His question was never answered, I would like to 
hear that answered.
                                ------                                


                          Constituent Feedback

David White
PO Box 1611
Montrose, CO
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="80c4f3f7b7b7c0e1efecaee3efed">[email&#160;protected]</a>
970-252-4531

Comments:

        1)  Please note that any discussion of biomass or using 
        wood chips for power generation will run straight into 
        Obama's Executive Order on mercury and air toxins 
        standards that allows the EPA to not only shut down 
        coal fired power plants that might also burn biomass 
        but the timber industry due to its onerous regulations 
        via the EPA!
        2)  Note in testimony by Mr. Jiron that $33 million is 
        available to treat 16,000 acres when Ms. Robertson 
        stated that 30,000 acres were destroyed in the Burn 
        Canyon fire. Something is wrong with this picture!!

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
